<html>
<title> - RECOVERY ACT: 10-WEEK PROGRESS REPORT FOR TRANSPORTATION AND INFRASTRUCTURE PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
      RECOVERY ACT: 10-WEEK PROGRESS REPORT FOR TRANSPORTATION AND 
                        INFRASTRUCTURE PROGRAMS 

=======================================================================

                                (111-26)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             APRIL 29, 2009

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure












     RECOVERY ACT: 10-WEEK PROGRESS REPORT FOR TRANSPORTATION AND 
                        INFRASTRUCTURE PROGRAMS















     RECOVERY ACT: 10-WEEK PROGRESS REPORT FOR TRANSPORTATION AND 
                        INFRASTRUCTURE PROGRAMS

=======================================================================

                                (111-26)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

49-497 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)

























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY

Alvord, Dennis, Acting Deputy Assistant Secretary of Commerce for 
  Economic Development...........................................    30
Barker, J. Barry, Executive Director, Transportation Authority of 
  River City in Louisville, Kentucky, Representing the American 
  Public Transportation Association..............................    63
Biehler, Allen D., Secretary of Transportation, State of 
  Pennsylvania, representing the State Association of Highway and 
  Transportation Officials.......................................    63
Heist, Melissa, Assistant Inspector General for Audit, U.S. 
  Environmental Protection Agency................................    55
Jackson, Hon. Lisa P., Administrator, U.S. Environmental 
  Protection Agency..............................................     4
LaHood, Hon. Ray H., Secretary, U.S. Department of 
  Transportation;................................................     4
Millea, Matthew J., President of the New York State Environmental 
  Facilities Corporation, Representing the Association of 
  Interstate Water Pollution Control Administrators..............    63
Morris, Michael, Director of Transportation, North Central Texas 
  Council of Governments, Representing the Association of 
  Metropolitan Planning Organizations............................    63
Prouty, Paul F., Acting Administrator, General Services 
  Administration.................................................    30
Salt, Terrence C., Principal Deputy Assistant Secretary of the 
  Army, Civil Works, U.S. Army Corps of Engineers................    30
Scovel III, Calvin L., Inspector General, U.S. Department of 
  Transportation.................................................    55
Siggerud, Katherine A., Managing Director, Physical 
  Infrastructure Issues, U.S. Government Accountability Office...    55
Stadtler, Jr., Donald A., Chief Financial Officer, Amtrak........    30

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Boozman, Hon. John, of Arkansas..................................    83
Johnson, Hon. Eddie Bernice, of Texas............................    88
McMahon, Hon. Michael E., of New York............................    93
Mitchell, Hon. Harry E., of Arizona..............................    96
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    97
Price, Hon. Tom, of Georgia......................................    99

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Alvord, Dennis...................................................   101
Barker, J. Barry.................................................   107
Biehler, Allen D.................................................   114
Heist, Melissa...................................................   122
Jackson, Hon. Lisa P.............................................   130
LaHood, Hon. Ray H...............................................   144
Millea, Matthew J................................................   156
Morris, Michael..................................................   164
Prouty, Paul F...................................................   168
Salt, Terrence C.................................................   176
Scovel, III, Calvin L............................................   180
Siggerud, Katherine A............................................   232
Stadtler, Jr., Donald A..........................................   250

                       SUBMISSIONS TO THE RECORD

Committee on Transportation and Infrastructure:

  The American Recovery and Reinvestment Act of 2009 
    Transportation and Infrastructure Provisions Implementation 
    Status as of April 17, 2009..................................  xiii
  Process for Ensuring Transparency and Accountability in Use of 
    Highway Recovery Act Funds - Year 1, chart...................  lxiv
  Additional Transportation and Infrastructure Committee 
    Infrastructure Investment Formula Funding provided under P.L. 
    111-5, the American Recovery and Reinvestment Act of 2009....   lxv
  Transportation and Infrastructure Committee Transparency and 
    Accountability Information by State and Formula Funding 
    under, the American Recovery and Reinvestment Act of 2009 
    (P.L. 111-5).................................................   xci
Carnahan, Hon. Russ, a Representative in Congress from the State 
  of Missouri, questions for Mr. J. Barry Barker.................    85
Hall, Hon. John, a Representative in Congress from the State of 
  New York, questions for Administrator Jackson and Secretary 
  LaHood.........................................................    86
Jackson, Hon. Lisa P., Administrator, U.S. Environmental 
  Protection Agency:

  Responses to questions from Rep. Hall..........................   140
  Responses to questions from Rep. Olson.........................   142
  Responses to questions from Rep. Shuster.......................   143
Lipinski, Hon. Dan, of Illinois, question for Hon. Lisa P. 
  Jackson, Administrator.........................................    91
LaHood, Hon. Ray, Secretary, U.S. Department of Transportation:

  Responses to questions from Rep. Hall..........................   149
  Responses to questions from Rep. McMahon.......................   151
  Responses to questions from Rep. Olson.........................   153

                        ADDITIONS TO THE RECORD

Federal Emergency Management Agency, U.S. Department of Homeland 
  Security, written statement....................................   255
International Boundary and Water Commission, C.W. ``Bill'' Ruth, 
  United States Commissioner, written statement..................   256
Natural Resources Conservation Service, U.S. Department of 
  Agriculture, Dave White, Chief, written statement..............   260
Smithsonian Institution, Dr. G. Wayne Clough, Secretary, written 
  statement......................................................   268
United States Coast Guard, U.S. Department of Homeland Security, 
  written statement..............................................   273

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



HEARING ON RECOVERY ACT: 10-WEEK PROGRESS REPORT FOR TRANSPORTATION AND 
                        INFRASTRUCTURE PROGRAMS

                              ----------                              


                       Wednesday, April 29, 2009

                   House of Representatives
    Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:00 a.m., in Room 
2167, Rayburn House Office Building, the Honorable James 
Oberstar [chairman of the Full Committee] presiding.
    Mr. Oberstar. The Committee will come to order.
    We meet today to carry through on the commitment this 
Committee made when we launched the initiative for stimulus and 
did so in December of 2007. Our first proposal was for a $15 
billion investment in the initiatives in the programs under the 
jurisdiction of this Committee. That grew over time as people 
realized that we were in a recession, and it was sometime later 
that the economists said, oh, the recession began in December 
of 2007. Well, that is what we said right here in this 
Committee; and we had bipartisan support.
    When we launched that proposal, unemployment in the 
construction trades was 968,000. There were sand and gravel 
pits closed all over America and more closing every month, and 
ready mix concrete suppliers and asphalt cement suppliers out 
of business.
    Mrs. Miller. It was nice to be here.
    Mr. Oberstar. It was good to have you here for a while, 
Mrs. Miller.
    Mr. Mica. I apologize, Mr. Chairman. There are protests at 
the bottom of the hill, protests at the top of the hill. I just 
did something I haven't done in at least seven or eight years, 
they let us go over the top of the visitor's center. It was a 
historic voyage to get here.
    Mr. Oberstar. Well, there is no protest, only a welcome 
here.
    Mr. Mica. Thank you. I apologize. I tried to get word to go 
ahead without me.
    Mr. Oberstar. Well, Mrs. Miller sat in for you very well, 
Ranking Member for a morning.
    By the time we brought our bill to the Floor, unemployment 
in the construction trades was 970,000; today it is 1,900,000. 
We began work in earnest on a revised, upgraded, updated 
version. Our portion that passed the house in January this year 
was $85 billion. By the time we got through conference, that 
was scaled back to $64 billion. But through it all, through it 
all I insisted on transparency and accountability, and 
deadlines for the State DOTs to meet, for MPOs to meet, for the 
transit agencies and for all other beneficiaries of these 
funds. There is going to be accountability. We are going to 
show the American public where their dollars are going and the 
jobs created, and do this step by step.
    I have been through three or four of these, and I served on 
the staff. My predecessor, we had in 1962, 1963, the 
accelerated public works program. That was $900 million, and it 
took a lot longer for the projects to play out. We would 
actually be under contract and get into work than was initially 
anticipated. Then, after I was elected to the House, we had 
Local Public Works I in 1977, and it took less time for those 
to go out than an accelerated public. Then we had Local Public 
Works II, and the process was not yet streamlined.
    Now we have, learning the lessons of those three previous 
experiences, applied them in this legislation, required States 
to come up with only those projects that have been designed, 
engineered, right away acquired, EIS completed, public review 
process in place, and down to final design and engineering; all 
you need is the money. And that is for highway and bridge and 
transit and wastewater treatment facility projects, and then 
for the other Federal agencies, the FAA and the Corps of 
Engineers and so on. And we had lists of projects and we had 
States scrub those lists, and we had the MPOs do the same and 
we had the transit agencies do the same.
    We had a hearing in September, we had a hearing in October, 
we had another hearing in January and everyone said kumbaya, we 
are all ready to be accountable to put these projects in place. 
So the purpose of this hearing is to be the proof of that 
pudding. Today is the day when the rubber meets the road, when 
the projects begin the accountability process. We are going to 
have another hearing in another 30 days. So we now have a total 
of $6.4 billion put out to bid on the highway and transit side 
in 47 States and the District, 1380 projects, 263 in which work 
has already begun, and, as of March 31st--we will have some 
updated figures today, I expect--with 1200 workers in the 
construction trades no longer sitting on the bench, but in the 
workplace; no longer being paid for not working, but being paid 
a paycheck where they can make their mortgage payments, they 
can send their kids through school, and they can contribute to 
this economy in a constructive and positive way.
    With that, I yield to the distinguished gentleman from 
Florida, Mr. Mica, our Ranking Member, and thank him for his 
participation in this process all along.
    Mr. Mica. Well, thank you, Mr. Chairman. Appreciate your 
calling this hearing and also helping us make certain that we 
acted responsibly and act responsibly in assessing how Federal 
dollars in a huge stimulus package that was well intended, but 
we want to make certain the funds are well directed. I 
appreciate your good work.
    Now, I think I am going to give everybody a pass on this 
one because we are only a short time into this, a matter of 
weeks, but we still want folks to be held accountability and we 
are watching very closely how money is being spent.
    I am not going to get up here, and there are other agencies 
that have not been as good a steward as Secretary LaHood and 
the Administration has been on transportation. I have got a 
$550,000 skateboard park in Rhode Island. I think you have seen 
that one on TV. We have got other money that goes for 
restoration of museum motorship. We have got different 
examples. So we have to keep our eye on projects that may not 
be of the best merit.
    I won't get into all the transportation things that have 
been brought to my attention, but I do want to mention one, and 
that this is a bridge that served a corporation--I won't name 
it--that is probably making some of the biggest money ever in 
the United States. So I think we need to look at who gets the 
money and, again, how the money is spent. So that is the first 
point I want to make.
    The second thing is it has been brought to my attention the 
State of Ohio plans to spend $57 million in Federal stimulus 
money on highway projects that won't begin for years. Now, I 
don't know if that is totally correct. I do know, however, in 
talking with my State transportation secretary and others 
throughout the Country--and I just came from a meeting with 
Colorado folks and some from California; and this is the same 
problem we faced before, Mr. Oberstar, when we were trying to 
get the bill done--that there are many projects that are caught 
up in process, so I guess we have to spend some money on study 
and getting those projects to where they can be eligible for 
this money. But we do have questions that have been raised 
there.
    The other point that I want to say--and I think GAO has 
looked at this--is I am concerned about how grant recipients 
report job creation, which is one of the requirements under the 
Recovery Act. So we have accurate data on how many jobs are 
being created. The GAO found the existing criteria to measure 
job creation maybe too vague. So maybe in some tightening or 
tweaking--I know the Secretary can do some things within his 
power, and if he needs additional authority or direction or 
commentary in legislation, we will be glad to work with him.
    Those are my concerns. But, again, I think we have to give 
folks a pass at this juncture. I think the hearing that we will 
have in another number of months here that you have scheduled 
will be very telling, because people want jobs and they want 
employment, and they want it now and they want infrastructure 
now, rather than later.
    Thank you. I yield back.
    Mr. Oberstar. I thank the gentleman. The purpose of the 
hearing is to have that very openness, accountability, and 
transparency in the process.
    Mr. DeFazio for two minutes.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, I just 
want to focus on one entity in my State, because I think they 
have done something that could be replicated. TriMet in 
Portland--which I don't have the privilege of representing--
took their recovery act money and put it into 30 separate 
projects. They have needs; they need buses, and they are all 
for new buses and efficiency, and we love the work that is done 
at New Flier and we are for jobs there. But since we have the 
second highest unemployment in the Nation in Oregon, they 
wanted a more direct local impact, and they were apparently 
fairly unique in doing this. They identified 30 separate 
projects. They have a need for a new bus fuel and wash 
facility; they are going to build that. They are going to put 
bus pads on city streets. They are building a park and ride. 
This is going to have much more of a local impact and create 
jobs.
    And the other really innovative thing they have done is 
they have a new way of tracking the jobs. We are not going to 
use the estimates and say, well, we spent this much money, it 
must have created this many jobs. They actually are going to 
track the jobs online. They are going to be linked to the 
databases of the contractors and they are actually going to 
track the jobs weekly that are created by this money; and there 
is apparently a well developed system to do this; it has been 
used more for labor compliance, but now they are going to use 
it to track the job generation, and I think that could be a 
national model so we can get real hard numbers on how many jobs 
we are creating, which would help us to get the investments we 
need in any future legislation, in addition to surface 
transportation authorization.
    Thank you, Mr. Chairman.
    Mr. Oberstar. I thank you for those comments.
    Now we will proceed to Secretary LaHood and Administrator 
Jackson. Thank you very much, both, for being here.
    Mr. Secretary, this is your first appearance on the other 
side of the table. When you were first elected to Congress, you 
started your service in a very distinguished manner on this 
Committee. Welcome back. Welcome to the other side of the 
table.

   TESTIMONY OF THE HONORABLE RAY H. LAHOOD, SECRETARY, U.S. 
 DEPARTMENT OF TRANSPORTATION; THE HONORABLE LISA P. JACKSON, 
      ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Secretary LaHood. Thank you, Mr. Chairman.
    Mr. Oberstar. Congratulations on the great start that you 
have made at DOT.
    Secretary LaHood. Thank you.
    I sat right where my successor is sitting, about that far 
down when I first came on the Committee. There were bout the 
same number. So there is hope, Aaron.
    [Laughter.]
    Secretary LaHood. Not that you will be where I am at, but 
there is hope that you will eventually be up there where the 
Chairman and Mr. Mica are.
    Mr. Oberstar. I will advise Mr. Secretary that he started 
off with his first comment in this Committee in a very 
appropriate fashion, and I said there was a great future for 
you here. You supported Member projects.
    Secretary LaHood. Mr. Chairman, Mr. Mica, and Members of 
the Committee, thank you for inviting us today. I want to say a 
special word of thanks to a number of Members of this Committee 
for your leadership already. I have probably at least six 
meetings with Mr. Oberstar and Mr. Mica on a number of issues 
about the way forward, and I have met with Mr. DeFazio and 
other Members of the Committee on issues that are important to 
all of you, and I thank you all for your leadership and 
inviting us here today to discuss the progress in implementing 
the American Recovery and Reinvestment Act of 2009.
    I am enormously proud of the men and women at the 
Department who have worked extraordinarily hard to implement 
this groundbreaking legislation in record time, while fully 
embracing the letter and spirit of the Recovery Act's 
commitment to accountability and transparency.
    While there is much work remaining, I believe we have 
already achieved enormous success. Of the roughly $48 billion 
provided to the Department by the Recovery Act, we have 
announced nearly $45 billion for roughly 2800 surface and 
aviation improvement projects. As of this week, more than $9 
billion of these funds have been obligated in nearly every 
State and territory. Our modal agencies have done their part to 
move these funds out the door as quickly as possible.
    The Federal Aviation Administration has been very effective 
in soliciting and reviewing project proposals and awarding 
discretionary funds so that ready-to-go airport improvement 
projects could begin. Within two weeks of passage, the Federal 
Highway Administration appropriated funds and has been working 
aggressively to move projects through the approval process. The 
Federal Transit Administration now has 136,000 transit agency 
grant proposals totaling nearly $1.5 billion ready to be 
obligated, and the Maritime Administration will soon award $100 
million in grants to hundreds of small shipyards. The Recovery 
Act also makes historic investments intended to jump-start new 
high speed rail passenger service for the Nation. Later this 
summer, we will begin awarding a portion of the $8 billion in 
recovery funds to deserving rail corridor projects all over the 
Country. And the Department is finalizing criteria for awarding 
an additional $1.5 billion in discretionary grants for merit-
based projects across all modes.
    The upshot of all of this is that we are helping to restore 
a measure of hope to the middle class by putting men and women 
back to work in good paying, technical, and professional jobs.
    I recently traveled to New Hampshire to visit a highway 
project funded by the Recovery Act. There, I met construction 
workers who were going back to work. Many of them have been 
laid off previously. These individuals are now back on the 
payroll, supporting their families and contributing to the 
local economy.
    This unprecedented effort to invest in our Nation's 
infrastructure demands equally unprecedented levels of 
accountability and transparency. We want to assure American 
taxpayers that these recovery funds are spent wisely and on 
projects that add value to communities. The Department is 
providing effective oversight to meet the statutory 
requirements of the Recovery Act.
    First, our internal executive oversight management team, 
the TIGER Team, has issued new guidance on data and financial 
reporting requirements to ensure that the money trail is 
followed closely and accurately, and that progress is shared 
clearly with the public on our recovery Web site.
    Second, we have developed a systematic and comprehensive 
approach to risk management which the Office of Management and 
Budget has since adopted for government-wide use. This approach 
entails a formal assessment of potential risks and puts 
mechanisms in place to identify, mitigate, and validate risks 
across all program categories.
    And, third, we have implemented new layers of 
accountability based in part on recommendations from the 
Department of the Inspector General and the Government 
Accounting Office.
    We have made it clear to all staff that there is a zero 
tolerance policy for waste, fraud, and abuse as the recovery 
program unfolds, and we will continue to work with auditors to 
identify new and innovative ways to participate and respond to 
any accountability and disclosure challenges that arise.
    Let me say that it has been a privilege to participate in 
the most ambitious effort to improve our Nation's 
infrastructure since Eisenhower commissioned the interstate 
highway system more than half a century ago. I am confident the 
Department will continue to assure that the Recovery Act works 
on behalf of all Americans to rebuild our economy and our 
future, and I look forward to your questions, Mr. Chairman. 
Thank you.
    Mr. Oberstar. That is a very good start, very good report.
    We have seven minutes remaining on the time of this vote. 
We will proceed to Ms. Jackson.
    Administrator Jackson, thank you very much for agreeing to 
take on this challenge at EPA. You come with a great background 
and record of experience and service, and with a good spirit, 
as well, to move us ahead. So thank you very much for your 
service and we look forward to hearing your report.
    Ms. Jackson. Well, thank you, Chairman Oberstar. Thank you 
for those kind words. To you and Ranking Member Mica and 
Members of the Committee, I thank you all for the opportunity 
to appear before you today to discuss EPA's implementation of 
the American Recovery and Reinvestment Act of 2009. Like my 
colleague, I would be remiss if I didn't take just a moment to 
thank you and Members of this Committee for historic support of 
clean water projects which have made such a difference in the 
lives of so many Americans.
    Every Member of this Committee has seen firsthand in your 
districts that our Nation faces the most pressing economic 
crisis since the Great Depression. When President Obama took 
office 100 days ago, he immediately began working with Congress 
to pass the Recovery Act to create and save jobs, jump-start 
the economy, and build the foundation for long-term economic 
growth. Seventy-one days after its passage, the Recovery Act is 
creating good jobs for Americans around the Country and making 
the investments that we have ignored for far too long, and EPA 
will play a key role in that effort.
    The EPA has been allotted over $7 billion to put Americans 
back to work by investing in clean water, by cleaning up and 
redeveloping the toxic sites that languish in our 
neighborhoods, by addressing leaking underground storage tanks, 
and by installing technologies that reduce air pollution from 
diesel engines. These investments will not only improve human 
health and the environment, but they will create thousands of 
green jobs and spur training and innovation throughout the 
economy.
    In Colorado, we awarded grants for diesel emission 
reductions on local school buses, which grows jobs, saves money 
for school districts, sparks innovation, and, most importantly, 
protects children when they ride to school in the morning.
    In Portland, Maine, the Recovery Act will help put a small 
family-owned business struggling to pay its 19 employees, with 
no work and no contracts, back to work. Grants from the State 
Revolving Fund portion of the Recovery Act will allow them to 
put their employees to work and boost their local economy.
    Another State Revolving Fund grant in Kermit, West Virginia 
is putting people in jobs to improve the town's wastewater 
treatment facility. Kermit, which is an economically distressed 
town, has been trying to get funding for this project for over 
a decade. Now, at a time when the economic needs are greatest, 
the people there are at work, improving the town and the 
environment surrounding it.
    These programs will aid our economic recovery and will 
protect and increase green jobs, sustain our communities, 
restore and preserve the economic viability of our property, 
promote innovation, and ensure a safer, healthier environment. 
To realize all those benefits, time is of the essence. The 
speed at which we move is critical because the faster we 
initiate projects in struggling communities, the faster we 
initiate a nationwide economic recovery.
    And, Mr. Chairman, EPA has quickly stepped up and responded 
to the task of getting money obligated to these various 
projects. The Recovery Act put new Buy American requirements on 
the Clean Water and Drinking Water State Revolving Funds, which 
are by far EPA's largest Recovery Act funded programs. In 70 
short days, EPA conducted extensive stakeholder public outreach 
and, yesterday, issued a memo to its regions and States on how 
EPA will interpret this new requirement. Of the $7.22 billion 
thus far made available to EPA, we have already distributed 
over $1.8 billion to all 50 States. Of this figure, the vast 
majority, over $1.6 billion, has been obligated through the 
State Clean Water and Drinking Water State Revolving Funds, and 
nearly $100 million for the Clean Diesel program.
    In addition, EPA is actively soliciting bids for Superfund 
projects. While the start time for the projects will vary, EPA 
expects to quickly have bids completed, shovels in the ground 
and jobs created. And to keep that money moving into the 
communities, EPA offices have specifically created internal 
management processes designed to expedite the flow of Recovery 
Act funds to qualified grant recipients and contractors. A 
portion of EPA's Recovery Act funds will be used to ensure 
accountability, oversight, and transparency.
    The President has also made it clear that though we move 
with urgency, we must also carry out these efforts with full 
transparency and accountability. EPA has developed quantifiable 
outputs and performance measures, along with reporting 
requirements, to ensure that funds are spent as directed and 
that they meet the economic and environmental goals set forth.
    Mr. Chairman, EPA has an extraordinary opportunity. We can 
help to provide solutions to our economic challenges at the 
same time we protect human health and the environment in 
communities across the Nation. We do not take that lightly. Nor 
do we fail to understand the extraordinary trust and 
responsibility put in us by you and by the American people to 
steward these funds effectively and efficiently. We are eager 
to work with this Committee, our Federal, State, and Tribal 
partners, and the public to implement the American Recovery and 
Investment Act of 2009 with oversight, accountability, and 
transparency.
    Thank you gain for inviting me to testify here today, and I 
look forward to answering any questions you may have.
    Mr. Oberstar. We will have questions. I am sure all Members 
have questions about the progress, but compliments to both of 
you on moving out smartly, quickly, and with those very focused 
comments that you just now delivered. Your seriousness of 
purpose is very reassuring to me and should be reassuring to 
the whole Country.
    We have 320 Members who have not yet voted and a minute 
remaining on this vote. We have two five minute votes after 
this, and we will result in roughly under 20 minutes. The 
Committee stands in recess.
    [Recess.]
    Mr. Oberstar. The Committee will resume its sitting. I 
thank all participants for their patience.
    Mr. Secretary and Madam Administrator, thank you again for 
your presentation, for a very crisp review of the status up to 
this point. I just want to project on screen this process for 
ensuring transparency and accountability that I crafted at the 
outset of our Committee version of the stimulus to put in 
motion the process that OMB has adopted, that the President has 
embraced, and that Secretary and the Administrator are 
testifying to, and that is a view that the funds would be best 
used if they went out by formula, if they went to State DOTs on 
the highway and to the MPOs and to the transit agencies 
according to a formula already existing in law for projects 
that, as I have already said, but I will say it again, were 
through all of the phases down to final design and engineering, 
cleared the public review process, are ready to go to bid but 
for the money; that this would be 100 percent Federal funds, so 
we wouldn't burden States, who already have severe fiscal 
problems, by requiring them to come up with matching funds; but 
that we would also require maintenance of effort, certification 
by each governor that they will continue with the program of 
projects they have already planned to do for the current fiscal 
year, that the State Revolving Loan Fund agencies would do the 
same, and the transit agencies would do the same; that there 
would be a sign-off on the program of projects for the current 
fiscal year under the 80/20 formula and sign-off for the 
stimulus.
    Did you receive those certifications, Mr. Secretary?
    Secretary LaHood. For every project that we have approved, 
we have received certifications from the States, their 
governors and the State DOT.
    Mr. Oberstar. Thank you.
    Ms. Jackson, has EPA received sign-off from the State SRF 
management entities on the program projects they plan to do and 
those that they will do on the stimulus?
    Ms. Jackson. That is part of the application, Mr. Chairman. 
So as we move through the SRF distribution process, we are 
receiving that information.
    Mr. Oberstar. And, Mr. Secretary, have you had any 
resistance of any kind from State DOTs on the reporting, on the 
transparency and the accountability?
    Secretary LaHood. Absolutely not. They get it. They know 
that these are dollars that are coming their way and that there 
has to be total transparency and total accountability, and we 
have heard no complaints.
    Mr. Oberstar. Well, that is good to hear. I had the same 
reaction. Initially there was a little push-back and 
questioning, but then the county engineers, the career 
engineers in the various State DOTs all said this is an 
opportunity for us to show that we can deliver, that we can 
produce these projects within that 90-day framework. We had 
some push-back from some county engineers in my district I met 
with who said, well, you know, we will still have frost in the 
ground if you hold us to that 90 days. I said, have you ever 
heard of dynamite? Blow the goddamn thing up----
    [Laughter.]
    Mr. Oberstar.--and build it. Oh, you are ready seriously 
about this. I said, you are darn right I am. You are working, 
but there are 2 million construction workers who aren't. Your 
job, my job, our job together is to put them to work. That is 
what this is all about.
    You have authority, Mr. Secretary, in the legislation for 
discretionary, about $1.5 billion in discretionary funding, and 
the question I had is you made reference to, in your prepared 
remarks to projects that are unique. What did you have in mind? 
How are those dollars going to be used for such initiatives?
    Secretary LaHood. We have sent to the White House our memo 
on what we believe would be some good guidelines for the use of 
the $1.5 billion, and they are reviewing that information. My 
own feeling is that the Congress, when it passed the economy 
recovery and our portion of it, put a very good amount of money 
for roads and bridges, $28 billion; a very good amount of money 
for transit, $8 billion; obviously, the President's initiative 
on high speed rail; and $1 billion for airports. So our own 
inclination is to be thinking in terms of some other 
opportunities around the Country. But I can't be specific 
because I want the White House to have a chance to review this 
information.
    Mr. Oberstar. Of course. I understand. So that is what you 
are doing with it, you have instituted an initiative for their 
review, and then you will come back and take action.
    Secretary LaHood. That will be put in the record and 
everyone will know what the criteria is, and we will be off to 
the races.
    Mr. Oberstar. That is great. The questions that we had 
early on in this process, as well, if you do it this way, if 
you do it the way the Committee proposed and then the way the 
President embraced, we may not get the best quality projects, 
may not have things that--that is not the criteria. The 
criteria is jobs. Does this put people to work in a short 
period of time? Are we taking them off the bench, are we 
putting them on the job, taking them off the unemployment rolls 
and putting them on the payrolls?
    Do you have any questions, have questions been raised to 
you so far in this process about the ``quality'' of projects 
submitted? Does that make any difference?
    Secretary LaHood. Well, look, Mr. Chairman, you know this 
and the Members of the Committee do because you represent very 
creative--there are a lot of creative projects; there are a lot 
of creative people in America. Everyone on this Committee 
represents people who want to get their friends and neighbors 
back to work, and there is no better way to do it than building 
infrastructure. There is no quicker way to do it than the way 
it was laid out in our portion of the economic recovery. We are 
getting the job done; the States are getting the job done. And 
you are going to see thousands of people working on some more 
traditional type projects, but some innovative and creative 
projects too.
    Mr. Oberstar. Well, there will be plenty of time for long-
term creative thinking when we do the six-year transportation 
bill, which we will have to discuss with you soon.
    Mr. Mica.
    Mr. Mica. Well, thank you again. I appreciate your coming 
in and keeping us posted on your progress. First, Mr. LaHood, 
most of your money is going through formulas to States, 
particularly on transportation projects. The States are really 
picking the projects, you are not picking them, is that 
correct?
    Secretary LaHood. That is correct, the governors and their 
State DOT people.
    Mr. Mica. Do you think we have enough controls or 
constraints or guidelines to try to get the best projects? 
Again, the Chairman and I share the same goal for job creation. 
I cited a few of them that have raised some eyebrows, about 
picks. Do you think that the guidelines are sufficient and that 
you have the authority you need to direct the money to get to 
jobs?
    Secretary LaHood. Absolutely. We talk to the State DOT 
folks everyday, and the Vice President and myself talk to 
governors on a regular basis and----
    Mr. Mica. A certain amount it appears is going for 
planning, and I am not against that or for studies, and that 
does also create jobs. We don't have any guidelines, though, as 
to any percentages that they can expedite, say, on studies, as 
opposed to construction?
    Secretary LaHood. They have to meet our guidelines for 
putting people to work and----
    Mr. Mica. Well, then, you have seen the GAO commentary. Is 
there something else we need to do to tweak this to make 
certain that there is clarity in, again, reporting on the job 
creation requirement that we have?
    Secretary LaHood. We have worked with State DOTs and we are 
working with OMB to really get the best definition of what a 
job is so that we can really accurately reflect it.
    Mr. Mica. You know, everything is based on experience, and 
we are only a short time into this, but would you anticipate 
additional guidelines being sent out on, again, use of this 
money and reporting back on job creation?
    Secretary LaHood. Well, we are going to be reporting on job 
creation on a regular basis, on a quarterly basis.
    Mr. Mica. But, again, the problem was the clarity in 
definition, which GAO identified as a problem. I didn't, I 
just----
    Secretary LaHood. No. Look, it has been difficult and we 
are very close to really defining what a job is with the use of 
this money.
    Mr. Mica. Well, again, if they have a problem or there is 
something we need to do legislatively, we can assist in any 
way, so I know you will let us know.
    Mr. Oberstar. Would the gentleman yield?
    Mr. Mica. Yes.
    Mr. Oberstar. You raised a very interesting point about 
planning. The question is what is meant by planning.
    Mr. Mica. Well, planning or study to get us to a project 
which is--we had talked so much about shovel ready. I cited the 
Ohio instance and there are others. I am not sure how many jobs 
that creates on a study----
    Mr. Oberstar. I would just like to give mention to the 
gentleman I had met with two weeks ago. A young man from my 
hometown, he has moved away from Chisholm, Kevin Zalek. Kevin 
went on to engineering school, he is a civil engineer, and he 
and his wife came to Washington. He said, a month ago I was out 
of work. I am now back on the job and I am using this one week 
of vacation time that I earned designing roads. That is what 
our civil engineering firm does now.
    Is that planning? He is back on the job as a result of the 
stimulus.
    Mr. Mica. And I think that is part of the----
    Mr. Oberstar. So I think those who raise these questions 
need to be a little more precise about what--not you, but the 
report you are citing.
    Mr. Mica. The report back I got is that some of those that 
are being designed won't be built for three or four years, so 
that is the question. All I am trying to do is make certain 
that the money gets there and that there is clarity in also 
reporting back on the jobs that are being created. My heart 
aches seeing folks without a job, and our whole objective--your 
objective, the Administration--was to get people to work as 
soon as possible. So, again, we will work with you on that.
    Then you have some other areas, I guess, under your--I 
think you spoke mostly about highway, but you have Coast Guard, 
TSA, maybe some FEMA money. How is that going out?
    Secretary LaHood. We have money for ports and we have money 
for ferries.
    Mr. Mica. What percentages? I mean, you reported $48 
billion of DOT. Again, how much is formula and how is at your 
discretion to these agencies that wouldn't be formula, and how 
much of that----
    Secretary LaHood. The $1.5 billion is discretionary; the $8 
billion on high speed rail, we are going to be working with 
rail corridors around the Country on that money; the $28 
billion is formula, that is for roads and bridges; the airport 
money, we had $1 billion, almost all that money is out the 
door.
    Mr. Mica. Okay.
    Secretary LaHood. Almost all of it is for runways.
    Mr. Mica. Because some the States will get out, some you 
are getting out.
    Secretary LaHood. The transit money, we are working 
directly with transit----
    Mr. Mica. What percentage of your money that isn't by 
formula would you say is out, 90 percent, 80? Do you know? Or 
maybe you could let us know, because we are giving money in big 
bulk to let States distribute money, and then we have 
responsibility to get money out too, Mr. Chairman, from 
agencies. So if you could let us know on that, I would 
appreciate it.
    Now, EPA, your money isn't going out by formula, you are 
doing grants, or are there also formula support? Could you give 
us an update on that, please?
    Ms. Jackson. The vast majority of EPA's money, $6 billion 
out of our $7.2 billion, go through the State SRF programs. 
That is a program with 30 years of experience. Every year 
States do----
    Mr. Mica. But the bulk of yours is----
    Mr. Oberstar. Goes by an allocation--if the gentleman would 
yield. Goes by an allocation to States established over time, 
and that is fixed in policy.
    Mr. Mica. But my question is all that can go out has gone 
out to that, and then you have some discretionary money, which 
would be about $1 billion, then?
    Ms. Jackson. It is about $1.2 billion.
    Mr. Mica. Okay.
    Ms. Jackson. And not to correct you, but, for the record, 
about 25 percent of the formula-driven money is out. That is 
because States have to give us applications for the money. We 
are turning those around in two to three-week time periods.
    Mr. Mica. So 25 percent----
    Ms. Jackson. Of the formula-driven money, yes, sir.
    Mr. Mica. That is the $6 billion?
    Ms. Jackson. Yes, sir.
    Mr. Mica. Okay. And then of the discretionary money that 
you have to award for grants, it is about $1.2 billion. How 
much of that is out?
    Ms. Jackson. Very little of that is on the street right 
now. About $600 million of that is for Superfund, $100 million 
for brownfields. Those goes out through contracts.
    Mr. Mica. How soon can you get that out?
    Ms. Jackson. I believe we are talking months. As I would 
explain it and as my staff explained it to me, we are dealing 
with a few up-front issues which have slowed us down just a 
bit, but I feel very confident that we will see the bulk of the 
money moving----
    Mr. Mica. Can you let us know? And if there is anything we 
can do legislatively. If the impediment to getting the money to 
get the jobs is something we have to adjust, can you let the 
Committee know?
    Ms. Jackson. I would be happy to.
    Mr. Mica. Like I am meeting with brownfields folks. I 
needed to ask you that question to tell them that the money 
isn't out yet, and I have got to be able to tell them when. 
Everybody wants to know when is the money and how much will be 
available. Thank you so much.
    Thank you, Mr. Chairman.
    Ms. Jackson. Thank you.
    Secretary LaHood. Mr. Chairman?
    Mr. Oberstar. Yes, Mr. Secretary.
    Secretary LaHood. Just for the record, since these Ohio 
studies, I want you to know that we haven't approved anything. 
Nothing has been approved on these studies for Ohio. We are 
looking at it, we are working with them. Their folks would like 
them to be funded, but we want to make sure that people are 
going to go to work and they meet the criteria. So there has 
been no funding for any of these studies in Cleveland or 
Cincinnati, just for the record.
    Mr. Mica. And I am not against that. Again, we want to make 
certain that we are putting people to work in something. Again, 
we have to do the planning to do the job, but if the job and 
the shovel-ready isn't three, four years out. I don't know that 
even, Mr. LaHood, to be the case, but our intent is to work 
with you to make certain that there are no impediments from our 
standpoint or your standpoint not get money out. So thank you.
    And you all have done a good job. Just getting on stage, I 
said at the beginning this is not a time to criticize, it is 
not a time to go into depth; we will do that later on. But 
right now, if we can identify any problems or anything we can 
do to assist you and make this all happen, that is the point of 
this. Thank you again.
    Mr. Oberstar. In another 30 days we will have another shot 
at it.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here today. I think you 
were here when I made my brief opening remarks I would like to 
refer to your staff what TriMet is doing in terms of the 
database they are utilizing, where we get a very direct measure 
of at least primary job impact. Obviously there are secondary 
and tertiary effects in the community from those jobs, but I 
think it would be useful, because I believe, just from my 
experience, there are a few skeptics about the job generating 
capability of transportation infrastructure investments among 
the President's economic team, and we want to have the most 
convincing, hardest data possible to show to them.
    Secretary LaHood. We will work with them.
    Mr. DeFazio. That would be great.
    Secretary LaHood. Thank you.
    Mr. DeFazio. I would like to ask about the high speed rail. 
I am wondering. I believe we have 11 national designated 
corridors?
    Secretary LaHood. That is right.
    Mr. DeFazio. Are you thinking of spending the money across 
those corridors or concentrating on one corridor to try and 
have a significant result?
    Secretary LaHood. The illustration that I want to use is 
this is not dissimilar to when President Eisenhower signed the 
interstate bill. All the lines weren't on the map; it took 
three decades to get all the lines on the map, thanks to the 
Congress providing the dollars and the Highway Trust Fund and 
all of that. So we are at the beginning. So if somebody in the 
Country has a little heartburn that they didn't see their rail 
line, that doesn't mean it is not going to be on there. What we 
are going to do is convene a meeting with all the high speed 
rail corridor folks that have been dreaming about high speed 
rail for one day, one year, 20 years in Washington to find out 
what they are doing so they can give us a sense as to where 
they are in the process. Some of the money will go to help a 
corridor do a study to figure out what the alignment should be.
    In California they are way ahead of the curve; they have 
passed a referendum. They have been working on it for 20 years. 
There are corridors in New York. We know that the northeast 
corridor is there and probably could use some money to get to a 
little higher speed.
    So all of these corridors are in different phases. We are 
going to get them all together in a room and say not one 
corridor is going to get the $8 billion. We want to use it in a 
way that enhances opportunities so that, 20 or 30 years from 
now, we have high speed rail in America, and perhaps some of it 
is even connected.
    Mr. DeFazio. That would be great. That is a great vision 
and I endorse it. Some of it even connected would be great.
    We had one of the first six in the Pacific Northwest and we 
have been running an Acela train set on it, which is leased and 
operated by Amtrak, and it is a great train, but it doesn't get 
to go anywhere near its potential speed. And my State is 
working on some alternate routes to avoid some of the 
congestion. So, anyway, I am glad to see you are going to have 
an open process, bring folks in and see where we can leverage 
money and make progress.
    I know it is not your department, but I did suggest this to 
others in the Administration. I said we could cancel sending a 
man to Mars and invest that money in a 25-year plan to have 
high speed rail interconnected in the United States of America. 
Everytime I say this at a town hall meeting I get applause. We 
can send a robot back to Mars if we have to look around some 
more, but I think the high speed rail system would be of more 
concrete value.
    Secretary LaHood. Mr. DeFazio, just for the record, I want 
people to know it is $8 billion in the recovery money that you 
all supported. There is another $5 billion that the President 
is going to include over the next five years, so we are talking 
about $13 billion. That is 13 billion times we have ever had at 
the Department.
    Mr. DeFazio. Oh, no, it is a tremendous step forward from 
historic levels of neglect, in particular. In any case, I won't 
belabor that. Just one other point or question. I haven't seen 
a recent number on trust fund estimates. Are you anticipating 
that we will have to make an allocation into the Highway Trust 
Fund in order to maintain solvency during this fiscal year 
before we get to the new authorization?
    Secretary LaHood. Well, we are watching it very closely, 
and I think we can probably give you better guidance mid-
summer.
    Mr. DeFazio. Okay.
    Secretary LaHood. But we are watching it. I mean, I was 
here last year when we all supported $8 billion out of the 
General Fund into the Trust Fund, and we are watching it very 
closely.
    Mr. DeFazio. Well, I think you are doing a great job over 
here with the recovery programs, and we just don't want to have 
an offset over here losing our regular program funding and 
planned projects, which offsets the jobs we created here.
    Secretary LaHood. Good point.
    Mr. DeFazio. So appreciate that.
    Secretary LaHood. Thank you.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Oberstar. Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary, for being here. I just wanted to 
mention a concern that a number of--I met with our State 
association of municipalities, and mayors perceive themselves 
as where the rubber hits the road and providing an awful lot of 
services, and their concern was a delay in going through 
Federal to State down to local projects and wondered if any 
thought had been given at all to trying to move stimulus money 
through the community block grant program directly to cities 
for just road maintenance and upgrading sewers and some of 
these sorts of things. We have a lot of communities that are on 
a regular schedule of redoing their roads. Milwaukee is every 
110 years, for example, so they could do quite a bit fairly 
quickly in terms of--and that doesn't require delays because 
the infrastructure is already there, so they don't have to go 
through the planning process and all the different approval 
processes.
    Secretary LaHood. Well, Mr. Petri, we are going to follow 
the law. The law that was signed by the President, that was 
passed by this Congress does not allow for money to flow the 
way that you have suggested. Look, the President invited mayors 
to the White House just as he was signing this bill, and we 
know that there is some concern and heartburn about the fact 
that it is more difficult for local elected officials, but our 
advice is work with your State DOTs and work with the 
governors. The way that the Congress passed this, the $28 
billion for roads and bridges, we are working with the State 
DOT folks, because they have a mechanism to get it out the door 
or to get the money and have us get it out the door in a way 
that comports with the 120 days that you all put in your bill. 
And on these other modes, whether it is transit or airports, we 
are complying with the law. The law does not allow us to do 
what you have suggested.
    Mr. Oberstar. Would the gentleman yield?
    Mr. Petri. Of course.
    Mr. Oberstar. It is an intriguing idea of using the 
community development block grant program, but when, early on 
in this process, the U.S. Conference of Mayors and the National 
League of Cities came in to visit about the stimulus, I asked 
them what specifically they would recommend in addition to 
assuring that funds go out by formula through the MPOs. They 
said if we get that, they are satisfied, and they jumped for 
joy, in fact, at their various meetings and had a news 
conference at which we announced this. So I am intrigued by the 
idea of using CDBG, but I think the Secretary is right, there 
is no existing authority. And there were some ideas early on 
for various aspects of the program, all of which would have 
required new legislative authority, and I said, in concert with 
Mr. Mica, that we would not do anything new; we would use 
existing law, existing formula. That is known and that is a 
known process, and we wouldn't raise any additional questions 
about it. But thank you for the suggestion.
    Does the gentleman have further questions?
    Mr. Boswell.
    Mr. Boswell. Just briefly. When you took on that 
responsibility, Mr. Secretary, we had some conversation around 
the hallways that we thought was pretty good. We are pleased 
and appreciate the enthusiasm and expertise you bring to the 
challenge. You have got a big challenge, we know it, and I have 
every confidence we are going to work together and move the 
Country forward. I just want to thank you for your efforts.
    Secretary LaHood. Thank you, Mr. Boswell.
    Mr. Boswell. I yield back.
    Mr. Oberstar. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, Madam Administrator for being 
here today. I appreciate very much the insight. I know that, 
from a South Carolina perspective, we were just kind of 
concerned about the mix between new construction and 
maintenance. Do you all have any kind of analysis on those 
numbers?
    Secretary LaHood. The difference between the dollars we are 
spending, the mix between maintenance and--Mr. Brown, the law 
is very specific on this. The $28 billion for roads and bridges 
can either go to projects that were stopped because the State 
ran out of money and didn't have the money to finish it, or 
they can go to projects that have been sitting on a shelf 
somewhere that are ready to go. The dollars that we are sending 
out the door are really for those kinds of projects.
    Mr. Brown. So basically you just send a fixed amount to 
each State and then they really have the discretion, under 
those two parameters, to determine how those funds will be 
spent?
    Secretary LaHood. We use the formula that each State gets, 
so your State gets X amount of dollars, and under our 
provisions they would get that amount. Then it is up to the 
governor and the State transportation people to send us the 
projects that they would like to be funded. If they meet the 
criteria, we send the money out the door, and there is no match 
involved.
    Mr. Brown. And if the States do not spend those funds, what 
happens to those funds? When is their deadline for----
    Secretary LaHood. Well, we are just getting the money out 
the door. I want to tell you this, though, Mr. Brown, and to 
the entire Committee. Every governor, all 50 governors, have 
accepted the transportation portion of the economic recovery. I 
want everyone to know that. Because you know why? Because they 
know they can spend the money, put people to work in good 
paying jobs, and it is not going to take forever to do it.
    Mr. Brown. Well, that is the reason I was hoping, when the 
bill passed through the legislature, that it was more than $28 
billion involved. I was just hoping it would have been $200 
billion, because I know we have a backlog of needs in our 
State, and I am sure around the Nation. In fact, it brings me 
to my next question. There has been a long call for providing 
significant funding towards expanding our current interstate 
system. AASHTO has called for at least 10,000 miles of new 
interstate corridors. Are any of the highway dollars under the 
ARRA going towards interstate expansion?
    Secretary LaHood. Going towards interstates? Again, it is 
up to the States to decide with our highway folks. If they have 
projects that they started and stopped because they ran out of 
money, or if they have projects that are interstate projects 
and they meet the standards by our Department, we will certify 
them. But it is up to the governor and his State folks to find 
out what our criteria are and then to meet that, and the money 
will go out.
    Mr. Brown. I was real pleased to hear you say that nothing 
has really been done since Eisenhower, and I am really hoping 
that, as we look at the next reauthorization bill, that we will 
be able to address some of the gaps in the interstate system, 
and I would hope that you would bring some recommendations to 
us to help fill those gaps.
    Secretary LaHood. Yes, sir.
    Mr. Brown. Thank you.
    Secretary LaHood. Thank you.
    Mr. Oberstar. I thank the gentleman for his observation 
about $200 billion for the surface transportation program. We 
also contemplated a much larger dollar amount when, in December 
of 2007, I initially proposed a stimulus initiative and thought 
of a much bigger figure, but when I asked AASHTO for a survey 
of State DOTs and the numbers came in, we had 6500 projects 
that fit the criteria that can be under construction within 90 
days. We had a smaller universe than $100 billion of funding. 
My objective in fashioning the program was to do something that 
is doable; not that is dreamable, but that is doable, and the 
funding they came up with, those 6500 projects, seemed to be 
very much within the realm of the doable. We could have done a 
$200 billion stimulus program over a period of three years, but 
I think it might have been diluted by the time we got to that 
point.
    Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman. I just have one 
question for Secretary LaHood. I understand the importance of 
the local and county officials working with their governors to 
make sure that they also benefit from the Recovery Act, but you 
can understand that it is quite a challenge, even in those 
States, like my own, where the politics line up. So I wonder if 
there is some way that you look at what States are doing in 
terms of whether there is an allocation across the State that 
is fair and meets with many different needs and touches on 
multiple communities, because you can understand that, as a 
Member of Congress, we get these questions all the time from 
our local counties, our mayors; we haven't gotten our fair 
share. What kind of assessment do you make of the States in 
terms of the fairness of the distribution of the funds?
    Secretary LaHood. Well, at this point, it is a little 
difficult. Probably in about 30 days I could give you a better 
picture, because we are just now starting to certify projects 
and will be seeing where the money is being spent. But look, I 
want you all to know this Administration has a sensitivity to 
this. The President invited the mayors to Washington, and we 
listened to them and we know that there is a fair amount of 
heartburn that they don't feel that they aren't really getting 
their so-called fair share; and they have as many potholes as 
maybe another part of the State does.
    And the truth is there are cities, like New York or Chicago 
or LA, that would have the capability to do it, but there are a 
lot of other small cities around the Country that don't have 
the capability or the staff or the expertise to do what needs 
to be done in order to make sure we are spending the money 
correctly. The big cities don't have that problem; they have 
good people. And I met with the mayor of New York, Chicago, LA, 
Atlanta, and they told me all the same thing; we have the 
staff, we can accept the money, we will check all the boxes. 
But you get to smaller communities, communities of 50,000 or 
less, they don't have it, and that is why we really had to use 
the State DOTs to make sure it was done correctly.
    But there is a sensitivity towards the mayors, and what I 
have talked to the mayors about is when you all fashion a new 
bill, the metropolitan planning organizations were a good 
mechanism to help build the interstate system and 
infrastructure, but you have to have an opportunity now for 
suburban areas and rural areas to have some say in how they are 
going to get their portion of these dollars, because, as I 
said, they have as many potholes and bad roads as others do. 
And I hope you all will think about that. The metropolitan 
organizations have been fine, they did a good job, but they 
weren't inclusive enough to include a lot of other areas in the 
State like rural areas and like suburban areas. And you have 
mayors like Mayor Blumberg, Mayor Daly, the mayor of LA, the 
mayor of Atlanta who are reaching out to a lot of these mayors 
so they can be a part of the planning for infrastructure, 
because these things are connected. But for now we are left 
with the bill that we have and our ability to get the money out 
quickly and to get people on jobs. But I will try, within the 
next 30 days, to give you a better report on how some other 
cities are doing in States where they have had to deal with 
their DOTs and their governors.
    Ms. Edwards. Thank you, Mr. Secretary, I appreciate that, 
because it is really a challenge to explain to the 23 
municipalities in my little congressional district and a couple 
of counties about where that money is flowing in our State, and 
I think our State is one of the States that is actually doing a 
really good job, but it is still a challenge.
    Just one last question for Administrator Jackson, and it 
has to do with the green infrastructure project, because we 
have also passed out of this Committee a bill that we hope is 
going to eventually make its way to the President on the Water 
Quality Investment Act. The Recovery Act actually has a 
framework for green infrastructure that will, if it is done in 
the right way, will be the framework for doing the other green 
infrastructure, so I am concerned about how that is implemented 
and I wonder if you can speak to that and speak to the sort of 
green-washing question, because we don't want States using 
their 20 percent set-aside to say we changed lightbulbs, 
because I think there is great value in that, but I don't think 
that that was what we intended in Congress when we passed the 
Recovery Act.
    Ms. Jackson. Well, thank you, Ms. Edwards, and thanks to 
the entire Committee for the leadership it showed on the Green 
Project Reserve issue and for your interest in it. Just as a 
real quick update for those who may not have focused on this 
very issue, there is 20 percent set-aside of that $6 billion in 
a set-aside to be used for water-efficient, energy-efficient 
projects, innovative projects, sustainability projects, and we 
see that as a very important opportunity to show practitioners 
all across the Country that there are ways to make these 
projects sustainable in the long-term, where energy costs go 
down, meaning rates go down, meaning clean water becomes more 
available to people, not less available, and we are not 
constantly trying to catch up.
    We have committed to holding States, through their intended 
use plans, to a very high bar for the 20 percent. Two weeks 
after the legislation was signed, we came out--I am proud of my 
staff, they came out with guidance on this Green Project 
Reserve. That guidance included a list of the kinds of projects 
that are eligible. If you pick one of those projects, you don't 
have to justify anymore that it qualifies for the GPR. If a 
State wants to make an argument that they have another project 
that should qualify, they are going to have to show how that 
meets the guidance in the Green Project Reserve.
    We know that people are looking. We see this as an 
opportunity. Our own inspector general sees this as a very 
important place where EPA should hold a high bar, and we look 
forward to doing that.
    Ms. Edwards. Thank you, Mr. Chairman.
    Mr. Oberstar. I thank the gentlewoman for those questions, 
for the observations she made. And for those mayors who are 
raising questions, one, the MPOs have their formula 
distribution dollars that are in existing law and are part of 
the stimulus program, so the recovery funds are going out to 
those cities that have MPOs. Those that do not have to ask the 
question is the street project that I want fixed part of the 
national highway system. If it is not, if it is not on the 
160,000 mile national highway system, then it is not eligible 
for funding, because it has to be part of the national highway 
system formula.
    Mr. Secretary, thank you for your comments about rural 
roads. I assure you we will have a robust formula for rural 
roads.
    Of the 43,000 fatalities that occur on the Nation's 
highways, and have done for the last decade--that number hasn't 
come down; we need to bring that down--half of those fatalities 
occur on rural roads. Half of the people killed on rural roads 
are urbanites, and half of those fatalities occurred due to 
drunk driving or alcohol and drug-related driving. We have to 
attack both of those issues. We have to have a means by which 
States will be able to review their portfolio of rural roads 
and establish a six-year goal of bringing them up to a 10-ton 
road weight level for spring planting and fall harvest, as 
farms become fewer and larger and the needs to supply the farms 
and to bring out the harvest increase in load weights. We have 
to do a far better job in this next six-year period, and that 
is going to be an accountability issue; it is going to be a 
performance-driven approach, and we look forward to your 
participation.
    Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman.
    I appreciate both of you all so much for your willingness 
to serve in these positions. You almost have to have the wisdom 
of Solomon, and we pray that you will have that.
    Ms. Jackson, I had a situation where some of your folks 
came to visit with me about an issue, and then I wanted to 
follow up later on, so I asked my staff to get the phone number 
so that I could call one of the individuals that was there, and 
I was told that we couldn't do that, that we needed to go 
through the Government Affairs people, that I didn't have the 
ability to get on the phone and talk to the administrator or 
whatever of the particular thing. Is that how things are going 
to be run at EPA in the future? I have never had that situation 
with any agency before. I have got 675,000 people that I 
represent, and they feel like I should have the ability to talk 
to the people that run the programs. So is that something that 
is going to be that way in the future?
    Mr. Oberstar. If the gentleman would yield. I have had that 
experience over the last eight years. I don't expect that 
procedure to continue under this Administration.
    Ms. Jackson. Thanks to you both. I do apologize if you have 
had that experience. Part of EPA's job is to serve Congress and 
to get you answers for your constituents. The only request I 
would make is that we coordinate so that we can make sure you 
are getting answers out of the program. But if there was a 
concern, please let me or my staff know and we will rectify it 
for you.
    Mr. Boozman. So, like I say, then, if I call and ask for 
somebody's phone number so that I can talk directly to them, is 
that something that you are going to do or not do?
    Ms. Jackson. I am happy to make staff available to you. If 
you want to make sure that the answer that an individual 
staffer is giving you represents the Administration's position 
or my personal position, then I would only ask that we 
coordinate it through Congressional Affairs. But we will make 
staff available to you directly.
    Mr. Boozman. So you won't give us the phone number 
directly.
    Ms. Jackson. You are welcome to the phone number. In fact, 
sir, the phone number for every EPA staffer is on a Web site.
    Mr. Boozman. I know. That is what was so ridiculous about 
the whole thing. And I guess the question is--and, again, I 
have been on the Committee for many years; Mr. Oberstar is a 
good friend and does a tremendous job as Chairman. I mean, he 
had the problem evidently as a Democrat last time. Is this a 
Republican-Democrat thing this time?
    Ms. Jackson. We are nonpartisan at EPA. You are welcome to 
service and any number you would like. I do apologize for how 
you were treated; it isn't the way we would like to model our 
business, and we will get you whatever information you need.
    Mr. Boozman. Good. Thank you very much.
    Ms. Jackson. You are welcome.
    Mr. Oberstar. We will work with you to make sure that 
doesn't happen.
    Mr. Boozman. If you will yield, Mr. Chairman, you know that 
I am fairly easy to get along with, but it does seem like that 
we should have the ability to access people that are in various 
things. Again, just in follow-up, we are all busy. If we have 
to have some sort of----
    Mr. Oberstar. That is just simply nonsense. We shouldn't 
have to go through a KGB organization. We are not going to have 
that.
    Mr. Boozman. I agree.
    Mr. Oberstar. And you are easy to get along with, except 
for that time I went out to your district and the Chamber of 
Congress presented me with a hangman's noose.
    [Laughter.]
    Mr. Boozman. Well, they did two things. They presented you 
with a hangman's----
    Mr. Oberstar. That was an award of honor, though, I was 
told.
    Mr. Boozman. It was. And they also gave you a Liberty card 
where you could do anything you wanted without getting in 
trouble.
    Mr. Oberstar. That was wonderful.
    Ms. Norton.
    Ms. Norton. Thank you very much. I must say, the whole 
notion of a Member of Congress calling an administrator or a 
cabinet member and being told that you have got to talk to 
Congressional Affairs, that is a personal insult to a Member of 
Congress. All I can say is they better not do it to this 
Member. I mean, that is the most outrageous thing I have ever 
heard. You say it has happened before.
    I will yield to the gentleman.
    Mr. Boozman. Yes, ma'am. This was not a cabinet member, 
this was just a very hardworking, but lower level member of the 
EPA.
    Ms. Norton. Well, I would think that if someone calls 
somebody, maybe they have got to talk to somebody before they 
call back, but I have never heard of such a frontal insult to a 
Member of Congress than sending it to somebody who obviously 
doesn't know, because they are the liaison. So I just want to 
just go on record as agreeing with my good friend on the other 
side and how astonished I was to hear it.
    I want to welcome both of you. I want to tell you, 
Secretary LaHood, we miss you already and I am very pleased 
with how you are performing.
    Lisa Jackson, I don't know you. I hope to get to know you. 
I will tell you one thing, Donna Brazil does, and my former 
chief of staff has certainly regaled me of how fortunate we are 
to have you.
    I mention this only in passing, Mr. Secretary. I want to 
ask you in a little greater detail here. We discovered, when 
the stimulus money was about to go out, a section of your 
statute and ours that has long allowed States to spend some of 
the money for training. States have not regaled themselves of 
that, and one thing I would like to ask you to do is to provide 
this Committee with a list of the States--and I believe this 
has been since 2000, that in the authorization they could have 
used 0.5, I think, percent, up to that, for training. As a 
result of States not doing this, this is what we face with the 
stimulus money. Seventeen States have used it. Within 30 days, 
could you get to the Chairman the States that have used it and 
the amount that has been used on training from the authorized 
funds of the Transportation and Infrastructure Committee that 
come out every three or four years?
    Secretary LaHood. I will get it to you.
    Ms. Norton. Yes, thank you very much. The reason I am 
concerned is that, in light of the failure to take advantage of 
what was an encouragement, we required in your stimulus package 
and mine for a specific amount; not a specific percentage, a 
specific amount. Unfortunately, these amounts are very small. 
For the transportation funds, the appropriators allowed $20 
million could go for training, and of my own $5.5 billion only, 
only $3 million for training. What occurs to me is that is 
going to be real difficult to spread out, especially since this 
money is going to 50 States, the territories, and the District 
of Columbia. So some how or the other, the Department of 
Transportation and, for that matter, the GSA is going to have 
to figure out how to use a tiny amount of funds to start up 
training.
    I intend, Mr. Chairman, to make this a requirement in the 
new reauthorization funds. This is what we have done to 
ourselves. If there had been no training, this is what we 
confront: We would confront, on the one hand, the highest 
unemployment rate among journeymen. Because there has been no 
consistent training of minorities and women, you have an 
overwhelmingly white male workforce. Then you have these people 
who have never gotten a foothold, people of color and women. 
Now, all you have to do is get some money out on the street and 
people without jobs begin to say, well, where in the world are 
the jobs for ``people that look like me,'' the familiar cliche.
    The way in which we sought to avoid this without enough 
money to do so was to begin to train systematically, at least 
to some degree, minorities and women to allow them to get a 
foothold in the construction trade by setting aside some funds 
for those. Now, you know, $3 million nationwide, $20 million, 
put them together and that is not any money.
    Have you considered how to best use this money, perhaps for 
models going forward for reauthorization? Since you can't 
possibly, I suppose, spread it out and get much out of it, how 
your $20 million will be used, given the huge amount--I am not 
even sure what the amount is for highways now--how to go the 
biggest bang for the smallest buck out of that appropriation?
    Secretary LaHood. You know, we really haven't had much 
discussion about that, but let me get back to you, because I 
take your point on this, that it is difficult for people of 
color and others to sometimes get into opportunities, whether 
it is labors or other building trades. So I will get back to 
you with that.
    Ms. Norton. I would appreciate it. It seems to me it might 
make some sense, since highways and GSA are both in the 
construction business----
    Secretary LaHood. Right.
    Ms. Norton. -- for the two to collaborate so that we can 
get the biggest buck out of this. I can tell you this, Mr. 
Secretary, there will be howls. You have got the highest 
unemployment rate in your sector. These guys have been out 
there without work for the longest time. There are going to be 
howls unless we are able to say more about what we are doing 
with training, when people see all these journeymen out of 
work. They are not journeymen. There are, of course, minorities 
and women who are journeymen compared to what they would have 
been had we been systematically training using our funds, it is 
a pittance. And I bring this to your attention because there is 
going to be wholesale criticism in the States, and particularly 
in the cities, when they see this occurring, and I would like 
very much to work with you to have GSA, which comes under my 
own Committee's jurisdiction, the Committee of which I am 
Chair, work with Transportation so for, example, we might say 
where you are putting some funds, we would go someplace else so 
that the training, with as little funds as we had, would be at 
least spread out and we might be making sure we were using 
contractors who knew what they were doing, and not just 
throwing some money out there to say go train some minorities 
and women. There are a few who really do know what they are 
doing.
    Secretary LaHood. A very good point.
    Ms. Norton. Ms. Jackson, we have been told, this very day, 
that there is going to be some testimony from the IG at EPA 
about insufficient trained staff at EPA for doing the job that 
has to be done with Recovery Act, timely way, and that there is 
a potential for waste and fraud. I ask this question as a 
Member of this Committee, but also a Member of the Oversight 
and Government Reform Committee, where hearings have been held 
that have shown how difficult it is, even when you are not 
pushing money out very quickly in order to get jobs and saying 
get it done, time frames like the one we have set in this 
Committee, and already she alerts us that trained staff to do 
it, one, are there enough staff to do it? What actions are you 
taking so that it doesn't hit you in the face when somebody 
comes up--could be the IG, it could be somebody else--that says 
EPA funds are being wasted and the like?
    Ms. Jackson. Yes, I am aware that the IG has expressed 
concerns. In fact, our IG has already indicated that it has 
concerns about management of these funds, primarily because of 
the amount of money that is coming and, as you cited, the idea 
of pushing it on the street.
    You asked what we are doing to be in front of that issue, 
and we have done a number of things. I do believe that we have 
sufficient amount of staff. I do believe that we need to 
prioritize----
    Ms. Norton. The staff already on board or were there 
additional staff?
    Ms. Jackson. There is about $81 million to allow for 
additional oversight, as well as administrative work so we can 
augment. So we are doing some augmentation of staff, but not 
whole scale.
    It is a matter of setting clear standards and then working 
weekly, and EPA has set up a stimulus steering committee--the 
IG is a member of that committee--weekly to identify issues as 
they come up and to identify and open lines of communications, 
first, amongst our own staff and to ensure that EPA is 
communicating adequately sometimes very new requirements to 
States and municipalities. So it is an ongoing process----
    Ms. Norton. What about training? She is going to say that 
you don't have the trained staff to do it. Now, this is a 
terrible burden to put on you; get it done, train staff, and 
make sure they can do everything you are supposed to do over a 
record period of time. What are you going to do about training? 
Are you going to have to bring on people to help you----
    Mr. Oberstar. I am afraid this is going to have to be the 
last question. We are having a vote fairly soon and other 
Members are waiting, and we need to get to everybody, so 
please----
    Ms. Jackson. Any new staff will certainly need to be 
trained. The good news for EPA is that all of the money is 
moving through programs that we have run for years. The SRF 
programs, the Superfund programs, the brownfields programs, the 
diesel program, the LUST program, and EPA's staffing numbers 
were the one thing that were protected during years of some 
fairly significant budget cuts. So I do appreciate the IG 
highlighting the idea that trained contract managers, trained 
grant specialists need to be there in sufficient numbers, and 
we are certainly turning our attention to that as well. Right 
now, I feel certain that between EPA and the partnership--and 
it really has to be a partnership with States and 
municipalities--the vast majority of that money is going to be 
safely and transparently managed.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Oberstar. The gentleman from Pennsylvania.
    Mr. Shuster. Thank you, Mr. Chairman. Also, I am glad to 
hear your comments on a robust rural program in the upcoming 
authorization bill, so I applaud that. Contrary to popular 
belief, my district still has needs for infrastructure and 
highway building. Probably the number one misconception I face 
in my time in Congress.
    [Laughter.]
    Mr. Oberstar. I remember so well, after ISETEA and Senator 
Moynihan was asked by the reporters, well, which State came out 
ahead on this, Moynihan drew himself up to his full 
professorial stature and said I believe the State of----
    Mr. Shuster. Altoona.
    Mr. Oberstar.--Altoona.
    [Laughter.]
    Mr. Shuster. Now, you have just increased the pressure on 
me to perform in the next bill.
    [Laughter.]
    Mr. Shuster. But I want to thank the Secretary and the 
Administrator for being here today. I appreciate your service. 
Also, PennDOT and the district engineers, the money is flowing 
out, the contractors are getting back to work, so I 
congratulate you and thank you for a job well done. We need to 
keep that moving. I also want to echo what my other colleague 
said. I wish it would have been $200 billion or $150 billion, 
or something more north of where we ended up. But that being 
said, again, thanks for what you are doing.
    A question about high speed rail. We have identified, I 
believe it is, nine corridors around the Country, one that we 
left out, which I don't know how it happened, was the northeast 
corridor is not identified as high speed rail corridor. 
Hopefully, we can correct that in upcoming legislation. But 
that $13 billion, which 5 on top of the 8 I guess were the 
numbers, can you tell me a little bit about the strategy about 
spending on that? Because my concern is that we will just put 
dribs and drabs all over the place and not really focus on 
getting a couple of those corridors completed. California I 
think is fairly far ahead; the northeast corridor, of course, 
Amtrak is there and we own the track; and I believe the 
midwest, Milwaukee to Chicago, not only are they far advanced, 
but the fact that we have got a Secretary of Transportation and 
Chief of Staff at the White House and the President all being 
from Illinois would seem to me those would be the three 
corridors we might want to focus on to spend that money to 
really get something done, instead of, as I said, just doing 
partials here and there, and I wonder what your thoughts were 
on that, Mr. Secretary.
    Secretary LaHood. Well, first of all, let me just pay my 
compliments to your governor and his transportation people. The 
reason that Pennsylvania is doing so well is because they have 
shown extraordinary leadership. I have been over there on a 
couple of different occasions with the governor, with the mayor 
of Philadelphia and other mayors, and there are an awful lot of 
people that are going to be going to work very, very soon in 
Pennsylvania. So they are to be congratulated for that.
    With respect to high speed rail, I go back to what I said 
to Mr. DeFazio. This is the beginning. When the interstate 
system was formed, all the lines weren't on the map. All the 
high speed rail lines are not on the map, but the people that 
have been dreaming for decades about high speed rail have now 
seen their dream come true because there are $8 billion in our 
portion of economic recovery and another $5 billion in the 
President's budget over the next five years. We are going to 
jump-start opportunities for high speed rail very, very 
quickly, and every corridor is in a different phase of 
implementation. So our Department is going to convene a meeting 
of all the high speed rail dreamers from around the Country, 
representing corridors including the northeast corridor, the 
midwest corridor, southern corridors, western corridors. We are 
going to ask them to bring their dreams and plans to Washington 
and talk to us about it so that we can work with them to figure 
out what is the best use of the $8 billion to really jump-start 
our opportunities.
    Two or three decades from now the dream will be that 
America will be the model for high speed rail. Europe is now, 
and so is Asia, but we can be too, the way that we are for the 
interstate system. That dream really came true because of 
President Eisenhower and a Congress that wanted to put the 
dollars into it. That is why we are the model for the 
interstate system. We will be the model for high speed rail if 
we use our money in wise ways and take the kind of expertise 
that exists in the Country today for people who have been doing 
this on their own dime. We are right on the cutting edge of 
developing a system that I think will be the model for the 
world at some point here in the next couple of decades.
    So not any one corridor is going to get all the money. Some 
may get a portion to begin a process of dreaming and others 
will get a portion so they can really kick-start their 
opportunities.
    Mr. Shuster. That is good to hear.
    Secretary LaHood. The northeast corridor is a part of high 
speed rail; they have been on the cutting edge of passenger 
rail. And if you straighten out a few lines in between these 
communities that Amtrak runs, you can get up to a fairly good 
speed.
    Mr. Shuster. That is good to hear and you sound excited, so 
I appreciate that.
    Secretary LaHood. All right.
    Mr. Shuster. Thank you. I see my time has expired. I just 
wonder, Administration, if you can give me in writing--you 
don't have to answer because my time has expired--how is the 
EPA working to streamline some of these approval processes. I 
know that the nature of most of the projects out there are on 
the shelf or in the process. Many of them have probably gone 
through the process, but any time, I have found in the past, 
you have a project that comes up that hasn't gone through the 
environmental process, it sometimes takes years. So if you 
could have your staff just sort of give me in writing what are 
the things you are doing to streamline that process, I would 
appreciate it.
    Thank you.
    Mr. Oberstar. We are doing that in the transportation bill. 
We made a good start on it in the SAFETEA legislation. Section 
6001 of Title XXIII, U.S. Code has the language referring to 
project permit expediting. I have invited all the State DOTs to 
comment on that language, tell us what their experience has 
been in using it. Very few have actually used that authority. 
We need to step it up further. Environmental permitting is only 
one of--well, it is a big one, but it is one of many, many 
permits that have to be issued in the course of a highway or a 
transit or other projects. So my goal is, in the next 
transportation bill, in the Federal Highway Administration, to 
establish an office of project expediting to coordinate that 
initiative with all entities that have a permit to issue, 
whether it is Fish and Wildlife Service, National Park Service, 
the National Trust for Historic Preservation, the EPA. All of 
them have to be in the room at the same time, not the 
sequential process that drags things out over 20 years.
    So I assure the gentleman that that issue is going to be 
addressed, and we welcome his input on it.
    Mr. Shuster. And I appreciate that greatly. My question is 
specifically on the stimulus. We might be able to get some 
great ideas of what you have been able to do to generate it in 
the stimulus package that is going out so quickly.
    Mr. Oberstar. Well, in the stimulus the public review 
process, as a requirement of law, had to be completed before 
they are eligible to get a project. So we are not going to 
learn much. We are going to learn from Section 6001 in Title 
XXIII, U.S. Code. I would invite the gentleman to take a look 
at it, come back to me with ideas about what you think we could 
do better.
    Mr. Shuster. Thank you.
    Mr. Oberstar. The gentleman from Illinois, Mr. Schock.
    Mr. Schock. Thank you, Mr. Chairman. Appreciate your 
holding this meeting and appreciate our two witnesses here 
today. I have a couple questions for our Secretary of 
Transportation, Mr. LaHood.
    Thank you for being here. As was mentioned, I am doing my 
best to follow in your steps, but the shoes keep getting 
bigger. Two quick questions. You are probably familiar with the 
Mid-America Intermodal Regional Port, which is headquarters in 
Quincy, Illinois and was established 15 years ago as a tristate 
program between the States of Illinois, Missouri, and Iowa; and 
the goal of that regional port is to bring international 
business and trade using the inland waterways of our Country 
for those purposes.
    The initial phase of the construction of that port can be 
completed in the next 18 to 24 months, and I know that in the 
stimulus bill there is about $1.5 billion in discretionary 
transportation funding which is to be awarded to State and 
local governments for projects that have a significant impact 
on the Nation or metropolitan area or region. I am wondering if 
you can speak to the qualities of projects that you are looking 
for and whether or not you think that port there in Quincy 
might be a candidate to receive such a grant.
    Secretary LaHood. Well, we have submitted criteria to the 
White House and OMB for their review, and that criteria will be 
made available very soon. With $28 billion for highways and $8 
billion for transit, $1 billion for airports and $8 billion for 
high speed rail and some of these other opportunities we have 
created, or that you all created in the bill, we believe the 
$1.5 billion should really be used to do things that we 
couldn't ordinarily do in our portion of economic stimulus, 
which would include, probably--I don't want to say 
specifically, but our thinking is that we should really be 
looking at ports. Ports are an economic engine for certain 
parts of the Country. So my advice is to have the folks in 
Quincy read very carefully our criteria. But I think ports 
around the Country are going to be well positioned to look at 
this money as an opportunity.
    Mr. Schock. Great. Thank you. And then the other question I 
had was there have been a number of comments from your 
Department, as well as the White House, about the importance of 
creating more livable communities, more sustainable 
communities, and I want to commend you and your Department and 
the Administration, as we look at spending a record amount of 
money on infrastructure, that we not just create new 
infrastructure, but in some cases smarter infrastructure, 
allowing people to be able to walk to work, bicycle to work, 
and cut down on some of the congestion.
    I am wondering if there is money set aside in the current 
stimulus bill that was passed for such projects that 
communities can apply for, where they are doing the mixed use 
kind of buildings in urban centers. As you know, in our 
hometown in Peoria, they are trying to do that with a warehouse 
district. There are other communities around the Country that 
are doing similar things. Because if not in this stimulus bill, 
I would like to try and see that we have funding in our 
transportation bill for those sustainable programs.
    Secretary LaHood. Livable communities is something that I 
have talked to the Chairman about. Portland, Oregon is the 
model for it and it is something that we are really going to 
work with the Chairman and this Committee in the next bill, and 
it is also something that we have met with the Secretary of 
HUD, the EPA administrator and others. We are going to work 
collaboratively to create a livable communities opportunity so 
that if somebody wants to bike to work, walk to work, run to 
work, and wants to get out of a two hour congestion and take 
light rail or transit, these are the kind of opportunities we 
want to create with livable communities.
    But the direct answer to your question is there really is 
nothing in our portion of the stimulus to help us jump-start 
that opportunity, but I know, from talking to the Chairman and 
others on the Senate side, this will be a priority for our 
Department, from the Administration working with the Committee.
    Mr. Schock. Great. Thank you so much for your answers, and 
thank you, Mr. Chairman.
    Secretary LaHood. Thank you.
    Mr. Oberstar. I thank the gentleman for raising that issue. 
I see we have an ally as we go forward in the livable 
communities initiative. More specifically, the answer to your 
question is the State DOTs can use a portion of their 
enhancement funds, which are provided in the formulaic 
distribution of the recovery dollars, to undertake bicycle 
projects or bus/bike lanes, or other user-friendly initiatives. 
But every State is required under current law to have a State 
bicycling plan, and when that plan has been developed and the 
projects within the State bicycling plan are eligible under 
enhancements, under congestion mitigation, air quality 
improvement, they are eligible for funding under the Surface 
Transportation Program, under the STIP, under the TIP, and 
every other aspect. So it is up to each State DOT to designate 
a construction-ready project. If they haven't done it, I think 
the Secretary might want to know about that.
    And, by the way, in the next transportation bill, we are 
going to have a further transformation of the office of the 
Federal Highway Administration, to have an office of livability 
in which we will coalesce safe routes to schools, bicycling 
initiatives, transit-oriented development, land use planning, 
safe streets, smart streets, all those to shine a spotlight on 
the livability issues, so that in the next iteration of 
transportation we will make it possible for people to go where 
they want to go, not just where the road leads them.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Not at this time, Mr. Chairman. Thank you 
very much.
    Mr. Oberstar. Thank you.
    Mr. Secretary, I understand, I have heard reports 
anecdotally from the States, California, for example, Will 
Kempton, who is the director of CalTrans, in our State of 
Minnesota, several others--I need not go into all the 
specifics--that there are projects are coming in substantially 
or significantly under final design, engineering cost 
estimates. Are you getting those reports and does that mean 
these dollars are going to stretch further than we anticipated?
    Secretary LaHood. The dollars are going to stretch further, 
which will create more opportunities for more jobs. I have just 
sent a letter, about a week ago, to the governors, to every 
governor in every State, saying that if there is money that is 
not being spent because the project came under, it has to be 
spent on creating jobs to build infrastructure and cannot be 
used for any other purposes to try and fill a gap in a State 
budget; it has to be used for the purposes for which it was 
sent to the State.
    Mr. Oberstar. You are very good at anticipating. All those 
years in Congress. Right on the ball. Because that was our next 
issue. They have to all remember that this is stimulus money. 
It is 100 percent federally funded. They can't substitute it 
for something else. Excellent.
    In your next 30-day report, I expect you will have for us 
not only the direct job creation numbers, but also those in the 
supply line, in the supply chain. I have heard from the 
Association of Equipment Dealers that there is such an 
inventory on hand of equipment that, for contractors to carry 
out the projects that are on the book now with the stimulus 
funds, they don't need to buy new equipment. They have been out 
of work for so long, they have idle equipment on the property. 
So I expect that as this first $15 billion gets into the 
pipeline and we go into the second iteration of it, that there 
will be more of that stimulus as well, so I look forward to 
your further report.
    Ms. Jackson, from the State of Minnesota, I met with Terry 
Coleman, who is the Deputy Administrator of the State Revolving 
Loan Fund. They have been able to leverage the $72 million into 
a $500 million program. Are you getting reports of other States 
that are similarly leveraging those dollars? Half of your SRF 
funds are grant, half is under the regular loan program. Are 
you seeing such ricochet effects?
    Ms. Jackson. We are indeed, Mr. Chairman, and your State is 
to be commended, as are many others who are trying to find the 
best way to put as much money on the street. As you know, there 
is a huge pent-up demand for clean water infrastructure 
projects, so many States are doing it not only because of the 
jobs, which is our first goal here, but because they have been 
waiting so long to be able to get their hands on money, 
especially money that doesn't require a match.
    Mr. Oberstar. A final issue. I know that in the highway and 
bridge program, the Buy America Act has been in place since 
1982, it is unquestioned, is unchallenged, and is being used, 
in fact, in Minnesota iron ore, Michigan iron ore, going into 
lower lake steel mills, and American steel is being used, but 
there was some issue raised by various States under the EPA 
program about the waiver process for pumps or other equipment 
that are not readily available or not made in the United 
States. It is a relatively small amount. I understand that you 
have issued guidance. I have heard from the Minnesota SRF 
organization; they feel the guidance is fully beneficial to 
them. Could you elaborate on this?
    Ms. Jackson. I am glad to hear that, first off, Mr. 
Chairman, and it was the result of hard work by staff. Buy 
America is new for the SRF program because most of that money 
moves out in grants to States, so that is something they are 
not used to dealing with. We worked with States, we worked with 
associations, the American Waterworks Association, others, to 
come up, I think, in fairly short order with guidance. It was 
issued yesterday. I am happy to hear, anecdotally, that it is 
being well received. It was a critical step in allowing States 
to move forward. Many times pumps and some of this equipment 
used in waterworks is only made on foreign soil, so we have to 
have an ability to give clear guidance on how that waiver 
process will work.
    Mr. Oberstar. Well, the Deputy Director of the Minnesota 
SRF said, ``These are items that States requested just last 
week. The sample documents will be helpful to us and our cities 
as we get the first Recovery Act projects under contract.''
    Ms. Jackson. Thank you, Mr. Chairman. I think my staff will 
be gratified to know that their hard work is being well 
received.
    Mr. Oberstar. Again, I said this program is not going to 
outsource jobs to Bangalore. The highway, the bridge, the 
transit projects, and the water and sewer projects that are 
being done, you don't lay the streets in Bangalore, you do them 
in America, your own front yard, our workers.
    Thank you for the job you are doing. Very proud of your 
contribution. And there are going to be two million workers who 
will be grateful to you as well that you may never see, but 
they will have a job and their families will be appreciative. 
Thank you.
    We now have votes underway, but let me call the next panel. 
Mr. Salt, Principal Deputy Assistant Secretary of the Army for 
Civil Works; Mr. Prouty, Acting Administrator of GSA; Mr. 
Stadtler, Chief Financial Officer for Amtrak; Mr. Alvord, 
Acting Deputy Assistant Secretary of Commerce for Economic 
Development.
    Take your seats. We will recess for these votes. In fact, 
you don't have to take your seats; you are entitled to the 
restroom, if you need to do that. And we will be back within 
half an hour.
    [Recess.]
    Mr. Oberstar. The Committee will resume its sitting.
    We now have panel two. We will begin with Mr. Salt. You all 
have been introduced individually before the vote. I apologize 
for the delay. I didn't know that a new Member was going to be 
sworn in and that he was going to make a speech. There was a 
time when we swore in new Members and that was it, and they sat 
down.
    [Laughter.]
    Mr. Oberstar. And paid attention. But, you know, Mr. Diaz-
Balart, when we are sworn in, we don't get to make speeches, 
435 of them. A new Member, though, they get to come to the 
microphone, make a long talk, introduce their family and 
everybody who helped them get to Congress and all the rest of 
it.
    I am getting a little grump in my--I said to one of my 
colleagues, that is a very fine, nice speech. He is thanking 
everybody. But, meanwhile, I have 10 witnesses who are waiting 
for their turn to speak. So now it is your turn to speak.

   TESTIMONY OF TERRENCE C. SALT, PRINCIPAL DEPUTY ASSISTANT 
    SECRETARY OF THE ARMY, CIVIL WORKS, U.S. ARMY CORPS OF 
   ENGINEERS; PAUL F. PROUTY, ACTING ADMINISTRATOR, GENERAL 
    SERVICES ADMINISTRATION; DONALD A. STADTLER, JR., CHIEF 
  FINANCIAL OFFICER, AMTRAK; AND DENNIS ALVORD, ACTING DEPUTY 
    ASSISTANT SECRETARY OF COMMERCE FOR ECONOMIC DEVELOPMENT

    Mr. Salt. Thank you, Mr. Chairman.
    Mr. Oberstar. Tell us the good things you are doing to put 
people--this new Member said I want to work to create jobs. 
That is fine. That is what we are doing right here in this 
Committee. We are doing it.
    Mr. Salt. Thank you, sir. Mr. Chairman, Congressman Diaz-
Balart and other distinguished Members of the Committee, I am 
Terrence ``Rock'' Salt, the Principal Deputy Assistant 
Secretary of the Army for Civil Works. Thank you for the 
opportunity to testify before the Committee today to discuss 
the Army's implementation of the Civil Works appropriation 
within the American Recovery and Reinvestment Act of 2009.
    Total Recovery Act funding for the Army Civil Works program 
is $4.6 billion. I am pleased to report that lists were posted 
yesterday on the Corps of Engineers website that show how 
Recovery Act funding for Civil Works will be allocated among 
programs, projects, and activities. Economists estimate that 
the Civil Works Recovery Act spending will create or maintain 
more than 57,000 direct construction industry jobs and an 
additional 64,000 indirect and induced jobs.
    The Recovery Act provides funding to the Corps for the 
development and restoration of the Nation's water and related 
resources. There is also funding to support permitting 
activities for the protection of the Nation's regulated waters 
and wetlands, and for the cleanup of sites contaminated as a 
result of the Nation's early efforts to develop atomic weapons. 
Also, Congress mandated that work such as wastewater treatment 
and municipal and industrial water treatment and distribution 
be funded at no less than $200 million.
    The Army's allocations follow the Recovery Act's general 
principle to manage and expend funds to achieve the Act's 
stated purposes, including commencing expenditures and 
activities to create jobs as quickly as possible, consistent 
with prudent management. Furthermore, the Civil Works projects 
were selected on merit-based principles consistent with the 
President's direction provided in his Executive Memorandum of 
March 20th, 2009, entitled ``Ensuring Responsible Spending of 
Recovery Act Funds.''
    Specifically, the Civil Works allocations are to programs, 
projects, or activities that will be obligated and executed 
quickly; that result in high, immediate employment; that have 
little schedule risk; that will be executed by contractor or 
direct hire of temporary labor; and will complete a project 
phase, a project, or an element of a project that will provide 
a useful service that does not require additional funding.
    Also, as stipulated in the Recovery Act, no funds will be 
used for any program, project, or activity that at the time of 
the obligation has not received Energy and Water Development 
funds. In other words, no new starts can receive Recovery Act 
funds.
    Funding has been allocated to 178 construction projects, 
892 operation and maintenance projects, 45 Mississippi River 
and Tributaries projects, 67 studies and designs in the 
Investigations account, and 9 projects in the Formerly Utilized 
Sites Remedial Action Program.
    At $4.6 billion, the American Recovery and Reinvestment Act 
provides the resources for the Civil Works program to pursue 
investments that will yield good returns for the Nation now and 
into the future.
    Mr. Chairman and Members of the Committee, I am very proud 
of the contributions that our Civil Works program is making to 
the Nation's economic recovery and to the long-term improvement 
of its infrastructure. Thank you again for this opportunity to 
testify on the implementation of the Recovery Act programs at 
the Army Corps of Engineers.
    Mr. Oberstar. Thank you, Mr. Salt. That was a rather pro 
forma statement, frankly, but we will come back to that later.
    Mr. Prouty.
    Mr. Prouty. Good afternoon, Mr. Chairman, Mr. Diaz-Balart, 
and Members of the Committee. Thank you for inviting me to 
appear before you today to discuss GSA's contribution to our 
Nation's economic recovery through the green modernization and 
construction of our buildings.
    The funds Congress has provided us through the American 
Recovery and Reinvestment Act are a sound investment in several 
respects. First, the timely obligation of these recovery funds 
will stimulate job growth in the construction and real estate 
sectors. Second, the money will help us reduce energy 
consumption and improve the environmental performance of our 
inventory. Third, the funds, in large part, will be reinvested 
in existing infrastructure, which will help reduce our backlog 
of repair and alteration needs, thus increasing the assets' 
value, prolonging their useful life, and further conserving our 
Country's resources. Finally, these funds will be invested in 
government-owned assets for the long-term requirements of our 
Federal customers.
    Today, I will describe what we have done to carry out the 
Public Building Service's portion of the Recovery Act. We have 
established a nimble organizational structure and identified 
leadership to manage program execution. We have developed an 
aggressive schedule for project delivery and we are 
establishing standard scopes of work to facilitate rapid 
project awards. We know this is not business as usual. We are 
moving forward quickly, but always with careful consideration 
of our procurement responsibilities and accountability to the 
American taxpayer.
    In order to successfully implement our portion of the 
Recovery Act, GSA formed a nationally managed, regionally 
executed Program Management Office. At the national level, the 
PMO will be centralized in a small, cohesive PBS office, 
staffed with experts and supported by high-performing 
employees, as well as industry hires and appropriate contracted 
resources to ensure successful program implementation. It will 
directly report to the Commissioner's Office of the Public 
Building Service.
    In addition to the Public Building Service's permanent 
leadership structure and organization, we have identified 
regional recovery executives in each of GSA's 11 regions. As 
part of the PMO, we have identified three zonal recovery 
executives to support regional execution. The zonal executives 
will monitor program delivery and be able to shift resources to 
projects or a particular region as needed. Finally, we have 
named Mr. Bill Guerin, who is here with me today, as the PMO 
executive to lead this effort.
    GSA has moved quickly. On March 31st, we delivered a list 
of 254 projects to Congress. It includes projects in all 50 
States, the District of Columbia, and two U.S. territories. 
These projects fall into three categories: the first, new 
Federal construction, where we will invest $1 billion in 17 
projects; two, full and partial high-performance green building 
modernizations, where we will invest $3.2 billion in 43 
projects; and, three, limited scope high performance green 
building projects, where we will invest $807 million in more 
than 194 projects. This totals over $5.5 billion.
    The PMO will execute recovery activities on an aggressive 
schedule, using streamlined business processes and innovative 
approaches. It will also ensure that projects are delivered on 
time and on budget. The zonal recovery executives will monitor 
execution and serve as an early warning system for projects 
that are not meeting anticipated targets. We are ramping up our 
project activity and have awarded $92 million toward project 
work to date. This includes work on projects in New York City; 
Roanoke, Virginia; Billings, Montana; Bakersfield, California; 
Blaine, Washington; and Philadelphia, Pennsylvania. We 
currently have numerous solicitations on the street and expect 
to award at least another $100 million in recovery projects by 
early June.
    GSA's goal is to obligated $1 billion by August 1st and an 
additional $1 billion by the end of the calendar year. We have 
set target dates for project awards in each quarter to ensure 
we obligated $5 billion by the end of fiscal year 2010.
    Our project list was selected from an initial list of GSA 
pipeline projects that could be awarded within two years. The 
list we developed included detailed information on cost, 
schedule, energy benefits, and the impact of the repair and 
alterations backlog for each project. Our repair and 
alterations backlog was over $7 billion just for the minimum 
repairs. The dollar amount of projects we could have funded was 
much greater, nearly $30 billion.
    We applied criteria to select those projects that would 
both put people back to work quickly and transform Federal 
buildings into high performance green buildings. The 
development of our project list relied on selection criteria 
that included incorporation of high performance features with 
an emphasis on energy conservation and renewable energy 
generation, an early construction start date, a high return on 
investment, and other factors, such as historic significance. 
Many of the projects in the new Federal construction and 
building modernization categories have previously received 
partial funding. These are projects which we can start 
construction quickly, while also identifying the ways that 
existing designs can be improved.
    We have developed standard scopes of work and we are using 
regional and national contracts to support, record reporting 
and tracking, contract management, building tuneup and 
commissioning, lighting, and roofing. We are sharing these with 
other agencies engaged in recovery act. We are pursuing 
measures to convert our existing inventory and turn our newly 
constructed and green and modernized buildings into high 
performance green buildings. These range from single system 
improvements to integrated improvements in new and modernized 
buildings.
    Single system improvements include features like replacing 
overhead lighting systems controlled by one switch with 
intelligent lighting systems that allow for daylight and 
occupant control; replacing leaking roofs with efficient roofs 
or roofs with photovoltaic membranes integrated in the roofing 
or planted roofs. Large integrated improvements include 
features like improving buildings' exterior with more efficient 
windows, better roof insulation, and more efficient lighting, 
resulting in less need for heating and cooling.
    An example of the innovative features we will be 
incorporating into some of our projects on our Recovery Act 
list is the Edith Green-Wendell Wyatt Federal Building in 
Portland, Oregon. GSA will install a new high performance 
enclosure over the entire building, each facade designed to 
react to the way the side of the building faces, which will 
dramatically enhance energy performance and blast resistance. 
On the west facade, vegetative fins will provide shade, 
reducing the load on the new high efficiency heating, 
ventilation, and air conditioning system that will be 
installed. The east and south walls will have a double glass. 
The north is designed to let in maximum light. We expect the 
building to attain a LEED Gold rating.
    Finally, pre-apprenticeship and apprenticeship programs 
will be an integral part of our Recovery Act projects. These 
programs will be established as contractual requirements in 
construction contracts for selected projects on our Recovery 
Act list. We are working with the Department of Labor, as 
required in the Recovery Act. The programs will be modeled 
after a successful GSA program in the National Capital Region, 
where at least 840 people involved in 15 projects have been 
trained and employed since the program's inception in 2002.
    Today, I have described the unprecedented and exciting 
opportunity that lies before us to contribute to our Nation's 
economic recovery by investing in green technologies and 
reinvesting in our public buildings. Greening our buildings 
will be an ongoing process. We have the structure, the 
executive leadership, and much of the staffing in place to 
accomplish this very aggressive project delivery schedule. We 
look forward to working with you and Members of this Committee 
as we deliver this important work.
    Joining me today are Tony Costa, the Acting Commissioner of 
the Public Buildings Service; Bill Guerin, the Recovery 
Executive; and Kevin Kampschroer, the Acting Director of the 
Office of Federal High Performance Green Buildings.
    This concludes my prepared statement. I will be pleased to 
answer any questions that you or any other Members may have. 
Thank you.
    Mr. Oberstar. Thank you, Mr. Prouty. We will have some 
questions.
    Mr. Stadtler.
    Mr. Stadtler. Good afternoon, Chairman Oberstar, Members of 
the Committee. My name is D.J. Stadtler and I am here today to 
testify in my capacity as Chief Financial Officer of Amtrak. In 
that role, I am the officer responsible for the disbursement of 
stimulus funding for Amtrak's procurement operations and for 
our compliance with both the provisions in this Act and the 
provisions of our grant agreement with FRA.
    Our CEO, Mr. Boardman, regrets that he is unable to attend 
today. He is the midst of a long scheduled series of meetings 
with employees on the West Coast. He asked me personally to 
express his regrets, as well as appreciation for the support we 
have received from you, Mr. Chairman, your staff, and the 
entire Committee. This has been a remarkable and exciting year 
for Amtrak.
    If there is one message that I want to deliver today, it is 
that Amtrak sees the stimulus bill not only as a responsibility 
to create jobs and stimulate the economy, and also to address 
our infrastructure needs that have, for years, been deferred, 
but we also see it as an opportunity for us to change the way 
we do business. You will hear me continually today use the 
words transparency and credibility. We are taking strong steps 
to become more transparent and more credible and more 
accountable with this Committee, our other congressional 
stakeholders, the Department of Transportation, the States, our 
vendors, and the passengers we serve. This holds true for our 
stimulus funding and also on moving forward into the future.
    The $1.3 billion provided by stimulus allows us to 
undertake some very important projects. On the northeast 
corridor, for example, beginning this construction season, we 
will be replacing over 80,000 concrete ties. We will be 
replacing a 102-year-old Niantic bridge, and several other 
fixed bridges. Additionally, on Monday, we will be breaking 
ground at the restoration of the Wilmington Station. We also 
have had opportunity to make major improvements to our 
maintenance facilities across the system, including Delaware 
and Illinois and Indiana.
    Off the northeast corridor, we have got investments that 
are funding significant improvements in stations focused on 
accessibility and ADA compliance. For example, in Chicago Union 
Station, we currently have switch heaters that are bowls of 
kerosene that stay lit all winter long. When there is a strong 
wind, that kerosene blows out and we manually have to have 
someone go and relight the fire so the switch can move. We will 
be able to address that through these funds.
    On May 18th, we are breaking ground in Florida to renovate 
the Sanford Station. We are also returning over 100 pieces of 
equipment to service, long-distance cars, locomotives, and 
corridor cars.
    As I discussed earlier, this is a major opportunity for 
Amtrak and we are focused on using it as a stepping stone to 
change the way we do business. We know we must be transparent, 
compliant, and effective in awarding and managing these 
projects. We are using all available means to get information 
on contract opportunities out to the public. For example, 
within 30 days of enactment, we had a complete list of all of 
our projects with detailed project summaries on our Web site 
for the public to view. As contracting opportunities become 
available, we post them online immediately and allow bids to 
come in. We even have a page on our Web site that highlights 
opportunities for small, disadvantaged, and veteran-owned 
businesses, and provides a list of frequently asked questions 
for those types of businesses to learn how they can bid and get 
contract work.
    On that note, we are building relationships with a wide 
range of new vendors, not only for stimulus but, again, for our 
annual capital investment program. We are reaching out to 
potential contractors--minority-owned, disadvantaged business 
entities, women-owned businesses, and small businesses--both to 
be our prime contractors and also to be subcontractors. In 
April, we held numerous business forums, attended by top Amtrak 
officials, aimed at not only letting contractors know what kind 
of work we need, but also giving them an opportunity to network 
with each other. We want to build our reputation for fairness, 
credibility, and integrity, becoming closer to the Federal 
model of full and open competition. These forums drew over 300 
vendors.
    I would like to close by expressing again my appreciation 
for the support we have had from the Committee, from you, Mr. 
Chairman, from your staff, and from the Department of 
Transportation. We look forward to working with you in the 
coming months. I am happy to answer any questions you may have.
    Mr. Oberstar. Thank you very much, Mr. Stadtler, although I 
must add a footnote to your comment. It is disappointing Mr. 
Boardman felt necessary to recuse himself from this hearing 
because of some perceived conflict. I didn't have time to take 
that up with other authorities, such as the Office of 
Management and Budget or the White House, but your perfectly 
adequate presence, but he is the acting President of Amtrak, 
and he should have been here in person.
    Mr. Alvord.
    Mr. Alvord. Thank you, Chairman, Ranking Member Diaz-
Balart, and Members of the Committee. Thank you for this 
opportunity to testify on behalf of the Economic Development 
Administration. Since 1965, EDA has provided grants for 
planning or infrastructure to distressed communities aimed at 
creating jobs and generating private investment. EDA has worked 
tirelessly in both robust economic times and in times of 
economic decline. However, with the Nation facing economic 
conditions unseen since the Great Depression, EDA's assistance 
to local communities may be needed now more than ever.
    On February 17th, 2009, President Obama signed into law the 
American Recovery and Reinvestment Act. The Act's primary 
purpose is to stimulate economic recovery by making investments 
that preserve and create jobs, spur technological advances, and 
improve infrastructure that will provide long-term economic 
benefits. In many ways, the Act is an extension of EDA's 
existing mission, which is to lead the Federal economic 
development agenda by promoting innovation and competitiveness, 
and prepare American regions for growth and success in the 
worldwide economy.
    EDA has adapted our existing grant programs to meet the 
Act's goals and requirements and to comply with its intent. Of 
the $150 million provided to EDA in the Act, the Bureau intends 
to fund at least $135 million in public works grants to support 
brick and mortar infrastructure improvements. As we do in our 
regular programs, EDA will focus on projects with a potential 
to stimulate job creation, promote regional economic 
development, and encourage innovation and entrepreneurship, 
such as investments in science and technology parks, industrial 
parks, and business incubators.
    EDA's longstanding policy and practice is that the 
selection, oversight, and administration of grant awards rests 
in its six regional offices. This regional system allows EDA's 
field-based staff, who are most familiar with the current 
economic conditions in their States, to advise the six regional 
directors on what projects to prioritize and award under the 
Act. Having staff on the ground who are living and working in 
many of the communities most severely impacted by the current 
crisis will help EDA make investments quickly, but not hastily, 
and help us to maintain the Bureau's reputation for superior 
customer service.
    Since March, EDA's six regional offices have developed 
extensive pipelines of potential Recovery Act projects. Our 
goal is to fully obligate EDA's Recovery Act spending by 
September 30, 2009, a full year in advance of the funding 
expiration. Indications are that we are well on our way to 
achieving this goal. Most EDA regional office project pipelines 
meet or exceed anticipated allocations. One region has a 
pipeline more than double its anticipated available Recovery 
Act spending.
    The prospective grant investments that have already had 
some review range in size from less than $200,000 to over $4 
million, and include a strong mix of construction-ready 
infrastructure improvements, such as access roads, rail spurs, 
and port improvements, as well as cutting-edge investments in 
business incubators, research parks, and green buildings.
    EDA's long history of aiding communities impacted by 
economic downturns, its record of success, and its strong 
customer service have allowed the Bureau to hit the ground 
running to implement the Recovery Act. To date, the Bureau has 
implemented all of its established milestones and is on track 
to complete all future milestones on or ahead of schedule. 
Within three weeks of the Act's passage, EDA published a 
Recovery Act funding synopsis, as well as a Federal funding 
opportunity notice. EDA continues to coordinate with the 
Department's budget office and officials at the Office of 
Management and Budget to ensure our agency program plan is 
implemented efficiently.
    Prior to the Act's passage, EDA already had well 
established and highly effective application evaluation 
procedures, award processes, as well as reporting and 
reconciliation practices in place. To ensure that the Act's 
funding is properly managed, EDA is working closely with the 
Department's Recovery Act coordinator and other department 
bureaus funded under the Recovery Act to guarantee compliance 
of all the Act's specific requirements and OMB guidance. EDA 
has also offered assistance to other bureaus looking to set up 
new grant and infrastructure programs.
    Additionally, EDA has established a Recovery Act task force 
consisting of representatives of EDA's regional offices and 
Office of Chief Counsel to focus on risk identification and 
mitigation across the administration of Recovery Act funds. We 
are also taking part in training that is being offered by the 
Department's Office of Inspector General to identify and avoid 
waste, fraud, and abuse.
    Chairman Oberstar, thank you for your longstanding support 
for EDA and thank you, Ranking Member and the Members of the 
Committee, for your time today and for inviting me to give an 
overview on implementation of the Recovery Act at EDA. EDA is 
pleased to be a part of the important effort to bring about 
economic recovery. I look forward to answering any questions 
you may have and working with the Committee to ensure the 
success of the Act.
    Mr. Oberstar. Thank you very much, Mr. Alvord. Yes, indeed, 
EDA has been a favorite government agency of mine. As some of 
you may know, I was on the staff of my predecessor when we 
crafted the Public Works and Economic Development Act of 1965. 
I have one of the green pens that Lyndon Johnson used to sign 
that bill into law and, actually, there was a photograph of the 
occasion with Lyndon Johnson handing me the pen.
    In the next stroke, however, he grabbed the lapels of my 
suit, drew me up to his nose, and said, now, I want you to get 
busy with John Blatnik and Ed Muskie together and pass a clean 
water bill, hear? I heard him. He never missed a moment. He 
never missed a moment. And he got EDA off and running well.
    But that moment was preceded by accelerated public works of 
1963-64, where we made a first effort at stimulus and where 
there were lessons learned in the delivery and lessons learned 
at the local level of projects ready to get underway. And over 
time we had Local Public Works, LP-1 and LP-2 in the 1970s, and 
each one of those we learned lessons of how to allocate these 
funds. Best is to do it by formula, best is to do it make 
entities demonstrate that through all the phases--design, 
engineering, land acquisition, public hearing process, and 
ready to go to construction.
    EDA has that delivery mechanism. Unfortunately, the amount 
that we had in our Committee bill when it passed the House was 
substantially more than came through conference.
    Can you give us an idea of when you expect to see the 
regions obligate the funds and then award grants to economic 
development districts?
    Mr. Alvord. Yes, Mr. Chairman. I think EDA has made 
progress in the intervening period since the passage of the 
Act. Our regions have been working very hard to identify 
projects that have been through the initial stages of 
development and are ready to get started right away, and I 
anticipate that we will be starting to award grants as early as 
next week, and the pace will pick up throughout the course of 
the month.
    Mr. Oberstar. What is the time lapse? We know pretty well 
from the previous panel, although there will be more detail 
given in subsequent hearings, but I know that there is first a 
release from OMB and obligation of the funds by the agencies, 
and then delegation to each State their formulaic distribution 
entitlement. Then, once State DOTs receive their funds, they 
notify the contractor community ahead of time, already, that we 
can anticipate this specific dollar amount, because that is our 
formula distribution. So the contractors were ready, the sand 
and gravel pit operators were ready, the ready mix producers 
were ready, and the IFBs went out and the bids came in and they 
were awarded. All that happened within a matter of two to three 
weeks; some even less than that time.
    So what is your time frame that you anticipate working 
through the EDDs, economic development districts, for Fgetting 
projects under contract?
    Mr. Alvord. We are certainly trying to do everything that 
we can to incentivize the distribution of this funding to 
projects that are as far along in that development process as 
we possibly can. So we have essentially cherry-picked those 
investments from our pipeline that are in a very good position 
to get underway as quickly as possible. We are very close to 
being able to send out the allocation to our six regional 
offices so they will each know the funding amount that they 
have available. That funding will then go immediately to the 
projects that are ready to be awarded in their pipeline, and 
they will continue to develop additional projects beyond them.
    Now, once the initial round of awards are made, which I 
fully anticipate will occur next week and throughout the month, 
then we do move into that bidding process, and there will be a 
few weeks delay as those bids are let and the projects get 
underway. But, again, most of these projects are projects that 
have been on the books; they have been studied and considered 
over a good amount of time, and we fully expect that we will be 
able to get many of them underway within a few weeks.
    Mr. Oberstar. I want to understand and I want it on the 
record the mechanics of the process from the time the district 
is notified of their grant award, the time, then, how long does 
it take them to get the IFB out and a bid in, or bids in, and 
make the contract award?
    Mr. Alvord. That process is somewhat driven by the local 
capacity to absorb the funding. In most cases they have 30 days 
from the date that we make the award to accept the award and 
arrange for an initial communication with EDA on how they 
intend to proceed. After that point it can be a matter of----
    Mr. Oberstar. Do they understand they don't need to take 30 
days?
    Mr. Alvord. They do, and most do not. Most will turn that 
paperwork around within a week, or a week to two weeks.
    Mr. Oberstar. Good. Well, make sure they understand that.
    Mr. Alvord. And we are certainly emphasizing, in everything 
we do with regards to the stimulus act, the need to move these 
projects timely and act with a sense of urgency in everything 
that we are doing. We are impressing this both internally, in 
our internal communications among staff, but also externally to 
our stakeholders, as well.
    Mr. Oberstar. So when they receive the bids and award a 
contract, then is there a time period for any possible 
challenge to the award?
    Mr. Alvord. No, Chairman, we don't anticipate any 
challenges to these awards. We think they will move very 
quickly into the bidding phase, and once we receive those bids, 
we will be able to move into the construction phase as readily 
on the heels of that.
    Mr. Oberstar. Within a couple of weeks?
    Mr. Alvord. A couple of weeks would be an aggressive 
schedule. It is certainly something that we could push for. I 
think certainly within a couple of months we could anticipate 
an engagement of activity.
    Mr. Oberstar. See, your fate and that of the Secretary of 
Commerce and that of the President and Vice President and the 
sort of reputation of the Congress for being able to deliver 
depends on that portion, on that local initiative being able to 
award the contract, get the contractor to start work, put 
people on the job site. They have to understand there is no 
time for fiddling and diddling.
    Mr. Alvord. Absolutely. And we will do everything we can to 
impress upon them the need to act expeditiously.
    Mr. Oberstar. Mr. Salt?
    Mr. Salt. Yes, sir.
    Mr. Oberstar. Why did it take so long for the Corps of 
Engineers, for your Department, to get these funds approved 
through the Office of Management and Budget? What was causing 
the delay?
    Mr. Salt. Sir, I think, as you have pointed out, the 
statute that directed us to do projects that would very quickly 
create jobs also had language about long-term economic and 
environmental benefits. Subsequently, the President put out 
guidance that they be merit-based. And as we worked through 
that list, I think--I am new here, and I was surprised that it 
took as long as it did, but as we worked through those issues, 
it took us until yesterday to be able to get the list out. All 
I can say is, on some of our projects there were policy issues 
that caused us to reexamine our----
    Mr. Oberstar. Well, I understand the issue about new 
starts. That was a matter that was raised in the legislative 
process, not to do new starts; and I vigorously objected to 
that because that included projects that had gone through the 
district, the division engineer that had a chief's report six, 
seven years ago, and we had moved it through our Committee.
    Some of those we moved through the House in two Congresses; 
we moved the WRDA bill through the House. Never got through the 
Senate. We never went to conference on any of it. They aren't 
new starts, they just are projects that have been delayed for 
seven years. All right, that is not your problem, it is one 
that we had internally up here, and on a bipartisan basis we 
were very upset about that distinction.
    But apart from the new start issue, I just don't understand 
what was the delay at OMB in allocating those funds. Were they 
trying to make decisions about what are short-term or long-term 
or better or less good investments?
    Mr. Salt. No, sir. The policy finally settled on was that 
we would use longstanding Executive Branch policy, which is not 
budget policy. We did not apply our budget criteria, we just 
applied policy in terms of which projects met the merit-based 
standards that the President directed us to follow. So there 
was some reshuffling of the list as we sorted through that, and 
I am the wrong person to ask in terms of the----
    Mr. Oberstar. I guess it is Mr. Orszag that we have to ask. 
But merit-based? All of these had chief's reports. All of these 
have been through the process. That is merit enough.
    Mr. Salt. I agree, sir, they are all good projects.
    Mr. Oberstar. All right. Well, I assume I have to raise 
this question because the Great Lakes States and the port 
authorities have raised it. A second lock at Sault Ste. Marie 
was authorized in the WRDA bill of 2007. The President vetoed 
the bill; Congress overrode that veto. That WRDA bill included 
restoring the Everglades, building levees in New Orleans, 
Mississippi, East Texas, the Alabama Gulf area, Mississippi 
Gulf area; locks on the Mississippi River to expedite 
navigation, move our agricultural products to market; 500 to 
600 foot locks be extended 1,200 feet.
    Not a one of those is included in this stimulus. Nothing. 
Not a start. The Soo Lock for the eight Great Lake States to 
move our iron ore to lower lake steel mills, coal from the 
Powder River Basin to lower lake powerplants, limestone and 
aggregate and sand and gravel upbound and downbound, and 
agricultural export commodities that often have to delay 
because we don't have enough lock capacity.
    Why wasn't the Soo Lock included in this?
    Mr. Salt. Essentially, sir, it is a good project, as you 
mentioned, but it didn't compete as well as the other projects 
that met the timeline windows.
    Mr. Oberstar. Well, I don't know who made that decision 
about it doesn't compete as well. They are going to have to 
answer to me. I am not happy with that. I don't know who is 
making the judgment about competition.
    I will delay here. I will withhold other questions. I want 
to get Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Mr. Chairman. Mr. 
Chairman, before I address the panel, I want to thank you once 
again. I have told you this in private and I have said it in 
public. I think these hearings that you are doing are probably 
one of the most important hearings we are doing. We have all 
seen what can happen--the TARP, I think, being the worst 
example--when Congress sometimes passes legislation without 
enough oversight, and then we see the horror stories.
    I was concerned and I had this conversation with you and I, 
frankly, felt a lot better after speaking to you, that when 
Congress passed the stimulus package, that there was not a lot 
of thought into where the money was going, et cetera. One of 
the things that you have been doing, and you have been 
aggressive in doing, is making sure that there is oversight. 
Some would say--not your doing, sir. Unfortunately, you have 
been forced to kind of deal with, what is it, the cart before 
the horse.
    However, I want to thank you again, because I think, again, 
your insistence on making sure that Congress has oversight is 
crucial, crucial. So once again, sir, I want to thank you. I 
want to thank you for that, for your leadership there, as 
always. This is a Committee that I am very proud to sit on, 
among the reasons is because you consistently show that you are 
looking for the interests of the United States of America above 
anything else, and that is crucial.
    I also want to welcome a friend of mine who is here today. 
I have worked with Mr. Salt on a million issues for longer than 
we care to admit, I guess.
    Mr. Chairman, those of us who have dealt with him, I think 
you are going to find him to be refreshing. He is a straight 
shooter. He has a wealth of experience.
    It is good to have you there, my friend.
    Mr. Salt. Thank you, sir.
    Mr. Diaz-Balart. As always, you have your work cut out for 
you, but you are ready. You have been dealing with all these 
controversial issues for many, many years. So it is really good 
to have you there. There could be no better person for that job 
and I am thrilled that you are there.
    Mr. Salt. Thank you, sir.
    Mr. Diaz-Balart. Very briefly, Mr. Prouty, you said a 
little while ago you were given some criteria: creating jobs 
and also obviously making sure that we also deal with trying to 
improve making sure we can get green buildings, etcetera. Some 
might say those are kind of conflicting. Do you have any idea 
how many jobs will be created by the projects in the GSA's 
performance green buildings? Are they going to be sustainable 
jobs? And how is GSA counting the job creation of the green 
jobs?
    Mr. Prouty. As you recall, last time we were here, we used 
a number of 28,500 per $1 billion, which is a number we are 
still using. But the good news is, in each one of these 
contracts, they have got to count the jobs and they have to 
report the jobs, and it has got to be on Recovery.gov. So we 
think they are real jobs. We know that we are just going to 
count the front-line jobs. Obviously, there are a lot more 
beneath that, but maybe not in the next 30 days, but soon 
thereafter, we are going to start giving you real numbers.
    Mr. Diaz-Balart. Great. Great. So you will be on top of 
that and you will give us the information as you----
    Mr. Prouty. That is why we are doing this program.
    Mr. Diaz-Balart. Good. Appreciate that. Now, the Act also 
requires that no less than $4.5 billion be available for 
measures necessary to convert GSA facilities to high 
performance green buildings, which is a very high standard, as 
we spoke last time. Of the projects listed in the GSA spending 
plan, how many of them do you expect will actually meet this 
very high standard following the investment of those funds?
    Mr. Prouty. When you talk about the high standard, 
obviously, all of them have different levels of components of 
green components, energy efficient components, but all of them 
will meet the criteria. That is what we are doing with the $4.5 
billion, is creating green facilities and green jobs. So they 
are all going to meet it.
    Mr. Diaz-Balart. Really? I would like to see that. That is 
great. That would be good.
    Obviously, GSA is receiving, what, $5.5 billion?
    Mr. Prouty. Right.
    Mr. Diaz-Balart. Which is quite a substantial increase. My 
understanding is it is tripling your workload, which is, again, 
quite a significant jump. So how can GSA ensure that these 
projects are overseen in management appropriately so that GSA 
will not have to come before Congress later for additional 
funds because of cost overruns or whatever?
    Mr. Prouty. I think there are two phases there. One, we 
talked about the program management office. We set up a unique 
organization with skilled people to make sure that they look at 
this program. But, obviously, as we talked last time as well, 
we are going to have to recruit new people. Most of them are 
temporary jobs; some of them are going to be retirees who come 
back, some are going to be people that we hire temporarily, 
some may be permanent jobs. But obviously we are going to have 
to bring in more people to do this work. It is a massive amount 
of work.
    Having said that, we believe that we are going to be able 
to do it. We have got all these projects scoped. They are 
scheduled, they are estimated, and we are going to be back here 
every 30 days to report that we are meeting it.
    Mr. Diaz-Balart. Great.
    And again, Mr. Chairman, I repeat what I said at the 
beginning, which is why these hearings are so important, 
because it is a substantial amount of money that has been put 
out there, a lot of times with not a lot of guidance; other 
times with some guidance that may even be conflicting. But, 
again, I want to thank you, sir, for your insistence and your 
aggressiveness in oversight, which is essentially.
    And, again, I end with welcoming my good friend, Rock Salt, 
who is a Floridian, so things will be fine.
    Mr. Oberstar. I appreciate your very generous words and 
recognizing the purpose of these hearings, and I made that 
commitment at the outset. Whatever else is in the Recovery Act 
that is beyond our Committee jurisdiction, we can't control, 
but this we can, and we are going to, every 30 days for the 
first 90 days, have this report, and every 60 days thereafter, 
and oftener if needed. We want to see what is working and what 
is not, and it has to be subjected to the light of day.
    And this is also setting the standard for the next surface 
transportation authorization, where there is going to be 
accountability for the States and the MPOs and the transit 
agencies on performance, and we are going to shift to a 
performance-based program, so we are going to have them report 
on performance, and that is our responsibility.
    Let me come back, before I go to Mr. Lipinski.
    Mr. Salt, you got such a warm endorsement and high praise. 
Mr. Diaz-Balart doesn't just throw those kind words around 
lightly, so I want you to go back to whomever you are working 
with and tell them whatever criteria they used, they are wrong. 
In the legislation, the Water Resources Development Act of 
2007, which the president vetoed and which the Congress 
overrode, and in the history of the Congress there are 1,174 
vetoes. Only 106 have been overridden. Our override of that 
veto was 107.
    Mr. Mica, by the way, led on the Republican side and Ms. 
Johnson on our side, because I was in the hospital having my 
neck operated on. And I think everybody on this Committee voted 
for the override, because it was a good thing, because that 
package was good. That was six years worth of work that we all 
agreed upon. And in the language in that bill it says 
specifically the Secretary is directed to carry out the Soo 
Locks project as expeditiously as practicable, without regard 
to normal policy considerations.
    In the fall and spring shipping seasons, when it is 
desperately needed to have a second lock because of icing, and 
the coal has to get to the lower lake powerplants, we need an 
additional lock, and we directed this language. Thirty-four 
million people depend on it. Forty million tons of shipping go 
through the Soo Lock in those cold weather months. I want you 
to take that message back and I want to know who else is 
involved in this faulty reasoning, and we are going to fix 
that.
    Now, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to commend 
you on holding this oversight hearing. It is not always the 
most sexy hearing to conduct, but probably, in many cases, the 
most important hearings for us to conduct.
    There is not a lot that I can add to what the Chairman was 
just speaking about, specifically about that project on the 
lock, which certainly everything suggests that it should have 
received the funding here. I was concerned about the fact that 
the Chicago district, which isn't just Chicago, but covers 
northeastern Illinois, over 8 million people, only received 
$28.125 million for projects.
    I know there are lot of projects in the area right in my 
district that certainly are shovel ready, so I look forward, 
Mr. Salt, to hearing more. I know that you have gone into this 
already with Chairman Oberstar, but hearing more, if there is 
anything you want to add now, but also in the future, about the 
methodology that the Army Corps used for project selection, 
because it was just very surprising to me the Chicago district 
would only be chosen for that much out of the $4.6 billion. I 
don't know if there is anything you want to add now or just 
move on to the next question.
    Mr. Salt. Well, the quick answer is, for O&M projects, we 
had no way to rank them, so we essentially listed them in the 
order that they were ready to go. For our construction 
projects, we prioritized life and safety projects; we gave a 
high priority to environmental projects with a high 
environmental return; and then we took all the projects that 
were in the window and we ranked them by their economic 
benefits, and that is the list we end up with. Now, that is the 
short answer for how we did it.
    Mr. Lipinski. Well, maybe we can follow up after this, in 
the future, on some of those projects that it would seem to me 
I believe would have fit into that. But we can explore that 
later on.
    Mr. Salt. Yes, sir.
    Mr. Lipinski. Mr. Prouty, I wanted to ask a question about 
a provision in the Energy Independence and Security Act of 
2007, which we passed back in December of 2007. There is a 
provision in there, Section 323, that began as the introduction 
of the Bright Energy Savings Act, which I introduced. It was 
then incorporated into this Committee's outstanding 
contribution to that comprehensive bill.
    Now, this provision requires that the GSA, whenever a new 
bulb was being put in, is being installed, a new lightbulb, 
that it be an energy efficient lightbulb. This was supposed to 
be in effect one year from the date of enactment of that bill, 
which would have been December 17th of 2008. So I just wanted 
to follow up. I am first interested in the progress that GSA 
has made towards implementing these requirements. Basically, 
can you say how many light bulbs have been changed to energy 
efficient light bulbs?
    Mr. Prouty. I can't say by light bulb, but I can say that 
we have modified our contracts to make sure that any that they 
change are more efficient lights. The facility standards have 
been changed. We think we are getting the return on that 
investment and we know the payback that involves the fixtures 
is five years. Also, we have over 100 lighting retrofit 
projects on the recovery list as well.
    Mr. Lipinski. Okay, so to what extent is the Recovery Act 
helping you to accelerate these upgrades?
    Mr. Prouty. I can't tell you specifically, but there are a 
lot of lighting projects, and we are making great headway. We 
think because of all that we are doing in lighting, that we are 
saving over $1.4 million a year, so I think it is significant.
    Mr. Lipinski. Okay, so you are saying that $1.4 million a 
year you believe that you are saving?
    Mr. Prouty. That is our estimate, yes.
    Mr. Lipinski. Okay. So has that already begun or when will 
that savings----
    Mr. Prouty. It has begun. It is changing as we have changed 
our facility plans, and it very well could increase depending 
on the opportunity for savings with the different fixtures and 
bulbs that we are using. But it is a very aggressive plan.
    Mr. Lipinski. It would seem, from what I was able to learn 
from the GSA, was an estimate of about 3 million lightbulbs 
that would be changed from the incandescent bulbs, where there 
were incandescent bulbs already put in CFLs or other energy 
efficient lightbulbs. There are estimates of how much changing 
each lightbulb would save, anywhere from $35, $40, up to $72 
per lightbulb, so I am hopeful that the savings will be even 
greater than that, and I was just wondering if you have any 
ideas about going forward, if you expect greater savings than 
$1.4 million a year.
    Mr. Prouty. I am not going to turn to an expert. Just a 
second.
    Kevin Kampschroer is our green guy. He said the $1.4 
million is changing lightbulbs. We think that 30 percent of the 
lighting energy saved from retrofits, so, yes, the numbers are 
going to be significantly greater, and that will be one of the 
many things that we will be reporting as we monitor this 
program.
    Mr. Lipinski. Okay, so you will be monitoring that, so I 
would appreciate being kept up to date on that.
    Mr. Prouty. We will do it. Thank you.
    Mr. Lipinski. Thank you.
    Mr. Oberstar. The gentleman from Arkansas, Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman. I think that, 
listening to your discussion, Mr. Oberstar, and the others, I 
think sometimes some of these things sound a little self-
serving, and yet you get so caught up in these projects and you 
are so aware of your district and things, and I think we really 
can be a good sounding voice.
    We have a situation with the Arkansas River, the McClellan-
Kerr Waterway, have gotten money in the past through operations 
and maintenance to increase the depth of the channel, and 
really just for a few million dollars we would essentially have 
that whole thing done. We have a tremendous problem with 
capacity. We have got overcapacity on our inland waterways and, 
yet, you have to do these little things so that you can have 
more capacity, in a sense, you can float the barge 40 percent 
down more and haul a lot more product.
    You run into kind of the Catch-22 situation in this in the 
sense that money is being spent, but it is has been through 
operations and maintenance, so it is considered a new start to 
finish it out. So I think those are things that we just have to 
look at or just things that I think we can help you with.
    One of the questions that I would like to ask is, with us 
putting so many contracts on the street at the same time, are 
we concerned about inflation? Have we kind of factored in that 
a little bit?
    Mr. Salt. Sir, the good news is that, as part of our 
process--and I didn't mention this--we capped our projects at 
$50 million so that we could have our projects spread out over 
the whole country so there isn't a concentration in any one 
place. Notwithstanding that, this is an increased contract 
load, so we are planning to provide temporary contracting 
specialists to allow us to get the contracts out and to quickly 
process the work that we have been discussing.
    I think, as we heard on the first panel, generally there is 
a good bidding climate, so that is going to cause at least some 
of the agencies to receive bids lower than their estimates. My 
college economics tells me that as the demand for those 
services goes up, that there will be a cost that goes with 
that, but right now we believe because it is spread out, 
because we have smaller projects, that will be good for small 
businesses; we believe it will provide the stimulative job 
creation effects that the law expects.
    Mr. Boozman. Good. No, that makes a lot of sense. The 
second part of my question was going to be would we see more 
competitive contracts because of the downturn, but you answered 
that.
    I love your name, Rock Salt.
    Mr. Salt. Thank you, sir.
    Mr. Boozman. That is great.
    Mr. Salt. My dad is almost 90, and he told me the other day 
that, you know, Rock, that name worked out pretty good for you, 
and that is true.
    [Laughter.]
    Mr. Boozman. Very good.
    I yield back on that, Mr. Chairman.
    Mr. Oberstar. Thank you. He comes very highly recommended 
as a rock by Mr. Diaz-Balart in his work on the Everglades, and 
that is nice to hear.
    Now the Chair of the Transportation Public Buildings 
Grounds, Economic Development, and a whole host of other 
things, the gentlewoman from the District, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. But above 
all, thank you for the way in which you are tracking these 
funds and making good on your promise that this money had to be 
used or lost.
    Mr. Chairman, could I just ask, as a point of personal 
privilege, in the name of climate change and energy 
conservation, that the staff turn down this air conditioning? I 
think even for men in long-sleeved shirts and suits, surely we 
are not setting the proper example. I am freezing up here. I 
keep going back in there so I can get a little warm and come 
back out here.
    Mr. Oberstar. I don't know that we can control our 
particular room, but I recall for the gentlewoman, in 1977, 
when we had energy issues on the House Floor and then the 
Senate took the same measure up, and it was Senator Jennings 
Randolph who, with a thermometer in hand, said, on the floor of 
the United States Senate, look at this thermometer; it is 68 
degrees in this chamber. We could save money by raising the 
temperature and lowering our energy cost.
    And the next day they came back and Jennings Randolph 
pulled out his thermometer; it was 72 degrees. Very 
comfortable, he said. And a reporter asked the building 
superintendent, the manager of the power plant, how did you do 
that? He said, well, we can't control it, we just opened the 
vents and let in the outside air.
    [Laughter.]
    Ms. Norton. Whatever it takes, Mr. Chairman. I notice that 
they cool it out here where the Members are, but back there 
where the staff is, it is comfortable. I am not sure what that 
means.
    I do agree with you, Mr. Chairman, regarding how we must 
use the stimulus exercise, shall we call it. I regard it as a 
dress rehearsal for this huge--we hope huge--reauthorization on 
which the Committee is now working, and much that we have 
learned here, having to go fast, having to monitor more, the 
Chairman has indicated is going to be regular order.
    Mr. Prouty, I don't know if you heard my discussion on 
training. This Committee did insist upon some funds; the 
appropriators were a whole lot more stingy than we thought. You 
have only $3 million; transportation had $20 million. I intend 
to make it clear that such funds in the future are mandated and 
that States can't just decide to use all the money for the 
existing workforce and not train new people.
    Have you made any progress yet in figuring out how to use 
such a small amount of money in training, given how many places 
they could conceivably be put and obviously can't be put 
because of the amount involved?
    Mr. Prouty. We really haven't made a great deal of 
progress. We have talked about what that money can be used for. 
It can be used for recruiting and some classroom training for 
basic skills, mass skills, pre-apprentice work and program 
management; and we are sitting that together with----
    Ms. Norton. Some of those words don't sit well, like 
program management. It seems to me that this money has to be 
used, in the GSA section it made it clear on-the-job training. 
Pre-apprentice programs of one kind or the other, it is very 
difficult to do.
    I suggested to the Transportation Secretary that given how 
small the amounts were, even his amount, given the amount of 
his total package and our tiny amount, only $3 million, since 
we are both in the construction business, that we partner so 
that we don't go into the same jurisdictions, pile on, as it 
were, some places. Since we don't have enough money to give the 
50 States, territories and the District of Columbia, could I 
ask that your staff sit down with my staff to begin to talk 
about the use of this money, which is already rationed in its 
amount, and therefore puts very special burden to be used 
wisely on GSA?
    Mr. Prouty. We will do that.
    Ms. Norton. Thank you.
    Could I ask you, Mr. Prouty, how many contracts GSA has 
awarded thus far and how many are in the pipeline?
    Mr. Prouty. We have awarded six projects for $92 million. 
That is six out of roughly 250. So, after one month, we are 
moving along, but we have got plenty to do.
    Ms. Norton. How many are in the pipeline, Mr. Prouty?
    Mr. Prouty. When you say in the pipeline, we expect----
    Ms. Norton. I guess they are all in the pipeline somewhere.
    Mr. Prouty. Yes, they are. I don't know the exact number of 
projects, but we expect another $100 million to be awarded 
before June, and then we are working towards the billion goal. 
So I am not sure, I don't have the specifics.
    Ms. Norton. Well, let's discuss that $1 billion. The 
current goal, as you say in your testimony, is $1 billion by 
August 1st and $1 billion by the end of the calendar year. So 
you see, with a little rough math here, 4.5, that is $2 billion 
by the end of the calendar year. That leaves $2.5 billion.
    In your testimony, you indicate how much money will be used 
for various categories. The only way to understand what appears 
to be pretty slow going, since all the money, of course, has to 
be obligated by 2010, even the DHS money, and we have not even 
broken ground yet, the only way to understand how you are doing 
this, since you have only accounted for $2 billion in your 
testimony, is to look further in your testimony and see how the 
projects are broken down. There is a construction category, 
there is a modernization category, there is a green buildings 
category.
    Now, you are breaking those down. No time lines are 
associated, at least in your testimony, with those, and you 
also say in your testimony--I am looking at page 2--that you 
lament the fact that there was a backlog of over $7 billion and 
you got $5.5 billion. We went for the whole enchilada. One 
wonders if you could have handled the whole enchilada. And you 
say, on page 3 of your testimony, that many of the new Federal 
construction and building modernization categories have 
previously received partial funding.
    In light of that circumstance and of only $2 billion that I 
can account for by the end of this calendar year, and the need 
to get some jobs out there which is the whole point of this 
stimulus package, I must ask you to account for the other $2.5 
billion.
    Mr. Prouty. As you know, since we submitted the list to 
this Committee, those 250 projects represent the roughly $5 
billion. So all of those projects are on a list. They are all 
being scoped and designed. They all will have schedules.
    Ms. Norton. Well, see, now wait a minute. We were told 
there was a backlog. Now, we can understand there may be some 
design work going on on projects like the border projects, but 
after all it was months ago that we even authorized those. So I 
hope there is not a lot of design work, sir, going on here. 
Then we really are at the beginning.
    Mr. Prouty. There is some design and some review of design. 
But there is a lot of that work that can be pushed out. When we 
were going through these projects in dealing with the regions 
as they are rolling them out, we will get better information as 
we meet 30 days from now.
    Ms. Norton. Yes, we were very pleased with your list of 
projects, with the range of the projects. We also know that GSA 
was very underfunded over the past several years. You have met 
with our staff and, very frankly, we assumed that there would 
be more than half of these funds out by the end of this 
calendar year.
    It does seem to me that you are going to be in a terrible 
speed up because in 2010, the game is over. The point is to get 
it out and to get to this so-called backlog which everybody 
said was shovel-ready. Remember those famous words? So I am not 
sure I see either enough staff, enough consultants, or enough 
term-hired staff. What is necessary to get more of this work 
out on the streets so we put more people to work?
    Mr. Prouty. We are recruiting so some of it has to do with 
staff.
    Ms. Norton. Well, I am telling you there are a lot of folks 
out here on the street, Mr. Prouty. I can't believe recruiting 
has been a problem. How long does it take to process a person 
for a term position to come on and get the work done?
    Mr. Prouty. Well, it depends on the authority. I am not 
really sure exactly what the time is. But some of those 
authorities allow us to bring back retirees, which is just a 
matter of identifying who they are. We are in the process of 
doing that.
    Ms. Norton. Would you get back to us within two weeks, 14 
days? We would like to know how many retirees are being brought 
back, how many term employees have been hired, and how many are 
contemplating to be hired.
    I would like you to account for the other $2.5 billion. You 
got $2 billion that you are going to get out on the street by 
the end of this year. That leaves $2.5 billion.
    For example, how in the world are you going to use the 
stimulus funds that must be spent on DHS in Ward 8 of this 
city? That money has got to be spent or else I am not going to 
be able to get any more money right away for DHS. Yet you have 
not broken ground yet. It is $4 billion just for this one 
project. Are you going to be able to spend $4 billion for DHS? 
Or is it 2011? Is it 2010 or 2011?
    Mr. Prouty. It is 2011 so it is in the second wave.
    Ms. Norton. You all need to speed up on this wave. This 
puts you under real, real pressure. You have been working, GSA 
has been working as fast as it could. It got its master plan 
approved.
    What we did was to go to the Senate, frankly, and indicate 
that this was a classic FDR project. The entire Constitution 
Avenue and Independence Avenue got built during the 1930s as 
you go and look down on the cornerstones. It is because FDR was 
doing precisely what this President is doing, making jobs. He 
built the entire Federal presence downtown.
    This is essentially the kind of pressure you are under on 
DHS. For me, that becomes a personal matter because I am the 
one that has had to beat everybody about the head and shoulders 
to get what money we have gotten there out. So if it looks like 
we have not obligated the $450 million by the end of the 
period, there goes the appropriation. I will not be able to get 
another thin dime out of the appropriators. So I am very, very 
motivated on that and I can only ask you to be motivated.
    I want to see the timeline within two weeks for spending 
the $4.5 billion dollars for Saint Elizabeth's. I want to know 
how you are, given what doesn't look like a very fast pace, how 
are you going to handle swing space. There are some full 
building modernizations going on where you are going to have to 
move people out--get the work done--into some swing spaces.
    Do you have the swing space? Will you be using any advanced 
acquisition program for swing space? How are you going to 
handle that one problem which accompanies what you are going to 
be able to do?
    Mr. Prouty. We will need swing space.
    Mr. Oberstar. You will have to give your answer and then I 
have to go next to Mr. Buchanan. We will have another round of 
questions if the gentlewoman needs it. But we need to move on 
so make your response. There is a lot that you are going to 
have to answer for.
    Mr. Prouty. We do need swing space. We have identified what 
it is. We started the projects and we will use the advance 
program in order to do that. We are confident that we are going 
to be able to get the swing space that we need.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Oberstar. We will follow up on this.
    Mr. Buchanan?
    Mr. Buchanan. Thank you, Mr. Chairman. Thank you again for 
all you are doing and your leadership.
    Mr. Salt, this relates to Florida stimulus and jobs. It 
pertains to southwest Florida, Port Manatee. It is a major 
economic engine for our region. It is the closest deep water 
port in the U.S. to the Panama Canal.
    We have got a lot of room for expansion but yet we have 
been chronically delayed. I think it going on seven to ten 
years in approving a GRR for dredging at the Port that would 
allow Manatee to take advantage of a larger ship traffic.
    This project will create a lot of jobs in our area. They 
built a berth based on good faith, costing the $10 million the 
Port spent I don't know how many years ago. It was quite a few 
years ago. We had a good faith commitment back then to the 
Corps.
    I just didn't know and would like to get your thoughts on 
where we are at and what is going on. Could you give me your 
insight on that?
    Mr. Salt. First I would say from a previous life, the Port 
was one of my favorites. I don't know if I am allowed to say 
that.
    Mr. Buchanan. I appreciate it.
    Mr. Salt. We met with the Port Authority 2nd, the Port 
officials in the last couple of weeks to talk about the issues 
that you have raised. What I will tell you is we are working 
the issues. There are questions about the adequacy of the 
disposal site, with the political and public opposition to Gulf 
disposal, ocean disposal.
    As we work through the analysis of all of the issues, I 
agree it has taken too long. We had a good meeting with the 
Port officials. The last I heard, we were working on a 
satisfactory arrangement that would allow the Port to proceed 
with the State funds that they have. But, I will specifically 
get back on that because I haven't been back briefed on the 
specifics of that since our meeting.
    Mr. Buchanan. Yes. If you would look at that berth, there 
are hundreds of millions of dollars, I think, that they could 
be generating in revenue for a lot of years. We built that but 
yet we have got this technicality. It is more than that, 
obviously, but it has just gone on for a long time. It is 
keeping us from a lot of jobs and opportunities.
    Assistant Secretary Woodley, I met with him I think a 
couple of years ago. It sounded like we had it down and it was 
going to be done. But here we are sitting two years later 
again. So I would appreciate for you to get back with me. Let 
us get a timeframe and figure out a way to get this done. We 
have a lot of opportunity for expansion. We think it could be a 
mega-port. We have got the area there where we can expand and 
it would create a lot of jobs.
    I know this is about stimulus and job creation. So I am 
very interested not just in the Country getting these jobs, 
getting these projects out there, but this is something that 
has been sitting there forever. We have got to figure out a way 
to push through this to get this resolved. I appreciate you 
getting back to me.
    Mr. Salt. I agree, sir.
    Mr. Buchanan. Thank you.
    Mr. Oberstar. I thank the gentleman for those observations. 
We will expect that information, Mr. Salt.
    Now, I have here a list of the operations and maintenance 
projects that by sort of a rough count--it is a printout we 
just received last night or this morning--there are 892 O&M 
projects, 178 construction projects, 45 Mississippi River and 
tributaries projects, 67 investigations, and 9 formerly 
utilized remedial action projects. This gives a total of 1,191. 
Is that the universe of projects that the Corps is going to be 
undertaking?
    Mr. Salt. That is the list that we will be using to send 
the funds out on Friday. I think as funds are available, we 
will continue to make sure we expend all the funds that 
Congress has provided, so that we can meet the purposes of the 
Bill.
    Mr. Oberstar. I will not pretend to have read every one of 
these because we didn't really have the time in which to do 
that. But just a cursory review indicates that there was some 
back and forth between the Corps and OMB. Although, we have 
already discussed it and I don't want to beat to death the New 
Starts issue. That is not your problem. You are new on the 
scene. That is an OMB problem and I have a problem with them. 
But I don't see any consistent pattern of criteria by which 
these decisions were made.
    So I would like you to submit to the Committee your list of 
criteria by which the Corps selected the projects for inclusion 
in its Recovery Act. We insisted on transparency, 
accountability, and openness. This is part of transparency. If 
one of those factors was something, I have heard that the 
project be budgetable, whatever in heaven's name that means, by 
OMB, what criteria did the Office of Management and Budget 
direct the Corps to use? That is a very specific question. If 
the factor is that it be budgetable, this is arcane. In 43 
years, I have not heard that.
    Mr. Salt. Sir, I would say categorically, that was not a 
criteria. That was not a criteria imposed upon or even 
suggested to us by OMB at least at the levels of discussions 
that I was having with OMB officials. That was not a criteria 
that we used.
    Mr. Oberstar. Well, whatever it was, I have heard this and 
I have no idea what it means. I take your word but I want the 
list of criteria.
    Mr. Salt. Yes, sir. I believe one version of that list will 
soon be posted on the web that you mentioned for the 
transparency. But we certainly will provide that information to 
you.
    Mr. Oberstar. Send it by email; we'll get it fast.
    Mr. Stadtler, I had understood very early on we asked 
Amtrak for a list of projects. We went through this at quite 
some length about what amount of investment you could use 
within the timeframe that we anticipated. We got a list and we 
had $5 billion worth. Unfortunately, that got cut in the 
conference to the dollar amount that we are now talking about.
    But one of those was the 102 year old Niantic River Bridge. 
Another one in Pennsylvania, a frequency converter. It was not 
a bridge; they call it the 80 year old Lamokin Frequency 
Converter. Are those still on your project list?
    Mr. Stadtler. Yes, sir. They are both on the list. We 
expect them both to be awarded this summer. I believe the 
Niantic Bridge is either late June or July on the schedule. I 
will have to get back on the converter.
    Mr. Oberstar. What is the converter? What does it do?
    Mr. Stadtler. What it does is give us backup power. It 
deals with the power.
    Mr. Oberstar. It is an 80 year old device and needs to be 
upgraded?
    Mr. Stadtler. That is correct.
    Mr. Oberstar. That is characteristic of much of the 
infrastructure that Amtrak has to deal with, isn't it?
    Mr. Stadtler. That is absolutely correct, sir.
    Mr. Oberstar. Yes. You describe a dispersment program that 
will bring in regional project managers to deal with ``more 
difficult and complex projects.'' What do you mean by more 
difficult and complex projects?
    Mr. Stadtler. What those folks are going to do is they will 
basically be an extension----
    Mr. Oberstar. First of all, what is a more difficult and 
complex project?
    Mr. Stadtler. For example, a bridge would be a more complex 
project. Some of the things that, easy is not the right word, 
but that we are better equipped to do more rapidly are things 
like the vehicle overhaul. These are things that we have off 
the shelf, that we have been ready to do but have just been 
deferring because of funding reasons. Some of the new items 
that we are doing, like some of the bridges, that we had just 
not been ready to do mean we need more expertise.
    We were concerned that we are all local here. We felt that 
it would be a good idea to have these regional program managers 
that we could rely on to have that expertise right there where 
the projects are taking place. They would, again, serve as kind 
of an extension of our procurement folks to get the projects 
moving more rapidly. There are many things that we have 
deferred, sir, if I may, that we were concerned about getting 
done by February 2011. We think having this extra staff will 
help us meet that deadline.
    Mr. Oberstar. You will submit a list of additional 
personnel you will require to do this work?
    Mr. Stadtler. Certainly. In fact, we are putting that out 
for bid.
    Mr. Oberstar. Early, by early I mean three weeks ago or so, 
four weeks ago, early after the signing into law, we received 
information Amtrak that something in the range of 80 to 90 rail 
passenger cars would be refurbished at the Indianapolis 
facility. Is that still on track?
    Mr. Stadtler. Yes, that is correct.
    Mr. Oberstar. Do you know how many cars you anticipate 
doing?
    Mr. Stadtler. I have the exact number, 81.
    Mr. Oberstar. Eighty-one. My recollection was a little 
higher than that number. Eighty-one, that is right. No, that is 
correct. That is the number I recall receiving.
    Mr. Stadtler. Then there are 15 locomotives as well, above 
and beyond that.
    Mr. Oberstar. And locomotives on top of that, yes.
    Mr. Diaz-Balart, do you have any further questions?
    Mr. Diaz-Balart. Thank you, Mr. Chairman. I have just a 
couple about Amtrak. How does Amtrak intend to spend the $450 
million money for security? Does that funding go through the 
Department of Transportation as the annual capital and 
operating grants do or will it flow through the Department of 
Homeland Security? Do you have any idea?
    Mr. Stadtler. That money actually is flowing through the 
Department of Transportation and it has already been awarded. 
We signed the grant within the 30 days.
    What we will be spending it on is security and line safety 
projects. Some of those projects range from improving lighting 
in stations where the parking lighting is poor. We are 
enhancing our Positive Train Control projects on the northeast 
corridor and in Michigan. We are installing closed circuit TV 
on yards where we have a history of vandalism. It is a wide 
range of projects.
    Mr. Diaz-Balart. Great. Generally speaking, how much of the 
Amtrak capital grant funds--obviously we are talking about 
these Recovery funds, this bill's funds--will stay in-house 
versus Force Account and other construction work by outside?
    Mr. Stadtler. I would have to respond to that for the 
record but the majority of it will be going outside.
    Mr. Diaz-Balart. Most of it will be going outside?
    Mr. Stadtler. That is correct. But we can get the exact 
number.
    Mr. Diaz-Balart. Lastly, Mr. Chairman, on that is you 
mentioned in your statement that there is an estimate of 4,600 
new jobs that will be created as a result of the $1.3 billion 
appropriated. How many of these jobs do you think will be new 
Amtrak permanent employees as opposed to private sector jobs?
    Mr. Stadtler. Just to clarify, the 4,600 jobs is just in 
the first year. We will probably double that amount when the 
February, 2011 time is met.
    We think that, again, the majority of those jobs will be 
outside jobs. We don't have an exact number yet. As the 
projects get more fleshed out, we will have a closer number. As 
my colleagues are doing, we will be reporting every 30 days to 
the FRA on exact numbers internal and external.
    Mr. Diaz-Balart. Thank you. Thank you, Mr. Chairman.
    Mr. Oberstar. Very good. Thank you.
    Mr. Salt, I am reflecting on your response to my earlier 
question about the 1,191 projects. Does that capture the entire 
$4.6 billion allocated to the Corps under the Recovery Act?
    Mr. Salt. No, sir. The Corps did not allocate or did not 
request designation for about $200 million of the appropriated 
funds. They are holding that to deal with any variances that 
come in the bidding. Once we start to get a better read, to the 
question that was asked before about our estimates versus the 
actual bids, we will go ahead.
    Mr. Oberstar. So you have a reserve in case projects come 
in above cost estimates so that you can meet those.
    Mr. Salt. That is right. It is so we will be able to meet 
that list. If the bids turn out lower, if the actual bids come 
in lower, then obviously we would have that increment of funds 
that we could then use.
    Mr. Oberstar. Use on the second lock of Project Marie?
    Mr. Salt. Correct. Well, to use on other projects.
    [Laughter.]
    Mr. Oberstar. That wasn't fair.
    [Laughter.]
    Mr. Oberstar. That was not fair. Now the use it or lose it 
principle that we insisted on in the Highway and Transit 
Program with the FAA doesn't quite apply in the same way 
because it is not one State using Corps projects and if they 
don't use it, it goes to another State. But if a project for 
some reason or another falls out--it doesn't meet your criteria 
or the contract can't be awarded--what are you going to do with 
those funds?
    Mr. Salt. We go to the list.
    Mr. Oberstar. You have another list? You have a long list.
    Mr. Salt. We have a long list. At the risk of getting in 
trouble--I am sitting here with a moral dilemma--the person who 
directed that the Sault Saint Marie Project be out was me. It 
wasn't OMB. It was because of my reading of the law of projects 
with long term economic benefits. I read that and the projects 
that are on the list were the projects that had better economic 
benefits as we went through the list. It wasn't an OMB 
direction. It was my honest attempt to try and develop a list 
that best met the needs and the direction of the Congress.
    Mr. Oberstar. That is a very honest answer. That was what 
Mr. Diaz-Balart said we would get from you.
    Mr. Salt. You didn't ask who it was and I was sitting here 
as this conversation is going on. I would just say that I, 
working with the Corps, attempted to carry out the guidance as 
best we understood it. I was new enough to not even know whose 
Congressional districts the projects were in or anything. We 
just tried to carry out the guidance as best we understood it.
    Mr. Oberstar. It is not in my district, either, and that is 
not the purpose of it. The point is that you and I need to have 
a further conversation about this. The evaluation factors for 
that second lock at Sault Saint Marie were based on old data 
that don't reflect new developments in either the upper lakes 
or the lower lakes. The changes in economics and changes in 
goods movement justify this second lock.
    Likewise, we passed a bill in the House this week to 
authorize a second ice breaker for the Great Lakes. The Coast 
Guard just had one ice breaker and a handful of little midgets 
that are supposed to keep the lanes open. Well, the little 
harbor tugs can't keep the lanes open for the shipping to move 
the coal that we need in lower lake ports, nor the iron ore 
that the steel mills need to make steel, nor the sand and 
gravel that is needed for the highway programs.
    When the Mackinaw was needed in Lake Superior, it was on 
duty in Lake Eerie or Ontario. We need an ice breaker in the 
upper lakes and in the lower lakes as well. And we need a 
second lock at Sault Saint Marie.
    This thing has been going on since the Reagan 
Administration when they wanted to require all States to 
contribute something to it. Then they wanted to charge interest 
to repayment of the cost of that lock. Well, the Tennessee Tom 
Bigby Waterway was $1 billion and there was no cost share on 
it. The Atlantic Intracoastal Waterway, 2,500 miles, has no 
cost share. It is all Federal funds. The Gulf Intracoastal 
Waterway, 1,600 miles from Texas through to Florida, has no 
local cost share.
    We are not a Third World country on the Great Lakes. We are 
not a colony. The goods produced there represent 40 million 
people. They represent 25 percent of the industrial capacity of 
the United States and 40 percent of the agricultural exports of 
this Country. That is a vital artery. We need to have action on 
it just as the Mississippi needs action on those five locks 
that need to be extended from 600 to 1,200 feet.
    So while I have got you here, I want you to pay attention.
    Mr. Salt. Sir, I am listening very carefully.
    Mr. Oberstar. I see that. I appreciate it.
    The panel is dismissed. Thank you very much for your 
contributions. We will see you in 30 days.
    Our next panel consists of Inspector General of the 
Department of Transportation, the Honorable Calvin Scovel, a 
frequent presenter before our Committee; Katherine Siggerud, 
Managing Director of Physical Infrastructure Issues at GAO; and 
Melissa Heist, Assistant Inspector General for the U.S. EPA.
    Inspector General Scovel, you have been such a frequent 
witness before this Committee, you almost have your own 
assigned seat. Thank you for your diligence in carrying out the 
duties of your Office. You have been a great asset to this 
Committee and a great asset to the public--the flying public, 
the highway traveling public, the rail using public, and the 
maritime public. You have made exceptional contributions. We 
are grateful for your service.
    Thank you very much for being with us.

  TESTIMONY OF CALVIN L. SCOVEL III, INSPECTOR GENERAL, U.S. 
 DEPARTMENT OF TRANSPORTATION; KATHERINE A. SIGGERUD, MANAGING 
   DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, U.S. GOVERNMENT 
 ACCOUNTABILITY OFFICE; AND MELISSA HEIST, ASSISTANT INSPECTOR 
    GENERAL FOR AUDIT, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Scovel. Chairman Oberstar, thank you very much for your 
comments. I would remiss if I didn't cite the sterling efforts 
of my staff to support the important mission of both the 
Secretary of Transportation and of this Congress. They deserve 
all credit, sir.
    If I may, Chairman Oberstar, Ranking Member Diaz-Balart, 
and Members of the Committee, I welcome the opportunity to 
testify today on the challenges facing DOT's implementation of 
the Recovery Act and our related audit and investigative 
initiatives.
    We are working with DOT officials in support of their 
related efforts and we have assembled a team of auditors, 
investigators, and attorneys to review the Department's 
implementation of the Recovery program. We are also working 
with nine other IG offices as part of the Recovery Act 
Accountability and Transparency Board created by ARRA.
    The Recovery Act designates an unprecedented $48 billion 
for DOT programs, adding new challenges on top of longstanding 
ones we have previously highlighted. These include overseeing 
numerous grantees and projects across the Country as funding is 
infused into the economy. In addition to significantly 
increasing funding for existing DOT programs, the Act directed 
the Department to create new programs and establish tight 
timeframes for distributing and expending funds and for 
reporting results such as the number of jobs created.
    Both the President and Congress have emphasized the need 
for accountability, efficiency, and transparency. Your 
commitment to vigilant oversight is evidenced by this hearing. 
We also recognize the Department's proactive efforts to ensure 
effective implementation, including the work of Secretary 
LaHood's DOT-wide TIGER team.
    My statement today focuses on the challenges facing DOT and 
our strategy to advance the effective and efficient use of 
these funds. First, DOT must continue to address the 
significant oversight challenges posed by the Recovery Act. 
Last month, we issued a comprehensive report that identified 
actions DOT should take now to address known challenges and 
support Recovery Act requirements. These challenges fall into 
three areas: overseeing grantees receiving funding; 
implementing new programs and reporting requirements in an 
effective manner; and combating fraud, waste and abuse.
    Specific actions noted in our report include acquiring 
sufficient staff with relevant expertise; ensuring that 
grantees use appropriate contract types; addressing internal 
control weaknesses, such as identifying any unused funds for 
use on other eligible projects; developing plans and criteria 
for more than $9 billion in new programs; and finally, taking 
timely action to suspend or debar contractors who defraud the 
Government.
    Next, I want to focus on what our Office is doing to 
promote accountability in the Recovery program. Our audits and 
investigations will continue to examine areas that present the 
greatest risks. We are committed to promptly notifying DOT and 
Congress of actions needed to prevent fraud, waste, and abuse 
and to achieve program goals. In anticipation of the Act's 
passage, we initiated a risk-based, three-part strategy.
    We completed phase one last month by issuing our 
comprehensive report on DOT's oversight challenges. We also 
identified ongoing audits that started before the Recovery Act 
but have relevance to programs funded under it. These include 
audits on award fee implementation, suspension and debarment 
practices, and Amtrak's capital program. We are fast tracking 
the most time sensitive results of our work so that we provide 
timely and relevant information to DOT and the Congress.
    Phase two of our strategy is now underway. We are 
conducting a series of structured reviews, or scans, of the DOT 
agencies that received Recovery funding. Specifically, we are 
examining vulnerabilities in program management and planning 
that could impede DOT's ability to effectively oversee projects 
and meet new statutory and OMB requirements.
    We will be reporting the results of phase two through a 
series of advisories to the Department and Congress as events 
warrant. We will conclude phase two this summer with a capstone 
report on the results of the scans.
    Phase three is a longer term initiative in which we will 
drill down on high risk areas that emerge as a result of our 
agency scans.
    Also, our investigators are being proactive in supporting 
DOT and its grantees. They are reaching out to officials in all 
modes of transportation to conduct fraud awareness and 
prevention briefings and training at all levels of Government 
so those involved in carrying out the Recovery program know how 
to recognize, prevent, and report suspected fraud. For example, 
we have made personal contact with FHWA officials in all 50 
States and the District of Columbia, FTA officials in 24 
States, FAA officials in 20 States and D.C., and State and 
local officials in 45 States and DC.
    I assure you that we are strongly committed to meeting our 
increased audit and investigative workload. To that end, we 
appreciate the additional funding provided to us. We intend to 
make the most of it. This funding will enable us to maintain 
staff, travel budgets, information technology, and other 
resources that we need.
    We are also conducting external outreach, including to our 
Congressional clients, to solicit their input in updating our 
strategic plan to address new crosscutting challenges posed by 
this program.
    In conclusion, it is critical that we do everything 
possible to maximize this opportunity to make needed 
investments in our Nation's infrastructure while protecting 
taxpayer dollars. We are committed to doing just that.
    That concludes my statement, Mr. Chairman. I would be happy 
to answer any questions you or other Members of the Committee 
might have.
    Mr. Oberstar. Thank you very much for that splendid 
presentation. I have just one question before I go to the next 
witness. Those initiatives that you described as being put in 
place in all of the States that you mentioned and so on, do you 
anticipate that this will have a preventative effect on fraud, 
abuse, and misuse?
    Mr. Scovel. We anticipate that it will. That is the entire 
motivation for our efforts so far. I would like to give credit 
to Secretary LaHood as well. He and I co-hosted a webcast to 
all Department staff back in March with the goal being fraud 
prevention and awareness. My staff has made consistent outreach 
efforts across the board, throughout the Department, to State 
and local grantees, and to contractors as well. At FHWA's 
invitation, we will be hosting a series of web instruction 
pieces throughout the month of May so that, we hope, in the end 
we will have reached every single FHWA employee.
    Mr. Oberstar. Well, that is good to hear. Secretary LaHood 
certainly is the right man in the right place at the right 
time.
    Ms. Siggerud, welcome to our Committee. You have been here 
many times before. We are glad to have you back.
    Ms. Siggerud. It is a pleasure to be here. Mr. Chairman, 
Mr. Diaz-Balart, I am pleased to be here today to discuss GAO's 
work on the American Recovery and Reinvestment Act of 2009.
    As you know, the Act directs GAO to conduct bimonthly 
reviews on the use of funds by selected States and localities. 
We just completed our first review last week where we examined 
16 States and the District of Columbia. We expect to track 
these States over the next few years to provide an ongoing 
analysis of their use of Recovery Act funds.
    My statement today is based on this recently completed work 
and provides an overview of first, selected States use of 
Recovery Act funds, primarily for highway programs; second, 
their actions to ensure accountability; and third, plans to 
evaluate the Act's impact.
    I do want to note that we have been working closely with 
the Department of Transportation over the past three months and 
the cooperation has been excellent. For example, biweekly the 
Department's TIGER stewardship team meets with us and with the 
Department's Inspector General to share information.
    Regarding my first topic, State's use of funds, as of April 
24th, the DOT reported that nationally about $8 billion in 
Recovery Act highway funding had been obligated, meaning the 
DOT and the States had executed agreements on these projects. 
For the 17 locations that we reviewed, approximately $3.8 
billion in highway funding had been obligated with the 
percentage of funds obligated ranging from 1 to 65 percent in 
those States.
    States plan to meet statutory deadlines for obligating 
highway funds. The plans are facilitated by States using their 
existing State-wide planning processes as required by the Act.
    A few States had already executed contracts. For example, 
as of April 1st, Mississippi had signed contracts for 10 
projects totaling $77 million. This is part of the State's goal 
to link every State resident to a four lane highway within 30 
miles or 30 minutes.
    States also report that they targeted transportation 
projects that can be started and completed expeditiously. 
Several States have focused on repair and rehabilitation 
projects because these projects require less environmental 
review or design work and therefore can be started quickly.
    Some States also reported selecting projects that create 
jobs in their economically distressed areas. For example, North 
Carolina plans to award $466 million for 70 highway and bridge 
projects in economically distressed areas. We plan to review 
States' considerations of these areas in our future work.
    Another issue is States' certification that they will 
maintain their level of effort. Fourteen of the 17 locations 
that we reviewed submitted these certifications with 
explanations or conditions attached. Last week, DOT informed 
States that the Recovery Act does not authorize such caveats. 
In our future bimonthly reviews we expect a report on FHWA's 
oversight in this area and why States indicated that they may 
not be able to maintain their levels of effort.
    Regarding my second topic, the tracking of funds to foster 
accountability, officials from all 17 locations told us that 
they had established or are establishing methods and processes 
to separately identify, track, and report on the use of 
Recovery Act funds they receive.
    However, State officials reported a range of concerns on 
the Federal requirements to identify and track Recovery Act 
funds going to localities and others. These concerns include 
their inability to track these funds, accountability for funds 
which do not pass through the State, and their desire for 
additional Federal guidance. OMB and FHWA continue to develop 
guidance and communication strategies for tracking funds' use. 
We will continue to review those efforts.
    Regarding my third topic, assessing the impact of the 
Recovery Act, States vary in how they plan to carry this out. 
Some States will use existing Federal program guidance or 
performance measures to evaluate an impact, particularly for 
ongoing programs such as FHWA's surface transportation 
programs. Other States have not yet determined how they will 
assess impact. A number of States want clearer definitions of 
jobs created and retained under the Act as well as 
methodologies that can be used for the estimation of each.
    OMB has issued guidance but it did not provide 
methodologies. OMB plans to update this guidance in the next 30 
to 60 days. Given the questions raised, we recommended in our 
first bimonthly report that OMB continue its efforts to 
identify appropriate methodologies.
    Finally, I want to mention three other Recovery Act reviews 
that we are undertaking that may be of interest to this 
Committee. First, as a part of our ongoing work to report on 
agencies' implementation of the Energy Independence and 
Security Act of 2007, we plan to assess the impact of Recovery 
Act funding on GSA's ability to meet high performance Federal 
building requirements. Second, we plan to look at the $1.5 
billion supplementary discretionary grant program. This is a 
new program and we expect to assess how DOT developed its grant 
selection criteria, which the Act requires DOT to publish in 
less than a month. Finally, we plan to review the high speed 
rail program established by the Act. This new program provides 
about $8 billion for high speed and intercity passenger rail 
projects. We expect to focus on how DOT's efforts will increase 
the chances of viable high speed rail projects consistent with 
recommendations in our recent report.
    In carrying out these and other reviews, we will work with 
this Committee to understand your interests. Mr. Chairman, this 
concludes my prepared statement. I am happy to answer questions 
at the appropriate time.
    Mr. Oberstar. Thank you very much for your thoughtful 
comments.
    Now, Ms. Heist.
    Ms. Heist. Good afternoon, Mr. Chairman and Mr. Boozman. I 
am Melissa Heist, the Assistant Inspector General for Audit at 
the EPA Office of Inspector General. I am pleased to be here 
today to discuss challenges the EPA faces in implementing the 
Recovery Act and the OIG's oversight plans.
    Under the Recovery Act, EPA received over $7.2 billion, 
which is roughly equal to its fiscal year 2009 appropriation. 
$6 billion of this is for the Clean Water and Drinking Water 
State Revolving Funds. To date, EPA has awarded grants 
totalling nearly $1.8 billion.
    EPA will face some significant challenges as it awards and 
manages Recovery Act funding.
    One, for the SRF programs, EPA and its grantees will be 
challenged to spend the SRF Recovery Act funding in a timely 
manner. The Congressional Budget Office has noted that 
historically, appropriations for the SRF programs are spent 
slowly with about half the funds spent over the first three 
years. If this trend continues, it will delay much needed water 
improvements.
    Two, since most Recovery Act funds will be awarded through 
assistance agreements or contracts, EPA will be challenged to 
have sufficiently trained staff to award and monitor stimulus-
funded projects in addition to their normal workloads. This 
could hamper management and oversight of these funds and 
increase the potential for fraud, waste, and abuse as well as 
cost overruns and project delays.
    Three, EPA will be challenged to have information needed to 
identify fraud, waste, and abuse at the level where most funds 
are expended, specifically below the sub-recipient level. This 
is because OMB is currently only requiring States to report 
information down to the sub-recipient level.
    We have developed an initial oversight plan to assess 
whether EPA is using funds in accordance with applicable 
requirements and meeting accountability objectives. As we 
identify risks, we are providing flash reports to agency 
managers and meeting with them. We have been meeting with them 
to increase our understanding of how stimulus funds will be 
used and to provide technical assistance based on our past 
experience. We are also reviewing prior audits in program areas 
covered by the Recovery Act to determine whether corrective 
actions have been taken.
    Lastly, we will be reviewing EPA's management of Recovery 
Act programs, how funds are being used, and the accuracy of 
information being reported.
    From an investigative perspective, we are undertaking a 
proactive approach to preventing fraud, waste, and abuse by 
educating EPA and State employees, contractors, and grant 
recipients on identifying fraud indicators and reporting 
suspicious activities to us. We are conducting outreach with 
law enforcement at all levels in an effort to gather 
information on potential fraudulent activity. This outreach 
includes contacting the top State Revolving Fund recipients. We 
are developing teams of investigators, auditors, and evaluators 
to analyze fraud indicators and identify high risk recipients. 
Finally, we will be reviewing concerns raised by the public. We 
have started to issue reports on our oversight activities. 
Earlier this month, we issued a report to alert EPA managers of 
open recommendations from prior audit reports that could impact 
EPA's Recovery Act activities. We recommended that EPA expedite 
corrective actions and let us know shortly how it plans to 
address them. In another report, we provided OMB with comments 
on its updated Recovery Act guidance.
    We are currently auditing EPA's use of contractors' past 
performance evaluations and responsibility determinations in 
awarding Recovery Act funds. We have initiated work to assess 
concerns expressed by public interest groups about how funding 
set aside under the Recovery Act for green projects will be 
used. Shortly, we will start an audit focused on looking at 
States' processes to award State Revolving Funds.
    In conclusion, the purpose of the Recovery Act as it 
applies to EPA is to preserve and create jobs, promote economic 
recovery, and invest in infrastructure and other environmental 
protection activities that will provide long term economic 
benefits. The OIG's role is to assess whether EPA is meeting 
its responsibilities and to hold EPA accountable for the funds 
it expends. We have already initiated a number of activities 
designed to prevent fraud, waste, and abuse of Recovery Act 
funds and to help ensure the Act attains its stated purposes. 
We will revise and update our oversight plans as necessary to 
ensure that fraud, waste, abuse, and mismanagement is 
identified and addressed.
    Thank you for the opportunity to testify before you today. 
I would be pleased to answer any questions you may have.
    Ms. Markey. [Presiding] Thank you very much, panel.
    This first question will go to General Scovel. Has the 
Office of the Inspector General received any reports of fraud 
under the Recovery Act programs yet? If so, what investigative 
actions is your office taking to prevent waste, fraud, and 
abuse, in the Recovery Act projects?
    Mr. Scovel. Thank you, Ms. Markey. I am not aware yet that 
we have received any specific reports related to fraud tied to 
Recovery Act programs. I can say that when I checked on Monday 
with our hotline center, I was told that we had received as of 
Monday eight calls to date related, we think, to Recovery Act 
matters.
    One of those calls asked the question--it originated in a 
midwestern city where apparently the caller thought airport 
improvement work was being done under FAA's AIP program--the 
caller asked why a contractor who had been convicted in the 
past was allowed to receive an FAA contract to perform this AIP 
work.
    That is the kind of question that we have gotten so far. We 
intend to follow up on every single one of those. But I am not 
aware of any other specific fraud related questions to my 
office.
    Ms. Markey. Okay, thank you.
    I will direct this next question to Ms. Heist. Ms. Heist, 
you note in your testimony that historically the State 
Revolving Fund programs are spent slowly, with only about half 
of the funds spent over the first three years. What steps has 
the Office of the Inspector General taken to help ensure EPA 
complies with the statutory requirements under the Recovery 
Act?
    Ms. Heist. One of the things that we are doing is we 
initiated an audit specifically looking at the States' intended 
use plans. Of course, SRF funds go through the State. One of 
the things that we will be looked at is the selection criteria 
that were used. We will also examine whether they looked to 
make sure that the localities that received funds actually had 
shovel-ready projects. So that is one of the things that we 
will be doing.
    Ms. Markey. Thank you.
    I do have one question for Ms. Siggerud. In your testimony 
you mentioned that in GAO's first bimonthly report, GAO 
recommended that OMB evaluate current information and data 
collection requirements. How well has OMB coordinated with the 
DOT to develop guidance to assist States and other entities in 
complying with the reporting requirements of the Recovery Act?
    Ms. Siggerud. Our sense is that the cooperation and the 
collaboration between OMB and all the Executive Branch agencies 
has been relatively constructive. The Department has actually 
been out in front of OMB in a few areas where the Department 
had expertise in terms of providing guidance to States in 
implementing these programs.
    We do feel, however, that as we go forward, and as States 
need to be able to track jobs as well as spending below the 
State level, that OMB needs to keep a close eye on exactly what 
these reporting requirements are. They need to make sure that 
they come to a cohesive whole rather than being overlapping or 
possibly over-burdensome.
    Ms. Markey. Thank you. Thank you very much.
    I would like to yield to the Ranking Member.
    Mr. Boozman. Thank you, Madam Chair.
    Inspector General Scovel, do you feel like you are 
positioned to appropriately and properly implement the fiscal 
controls that you are being asked to? I guess what I am saying 
is, do you have the tools in the toolbox to perform this? This 
is a huge job and it is a little different. Can you comment on 
that?
    Mr. Scovel. Certainly, Mr. Boozman. I would like to 
acknowledge gratefully the special appropriation of the 
Congress of $20 million to my Office so that we could carry out 
our oversight responsibilities for DOT with regard to Recovery 
Act matters. We intend to hire up. We certainly need more 
staff. We have a specific skill set we are looking for. We have 
already requested authority from OPM to rehire retired Federal 
annuitants and we intend to exercise that authority as well.
    We will be hiring auditors and investigators as well as a 
much smaller number of special support people. We think that 
within a couple of months, sir, we will be very well 
positioned. Our audit and investigation plans right now are 
predicated both on our hiring up and looking forward so that we 
can ensure that we give adequate coverage across the entire 
Department's Recovery Act efforts.
    Mr. Boozman. Good. I think that all of us are committed on 
both sides to helping you in any way that we need to in that 
regard.
    Ms. Siggerud, Section 1201 of the Recovery Act requires 
separate job creation reporting requirements for DOT. Do you 
agree that Section 1201 requires DOT grant recipients to report 
the number of direct-on project jobs created or sustained or is 
it rather just an estimate of job creation?
    Ms. Siggerud. We have not looked at this issue in detail, 
Mr. Boozman. My understanding is that States are to report to 
the Department direct and indirect job creation. I do not 
believe there is yet any specific direction as to the 
methodology for doing that.
    Mr. Boozman. Thank you.
    Ms. Heist, at previous hearings we have had witnesses tell 
us that one of the main reasons that we have some of the 
infrastructure problems that we have is that communities have 
not maintained their infrastructure. I guess the question is, 
what are we going to do to ensure that the money that we give 
to communities without good asset management plans, are we 
following up on that to make sure that we are not rewarding bad 
behavior of the past?
    Ms. Heist. Our office has not specifically looked at that 
recently. We will look at that when we are looking at the 
intended use plans that the States have put together. But that 
is an area that is particularly important, I understand, as to 
why we do have some of the problems that we have today. So we 
will need to take a look at that.
    Mr. Boozman. Good. I would appreciate that. Again, I think 
we all would agree that is something that we really do need to 
look at and, like I say, make sure that we are not rewarding 
bad behavior.
    Thank you, Madam Chair. Thank you to the panel. I enjoyed 
your testimony.
    Ms. Markey. I would also like to thank the panel for being 
here with us today. You are dismissed.
    At this time we would like to seat panel number four. We 
have the Honorable Allen Biehler, Secretary of Transportation, 
State of Pennsylvania, representing the American Association of 
State Highway and Transportation Officials; Mr. Matthew Millea, 
Acting President, New York State Environmental Facilities 
Corporation, representing the Association of Interstate Water 
Pollution Control Administrators; Mr. J. Barry Barker, 
Executive Director, Transit Authority of River City in 
Louisville, Kentucky, representing the American Public 
Transportation Association; and Mr. Michael Morris, Director of 
Transportation, North Central Texas Council of Governments, 
representing the Association of Metropolitan Planning 
Organizations. Thank you all for being here.
    We are voting right now so we are going to need to recess 
for a few minutes so that we can vote. We will reconvene 
shortly. Thank you.
    [Recess.]
    Ms. Edwards. [Presiding] The Committee will reconvene. We 
thank you for your patience. We have introduced the first 
panel, so we will hear from the Honorable Allen D. Biehler, 
Secretary of Transportation, State of Pennsylvania; Mr. Matty 
Millea, President of the New York State Environmental 
Facilities Corporation; Mr. J. Barry Barker, Executive Director 
of the Transit Authority of River City in Louisville, Kentucky; 
and Mr. Michael Morris, Executive Director of North Central 
Texas Council of Governments. Thank you very much for your 
patience.
    Mr. Biehler?

  STATEMENT OF ALLEN D. BIEHLER, SECRETARY OF TRANSPORTATION, 
 STATE OF PENNSYLVANIA, REPRESENTING THE STATE ASSOCIATION OF 
   HIGHWAY AND TRANSPORTATION OFFICIALS; MATTHEW J. MILLEA, 
   PRESIDENT OF THE NEW YORK STATE ENVIRONMENTAL FACILITIES 
 CORPORATION, REPRESENTING THE ASSOCIATION OF INTERSTATE WATER 
 POLLUTION CONTROL ADMINISTRATORS; J. BARRY BARKER, EXECUTIVE 
DIRECTOR, TRANSPORTATION AUTHORITY OF RIVER CITY IN LOUISVILLE, 
   KENTUCKY, REPRESENTING THE AMERICAN PUBLIC TRANSPORTATION 
 ASSOCIATION; AND MICHAEL MORRIS, DIRECTOR OF TRANSPORTATION, 
 NORTH CENTRAL TEXAS COUNCIL OF GOVERNMENTS, REPRESENTING THE 
       ASSOCIATION OF METROPOLITAN PLANNING ORGANIZATIONS

    Mr. Biehler. Madam Chairman, thank you very much.
    Let me start by saying first thank you on behalf of all of 
us, in this case especially ASHTO, for securing over $46 
billion in transportation funding as part of the Recovery 
package. This funding will create or sustain thousands of jobs 
and fund transportation improvements in communities all over 
America.
    I want to emphasize five points for your consideration. One 
is that because State departments have already geared up and 
were, in fact, geared up in advance of the legislation, we are 
seeing the following things: Funds being obligated swiftly, 
projects already under construction, people going back to work 
in good paying jobs, bids coming in under estimates, and we 
believe funds well spent to extend the life of existing 
highways and create new transportation assets.
    The $27.5 billion in flexible economic recovery funding 
provided for highways, States are required to obligate 50 
percent of the funding they receive by June 30. According to 
the Federal Highway Administration's report as of April 27, 
about $8 billion has already been obligated. We are well on our 
way. Also, FHWA has approved projects in all 50 States as well 
as the District of Columbia. Our expectation is that all 50 
States and the District of Columbia will meet easily the 50 
percent obligation date.
    We appreciate the fact that in Pennsylvania, specifically, 
Pennsylvania has been allocated $1 billion in stimulus highway 
funding. I just want to note the cooperation that has taken 
place between the Pennsylvania Department of Transportation and 
the 23 metropolitan and rural planning organizations that met 
quickly to help select projects to be funded through the 
economic recovery program.
    In anticipation of the funding legislation, in fact, 
PennDOT began discussing candidate projects as early as January 
with the metropolitan and rural planning organizations. Once 
the law was enacted on February 17, these agencies began to 
work as quickly as they could. Frankly, by March the 9th, all 
23 organizations working with the Pennsylvania Department of 
Transportation had taken official action and created a final 
list of specific projects that each of the regions approved.
    The aggregate list in Pennsylvania contains roughly 242 
projects totaling $1.026 billion. To give you a sense of the 
kind of projects we have, about 40 percent of those projects 
are bridge rehabilitations, repairs, and replacements. Another 
40 percent are highway repaving projects. The remaining 20 
percent are a mix of safety projects, congestion management, 
and enhancement projects.
    Just to kind of bring you up to date in Pennsylvania, as of 
yesterday, Pennsylvania had received Federal obligation 
authority for 122 projects valued at $359 million. Again, our 
target is ultimately to obligate all $1.26 billion. We have 
also opened bids on 62 projects totaling $129 million. I am 
happy to tell you that construction work has already begun on 
some of our projects.
    Let me just quickly highlight a few other States and what 
they are doing to put their economic recovery dollars to work. 
Florida is using $56 million to widen six miles of a major 
connector between Interstate 10 and Interstate 95, which is one 
of the hurricane evacuation routes. In Oklahoma, work is 
already underway on a $45 million job to rebuild 18 miles of 
Interstate 40, a major truck route which carries 39 thousand 
vehicles a day. Tennessee is using highway funds to replace 10 
deteriorating county bridges.
    With the flexibility provided in the Recovery Act, a number 
of States are investing highway funds in other projects such as 
bicycle/pedestrian projects, transit, freight rail, and port 
projects. In Ohio, 22 freight rail projects will be funded with 
$78 million in the highway fund portion. Highway funds are also 
being flexed to transit for buses and bus shelters in Florida, 
a pair of transit vehicles in Indiana, and ferry terminal 
upgrades in New York. More than 40 percent of the Oregon 
highway funds will go to rail/port/transit/bicycle and 
pedestrian projects.
    Across the Country, States are seeing project bids coming 
in significantly below estimates. Projects have come in ranging 
somewhere between 5 and 25 percent below estimates. In Kansas, 
I think the first project that they opened back in April came 
in at 27 percent under the original estimate. By April, the 
Oklahoma Department of Transportation awarded contracts on 45 
projects, costing $230 million. These bids came in 20 percent 
below. In Pennsylvania, our estimate currently is about 17 
percent below.
    So it is significant. And, frankly, if this trend 
continues, it means that we are going to be able to stretch our 
money even farther to deliver both jobs as well as good 
projects.
    Secretary LaHood estimated on April 20 that the $7.5 
billion in State requests for highway, road, bridge, and 
airport projects approved to date will produce 39,000 jobs.
    In regards to reporting requirements, States are complying. 
Many have created their own websites to provide the 
accountability and transparency desired. We appreciate the 
efforts of the T&I staff working with ASHTO to make the 
reporting as efficient as possible.
    Let me just also thank the Committee for their special 
efforts with, as I said before, securing these dollars. It is 
clearly going to help address part of a long backlog of needs 
that in my conversations with my counterparts every single 
State has in one shape or another.
    Let me just close by saying that as we enjoy the 
opportunity to deliver the stimulus projects, I would be remiss 
if I did not at least mention that we obviously face some other 
issues and probably in a short period of time. Certainly the 
$8.7 billion recission called for in SAFETEA-LU is one issue. 
Without a new infusion of resources in the trust fund, 
insufficient resources will not allow us to maintain our 
current program into the next year. I know you will work to 
help us work together to deal with that.
    Finally, let me just say special kudos to the Federal 
Highway Administration. They were working along side all of us 
as far back as December, encouraging all of us to be positioned 
well. I think that has been one of the keys to our success. It 
has really been a pleasure to work with that agency.
    Thank you very much.
    Ms. Edwards. Thank you, Mr. Secretary.
    Mr. Millea?
    Mr. Millea. Madam Chair, thank you. On behalf of Governor 
David Patterson, thank you for inviting me to participate in 
today's hearing on the implementation of the American Recovery 
and Reinvestment Act.
    The Environmental Facilities Corporation has administered 
the Clean Water SRF in New York State since 1990, providing 
almost $10 billion in financial assistance to over 1,300 clean 
water projects. Our needs, however, remain great. Following the 
enactment of ERA, Governor Patterson received $6.5 billion in 
requests for ready-to-go sewer and wastewater treatment 
projects via his economic recovery site, bringing our immediate 
demand for financing in excess of $11 billion for close to 
2,000 projects.
    With regard to ERA implementation, I would like to take 
this opportunity to express our thanks to EPA Administrator 
Lisa Jackson and her staff who have worked tirelessly over the 
past two months to help the States succeed in providing these 
resources to ready-to-go water quality projects. They have all 
worked very hard to help the States move forward quickly on 
this important mission.
    And moving quickly, we are. I am very pleased to report to 
you today that New York State has already applied for and 
received conditional grant approval from EPA for its ERA 
funding. We were thrilled to have Administrator Jackson travel 
to Albany on April 3rd to present Governor Patterson with our 
grant approval for $432 million for the Clean Water SRF 
program.
    We have also worked very hard to develop what we believe is 
a transparent and effective plan to fund ready-to-go job-
creating projects while also promoting the focus on building 
the energy efficient, water efficient, environmentally 
innovative projects. As you know, ERA requires the States to 
reserve 20 percent of their capitalization grant for green 
innovations projects, which for New York State is approximately 
$86.5 million. We will use $51.5 million of our green reserve 
as additional principal forgiveness for traditional Clean Water 
SRF projects. This money will help the clients that receive ERA 
assistance to take that extra step and include the most up-to-
date water and energy efficiency technologies in their 
projects.
    I am also pleased to report that New York State is adding 
$14 million of its own money to this effort from the proceeds 
of recent carbon credit auctions in order to further 
incentivize the deployment of energy efficiency measures at 
these facilities. EFC will dedicate the remaining $35 million 
of the green reserve to a new Green Innovations Grant Program.
    On April 13th, Governor Patterson announced a call for 
projects for this new program which will provide 90 percent 
grant funding for non-traditional SRF projects such as the 
deployment of low impact development strategies including the 
use of green infrastructure, green roofs, urban forestry, 
energy efficiency measures, wastewater treatment facilities, 
and water conservation strategies. Applications are due on May 
29 and we expect a tremendous response.
    With regard to the additional subsidization authorized in 
ERA, EFC opted to provide projects with 50 percent principal 
forgiveness and 50 percent low-cost financing. Communities may 
increase their grant funding by including the energy efficiency 
measures or other green innovations I just mentioned. A $10 
million treatment plant upgrade may include an additional 
$750,000 in energy efficiency improvements or $250,000 for the 
construction of a green roof, for example. We would fund this 
$1 million cost increase via our Green reserve, thus providing 
our client with $6 million in principal forgiveness and $5 
million in traditional low-cost financing.
    We wholeheartedly welcome the return of Federal grant 
funding for Clean Water projects and we applaud this Committee 
and the House's efforts to continue this approach in the 
recently passed SRF reauthorization bill.
    We have also increased benefits for rural hardship 
communities. Qualified hardship communities currently receive 
an interest subsidy of as much as 100 percent in order to help 
make projects more affordable to the end user. We intend to 
provide ERA eligible hardship clients zero percent loans and up 
to 80 percent principal forgiveness based upon our hardship 
analysis.
    I am pleased to report to you today that once our 
implementation strategy was clear, we worked quickly to advance 
ready-to-go projects. On April 14, the EFC's board of directors 
approved our first 10 ERA eligible projects, requiring $170 
million in financial assistance. When complete, these projects 
will help to remove nitrogen from Long Island Sound, protect 
the Ramapo River Watershed in New York and New Jersey, improve 
the social and economic viability of two rural communities in 
upstate New York, and promote the use of green infrastructure 
to mitigate storm water runoff in the city of Syracuse. Our 
board of directors will meet again on May 14 and June 30 to 
approve additional ERA projects.
    While there are many challenges to implementing ERA, our 
greatest challenge to date has without a doubt been the Buy 
American provisions. But as you heard earlier today, we are 
very pleased to have seen the actual final guidance provided by 
EPA in the last 24 hours. It is extremely encouraging to see 
that. I think there are a lot of great things in that guidance. 
They have answered a tremendous amount of questions, and we 
look forward to working with EPA to execute the commitments 
made in that guidance. I think it has given us a lot of comfort 
that we can move forward on these projects more quickly now.
    Just in closing, I would like to express our gratitude from 
New York's perspective as SRF administrators, but also from CFA 
and ESWIFC, for the work of this Committee on SRF 
reauthorization. That has been a tremendous effort. We thank 
you for continuing to move forward on it. These funds are 
desperately needed not just through ERA but also in the years 
ahead as we have now identified so many more projects that 
require assistance. ERA is a great start but we need the 
assistance that will come through reauthorization in the years 
ahead.
    So in closing, thank you again for the opportunity to 
appear before you. This is a significant and historic time in 
the SRF program. We are grateful for the funds in the American 
Recovery and Reinvestment Act. And while there remains much 
work to do, I look forward to submitting further reports to 
this Committee as we continue to make progress in implementing 
this important program. Thank you.
    Ms. Edwards. Thank you, Mr. Millea.
    Mr. Barker?
    Mr. Barker. Thank you. Representative Edwards and Boozman. 
I thank you for the opportunity to testify today. I am speaking 
today on behalf of both the Transit Authority of River City, 
TARC, in Louisville, Kentucky, and the American Public 
Transportation Association, APTA. I have been TARC's executive 
director for 15 years, and serve on APTA's executive committee 
as the vice chair for governmental affairs.
    Thank you for the opportunity presented by the passage of 
the American Recovery and Reinvestment Act to demonstrate what 
public transportation can contribute to turning the economy 
around and to improving the quality of life in America. APTA is 
releasing a report prepared by the Economic Development 
Research Group which shows that every $1 billion of Federal 
investment in public transportation yields 30,000 jobs. Taking 
the $8.4 billion in the Recovery Act, that amounts to about 
252,000 jobs. Two-thirds of those jobs replace lost blue collar 
jobs with green jobs, green jobs getting people to and from 
jobs.
    Under the Recovery Act, TARC will receive $17.6 million. 
Thanks to FTA's pre-award authority provisions, we are moving 
swiftly on six projects. We have already opened bids on two 
projects. We received seven bids on what will be a lead silver 
certified maintenance annex, and we have received eight bids on 
our emergency power generation facility, all under budget. We 
open bids on Monday on the remaining two construction projects 
that deal with roofing and facility rehabilitation.
    The four construction projects will produce 227 jobs. At 
each of the pre-bid meetings, we asked the Louisville Urban 
League to highlight their construction pipeline program making 
contractors aware of trained potential employees, the majority 
of which are minorities and women. Some 80 of the 227 jobs are 
related to green construction techniques.
    These 80 jobs are related to our lead certified maintenance 
facility. It is a $5.5 million project, 14,000 square foot 
building which we had ready to go and, in fact, postponed it 
because we prioritized the need to buy buses over building that 
facility. So we have been able to come back around and do just 
that. It will train operators and mechanics, the future of 
public transportation. It gives us space to maintain electronic 
components, and it provides us with a dedicated space to clean 
buses.
    It will have a bios well for storm water retention, a 
vegetative roof, solar panels to provide an alternate way to 
light the buses during clean, which, interestingly, was an idea 
of one of our maintenance employees, so we won't be needing to 
run the bus during the cleaning cycle but we can actually power 
it off the solar panels. The building is estimated to utilize 
20 percent less energy than a conventional building.
    We are adding 10 hybrid buses to our fleet. We will be 
using options provided by our sister agency, the Nashville MTA, 
to buy Gillig hybrids manufactured in Haywood, California. By 
using components across the Country, the engines and the drive 
trains will be manufactured just up the road from us in 
Indiana.
    These examples mirror activity occurring across the 
Country. Last fall, APTA identified 787 ready-to-go projects, 
which include examples discussed with this Committee. The 
Virginia Rail Express, VRE, has added four locomotives to its 
original order of five to be manufactured by Motive Power in 
Boise, Idaho. Muncie, Indiana is ordering its first three 
hybrid buses from Gillig. The Chicago Transit Authority has 
already started vital track reconstruction on their Blue Line 
and is ordering 58 articulated buses from New Flyer in St. 
Cloud, Minnesota.
    I think I can speak for all the transit agencies throughout 
the Country when I say this current Congress is generating 
fresh energy and renewed commitment to public transportation 
throughout the Nation. APTA has for decades promoted the role 
of public transportation in improving our economy, reducing 
energy dependence, and caring for the environment. Today, with 
the support of this esteemed Congress, our message is taking 
hold in historic proportions and we are optimistic that your 
support will be a key factor in improving public transportation 
and the quality of life in the communities throughout America. 
Thank you.
    Ms. Edwards. Thank you, Mr. Barker.
    Mr. Morris, I believe I misspoke earlier. You are the 
Director of Transportation of North Central Texas Council of 
Governments. Thank you for your testimony.
    Mr. Morris. Thank you very much, Madam Chair Edwards, for 
the invitation, and Ranking Member Boozman, thank you for 
inviting us today. My name is Michael Morris. I am the Director 
of Transportation at the North Central Texas Council of 
Governments.
    We are the metropolitan planning organization for Dallas/
Fort Worth. Today I represent the Association of Metropolitan 
Planning Organizations. There are almost 400 of us from across 
the Country. Chairman Oberstar was in our region last week with 
Congressman Edwards. It was very nice to see the Chairman take 
the time to bring the message of economic recovery to the 
Country. Ranking Member Mica comes to our region every year 
with Congressman Doctor Burgess to our transportation summits. 
So please pass on to Congressman Mica our thanks for coming to 
our transportation summit every year. And, obviously, Eddie 
Burness Johnson is a strong Congressman in our region and a 
strong Member of this Committee, and obviously a strong 
advocate of transportation in our region. Please thank all of 
them for their service.
    It is an honor to be part of this panel. Three of us also 
serve on the Transportation Research Board executive committee 
as part of the National Academy of Sciences.
    First, from the perspective of the Association of 
Metropolitan Planning Organizations, and, yes, Madam Chair, we 
MPOs have the responsibility to get cities and counties 
involved in the process and look forward to working with you in 
the new legislation to make sure metropolitan planning 
organizations live up to their responsibility with regard to 
the appropriate size of their region. To give you some 
perspective, the State of Maryland can fit inside the Dallas/
Fort Worth metropolitan planning organization, both in land 
area and in population, as we aggressively move out to 12 
counties around the Dallas/Fort Worth region.
    I, too, want to thank you very much for the very Act itself 
and the ability of moving forward on funding, desperate funding 
for transportation. I hope you would keep track of four 
elements of job growth.
    First, the direct jobs that are created from transportation 
expenditure. I ask you to keep track of the indirect jobs that 
are then created as those construction workers need other goods 
and services.
    I ask you to keep track of those projects that have 
capacity improvements in them, because as you change the 
capacity of the system you increase the productivity and just 
in time delivery as well as the productivity of the person on a 
rail or transit investment, and that has direct job creation 
benefits to the economy.
    And we ask you to keep track of a fourth element, and that 
is those of us who are leveraging other funds in addition to 
your economic recovery funds to actually develop other 
partnerships and other leverages in funding, because your 
dollars alone are not the only dollars going into a lot of our 
transportation projects and the magnitude of the job creation 
is even larger when there is a partnership in leveraging with 
other programs that we may have with the Federal, State, or 
local amounts.
    I think you should celebrate your out-of-the-box program 
and I think you should take advantage of this momentum as you 
go into the new transportation bill.
    I, too, want to thank the Federal agencies, Federal 
Highways and Federal Transit in Washington for their early and 
constant communication about this particular program. And I 
want to again thank you for the direct inclusion of 
metropolitan planning organizations in the selection process.
    Let's review the work of the MPOs in the first 100 days. 
Projects are proceeding that have been on hold for years. They 
are occurring at a time at their lowest project cost. Now I 
know this is not a coincidence. You would have never created an 
economic recovery program if, in fact, we had full employment 
and were in inflationary times.
    But you happened to develop, as the Secretary indicated 
earlier, a very nice timeframe with regard to getting projects 
to construction, because there is more competition, the project 
costs are coming in less, and it permits us to build more 
projects and, obviously, employ more persons as a result.
    We are advancing multi-modal transportation projects, not 
just on the passenger rail but on the goods movement side. 
There is very close coordination with the States. This is a 
partnership with the States that you have outlined and we have 
implemented.
    You are helping metropolitan planning organizations of all 
sizes. We are getting reports that some metropolitan planning 
organizations are seeing a doubling in their transportation 
revenue. The selection process is nearly complete with regard 
to the metropolitan planning organizations. For the larger 
metropolitan planning organizations that selection has been 
completed and has accompanied the State reports to you, the 
1511 reports, in their selection process.
    Transparency is obviously critical. In fact, I think 
transparency is here to stay. The more transparent all of us in 
transportation and government are, the more the public will 
understand what it is we are trying to accomplish, and they 
will have a greater opportunity to support transportation 
revenue increases as they have to come in the future. And when 
there is not transparency, there is concern, and with 
transparency comes those particular improvements. You have a 
grassroots approach and we think that is how you develop 
successful projects.
    We encourage the Secretary and maybe even the chairs of 
this organization to communicate to FHWA divisions and FTA 
regions now as these projects are moving forward through what 
is called the bureaucratic process that these projects do not 
get held up in some nuance with regard to a division or a 
region as the hard part has been done and now these projects 
should go into letting.
    With regard to Dallas/Fort Worth, let me finish by saying 
we took great advantage of the second and third elements of the 
job growth, the capacity and the partnership and leverage. Our 
region received in sub-allocated amounts and State amounts 
roughly $400 million and we are moving forward on $3 billion 
worth of transportation projects in Dallas/Fort Worth through 
that partnership and leverage, matching rail projects and 
roadway projects from other funding sources to get these 
projects implemented.
    I want to thank the Texas Department of Transportation who 
has held weekly conference calls for the last three months 
getting everyone on board. We are seeing costs in the Dallas/
Fort Worth region coming in 20 to 30 percent below engineers' 
estimates. Again, the timing could not be better. We are now 
entering that letting process to complete this implementation 
and encourage the passion that this Committee has is 
communicated to all people along the line on the importance of 
getting these projects done.
    Several institutional approaches were used to expedite 
construction. One of our large projects, TxDOT has issued a 
design-build contract. We have another large rail project where 
the rail transit agency will be implementing the project. We 
have another project where the local toll authority will be 
administering the construction contract. And, of course, TxDOT 
will be using their regular construction methods.
    Our region wants to have a legacy with regard to what it is 
we are doing. We want people to remember we understand the 
sensitivity and pressure on you using general funds to 
implement this program. These are large projects, huge aviation 
accessibility to major airports, huge safety projects, huge 
sustainability projects with passenger rail. I personally 
signed a 1511 certification in order to expedite the transit 
projects in our particular region at the request of the Federal 
Transit regional administrator.
    Let me end with don't stop here. Maintain this focus on 
outcome. Keep changing the corporate culture in this town that 
we have to move from process to outcome. We need to eliminate 
stovepipes. We need to give States flexibility to solve the 
people's business. We need sustainable communities. We need 
sustainable projects. You need to focus on a national 
transportation system and keep us internationally competitive. 
That is what is going to continue and grow this particular 
economy.
    And as the Secretary indicated earlier, we do need to fix 
this recission issue or this is going to look a little weird 
advancing projects very quickly in the spring and having to 
hold up projects in the summer. The MPOs and the people at this 
table stand ready to support you in any way necessary to make 
sure those recissions are not fulfilled. The MPOs have worked 
overtime literally to meet your schedule and we stand ready to 
continue the momentum that you have created.
    Again, thank you very much for the invitation to be here 
today.
    Ms. Edwards. Thank you, Mr. Morris.
    I think we will proceed with questions. I want to say to 
all of you first of all thank you for your participation today. 
It has been a long day but a really important one. I think the 
American people expect us, given the expenditures that have 
been made, that we really pay attention to where the funds are 
going, whether the projects are moving forward, whether there 
are jobs being created. And so your patience is appreciated by 
the taxpayers as well.
    Secretary Biehler, in your testimony you mention that you 
expect Pennsylvania to receive contract bids for all your 
highway stimulus projects by the end of August. That is long 
before the requirement that all funds be obligated within a 
year. What suggestions and pointers do you have, and especially 
in your role at AASHTO, what suggestions can you give other 
States that are struggling to move as quickly as your home 
State?
    Mr. Biehler. First of all, I think the States in fact are 
moving pretty darn quickly just in general. It depends on the 
kind of projects you have. In the case of Pennsylvania, we 
concentrated on fix it first projects typically. So $800 
million out of our $1 billion are highway and bridge fix it 
first projects that we knew that we had already cleared through 
the environmental process or had just barely minor permitting 
issues left to deal with.
    Our watchword also was that a project had to have a design 
done, or it was okay if it was a design-build project. With 
design-build, obviously you put it out before the design is 
finished but you at least have to specify enough detail so that 
there is a clear and understood project that bidders are 
bidding on. But in our particular case, as I say, we looked for 
things that were clearly ready in our opinion. Some other 
States had projects that were good ones that were going to take 
a little bit more time. And so they have selected to use the 
full range of the Act's authority to allow obligations up to 
and through March of next year. So it is simply dependent on 
the mix.
    In our particular case also, and I a sure other States are 
doing this, but what we did is dedicate a special group of our 
construction team that let these projects out and dedicated 
them specifically to this work. In fact, Pennsylvania this year 
has a base program of nearly $2 worth of program. This adds 
another 50 percent. So we are in fact letting $3 billion this 
year. In fact, in a five month period about $2 out of that $3 
billion will be let. So we have just simply pulled out all 
stops.
    But for us the key has been make sure the project was 
shovel ready. It had nothing to do with the fact that we have a 
very mean Governor who said if you don't get it done by August 
you are fired. So that was just another little tidbit there. 
Our Governor, seriously, really tried to push us to say, look, 
obviously we want to be responsive. The Governor also, as many 
of us know, we are on trial in terms of performance getting 
ready for reauthorization. That was another fact. But in our 
case especially, the Governor was concerned about getting as 
much of our unemployed citizens to work as soon as we possibly 
could.
    Ms. Edwards. We can try to add meanness to the governing 
criteria. But I wonder if you could explain also to the 
Committee how much time it normally takes from the time you 
obligate a project to putting shovels into the ground. Have you 
or other States taken this opportunity to try to shorten that 
process?
    Mr. Biehler. Yes, we sure have. Again, because they are 
shovel-ready kinds of projects. Normally we are well over 100 
days between those two time frames. We have shortened our bid 
period, we have shortened the period after we receive bids to 
review and qualify the bids and award the contract, and then, 
finally, we have also shortened the period of time between 
award and notice to proceed.
    We also are accompanying our awards with encouragement to 
the contractors to not wait. If we are telling you because we 
are awarding you the contract that you have got the job, we are 
saying do not wait for notice to proceed. That means if you can 
start ordering materials, it will quicken the actual time 
between notice to proceed and actually having people on the 
job. So we have cut a significant amount of time. It was 130 
days. We are trying to get it down to under 60 or 70 days.
    Ms. Edwards. Do you have any sense of what other States are 
doing, or does ASHTO have a plan? It would be great to have 
some sense of how that is going because the rap is that it is a 
process that takes time. And I think what we are seeing 
demonstrated, in fact, is that when the rubber meets the road 
and the money is there and the requirements are there, folks 
can move a little bit faster than they had anticipated.
    Mr. Biehler. I think that is a good observation. In the 
case of the various States, they have used whatever their 
current bidding procedures are to modify wherever they can. So 
the stories are probably different from various. We would be 
happy to kind of reach out to our members to identify some of 
the best practices, if that is useful to the Committee.
    Ms. Edwards. Lastly, in your testimony you also mention 
that the Federal Highway Administration noted a substantial 
variation in how the States certify maintenance of effort with 
regard to State transportation funding required in Section 1201 
of the Recovery Act. Can you describe your State's experience 
in certifying maintenance of effort?
    Mr. Biehler. Yes. In fact, we also are one of the States 
that received a letter just last week from the Secretary 
pointing out that we may want to in fact modify our maintenance 
of effort certification because I think the determination in 
our case was we used language that could be considered 
qualifying the maintenance of effort, which is not allowed. As 
a result, we are going back to review our document and will be 
modifying it on or before the deadline of May 22 to make sure 
it is in compliance. But we used the typical practice.
    Our basic document that we depend on for maintenance of 
effort determination is our four year transportation 
improvement program. So over that period of time we make our 
calculations as to what level of State effort was going to be 
placed, what funding we expected to commit to over that period 
of time specified in the Act, and that was the basis of our 
calculation. But we will in fact, as I mentioned, probably be 
submitting a modified statement in concert with the Secretary's 
recent communication to make sure we are as clear as we can 
possibly be.
    Ms. Edwards. Thank you. I will yield to Mr. Bozman now. I 
may have additional questions.
    Mr. Boozman. Thank you, Madam Chair.
    Mr. Morris, does your association have a general consensus 
that State DOTs are issuing proper guidance about deadlines, 
project eligibility, and reporting requirements?
    Mr. Morris. I would generally, Congressman. I cannot speak 
for each of the 400 MPOs, but I have not been hearing anything 
from MPOs with regard to the communication either originally 
out of Federal Highways or with their State colleagues over the 
last three months.
    Mr. Boozman. You mention in your testimony about tight 
deadlines and how with the projects some of your partners had 
rearranged priorities. Can you elaborate on that?
    Mr. Morris. Well, metropolitan planning organizations are 
very close to local elected officials. Local elected officials 
are no different than yourselves. They ask, why does it take so 
long for transportation products to be built? They have very 
little tolerance and very little sensitivity to that particular 
question. So we are always out there eagerly looking for how do 
we streamline project delivery.
    When I say streamline, I am in no way trying to indicate 
bypassing or not being environmentally sensitive with regard to 
that particular process.
    So in our particular region, one example is what we call a 
federated approach. TxDOT does a lot of the construction but we 
have transportation authorities that build it. We don't have a 
centralized approach because I think a centralized approach can 
often hurt the procurement process. So the DFW International 
Airport builds projects and all these things occur in parallel.
    Now we are all implementing them off of a common plan but 
that doesn't mean you have to have a common institutional 
structure to deliver those particular projects.
    In the case of one of our big projects that is actually an 
interchange, as part of a toll road, none of the toll road 
sections are being built as part of the interchange, but we 
said to the toll authority if we were to give you this economic 
recovery money, does that give you then enough momentum to make 
that toll road then a viable project? And the answer was yes. 
So that is an example of partnership and leveraging.
    And we said, well, TxDOT's going to be busy building these 
two large projects over here. Why don't you go ahead and take 
on the letting of that particular project? So even though TxDOT 
had environmentally cleared the project and had designed the 
project, those two organizations are working together and the 
tollway authority will actually let the project, and in fact it 
will be let this summer even though it's a project we picked. 
It will be very much ahead of schedule, and TxDOT is working 
hard, busy on these other projects as part of their particular 
process.
    We often work in partnership for matches, would be a third 
example. You often, in our industry the classic example is 
you're waiting on 10 percent local costs to pay for right of 
way. And the local community doesn't have the 10 percent. So we 
have created a public sector credit union bank where the MPO 
has revenues, and we say to that community, look, you are 
holding up a $40 million project, and your cost of the 10 
percent of the right of way is $500,000.
    Why don't we loan you the $500,000 from the public sector 
credit union bank; you pay us back; and by the way, if there is 
any cost overages, the MPO has to pay for it. We can save 
millions of dollars and lower inflation costs by actually 
working out a partnership program financially with you.
    And I think one of the things you are going to hear in the 
future is what we call a metropolitan mobility authority, and 
that is this notion that innovative finance within the region 
across partners may be one of your fastest ways you can build 
projects.
    If the State DOT says, look, we can get to that, but you 
know, our cash flow doesn't permit us to do something. Could we 
have a particular amount of money or the transit authority or 
so and so forth?
    The best example I can give you is, you know, we had an up-
front toll road that created an up-front payment. We are using 
that up-front payment, well first of all, to build a passenger 
rail line without New Start money, but we are actually going to 
use toll road funds to move a freight railroad track to extend 
a runway at the Air Cargo Alliance Airport to be paid back by 
FAA over time.
    Now, in the current stovepipe approach that we all have 
learned and implement, there is no way you could use roadway 
funds to move a freight railroad track to extend a runway to be 
paid back with FAA funds.
    So I think the theme of your question is, and hopefully as 
you build momentum towards this storm that you have created of 
excitement with regard to this, not just financially getting 
transportation projects built and getting people back to work, 
but the notion that we can do this in a new accountable way and 
throw the old time frames away and focus on the people's 
business, if you can maintain that enthusiasm into the next 
transportation bill, I think you will be shocked at the 
innovation that is out there in States, transit agencies and 
MPOs to do things completely different than they have ever been 
done in the past.
    Mr. Boozman. Thank you.
    Do any of the rest of you want to comment? You know, we had 
the big commission that basically said that the average road 
time of construction was I think 10 to 13 years, you know, 
something like that. Can you comment specifically about, you 
know, what is different now than the commission's finding of 
the 10 to 13 years to get these projects done?
    Now, I know we are moving forward at this point. We have 
money obligated, but again, what are we doing different now 
that is going to cause us not to see the delays that, you know, 
we historically have?
    Yes, sir?
    Mr. Biehler. In the case of Pennsylvania, I can tell you 
that one of the things that Pennsylvania is doing as we 
approach projects that are either roadway widenings or 
relocations or new facilities, we don't have a lot of them, I 
will tell you, because we have been spending so much money on 
repairs to our system, but on new ones one of the things we've 
been asking ourselves is, is there a design that perhaps you 
don't have to design a road at 65 miles an hour; perhaps you 
don't need median widths that are 30 feet wide in every case; 
perhaps you don't need shoulder widths that are significant.
    And the question is, if you look at different scales and 
look at full flexible design sort of opportunities, can you 
avoid some of those issues that just go on forever and ever and 
ever, whether it is running into historic property, which are 
so critical; whether it is running into natural environmental 
issues; whether you are simply having such a deleterious effect 
on a community that the community is just, you know, is very 
upset. Those things really add time.
    So one of the things we are doing, using the term smart 
transportation, our friends in Missouri use the term practical 
design to look at things a little differently, and still end up 
with a decent mobility improvement, but look at the fit and 
design scale to see if in fact you can produce a project that 
has less of those obstacles.
    You get into that, you get into right of way relocation, 
right of way acquisition, and utility relocation that goes 
along with that, wow, it is just one layer on top of another on 
top of another. And in addition, the final issue is the cost. 
The cost differences can be so significant as to not allow you 
to do that.
    There was one project, I will just tell you, that five 
years ago had a price tag--it was an eight-mile piece of 
freeway with three interchanges--our price tag was $465 
million. We had already spent $80 million. On one of the TIP 
updates, I determined there was not a chance in the world, even 
over the next 20 years, could I deliver this project.
    So I kind of went hat in hand to the community and the 
legislators in the area and said let's have a difficult 
discussion. I said I can't do this project. And some of those 
folks had worked tirelessly to try to urge it through.
    The bottom line was, we went back and redesigned the 
project. It is now instead of a four-lane freeway, 80 percent 
of it is a two-lane arterial, 20 percent is a four-lane 
facility with a series of upgraded intersections instead of 
interchanges. We had the groundbreaking in November and a whole 
lot of folks were singing praises. But to go through that kind 
of a change was our only way, in this case, of delivering 
something within a reasonable time frame.
    Mr. Barker. One of the things that I have seen occur both 
with the folks that work with me at TARC and with the folks at 
FTA is that there is an excitement because they can get stuff 
done, and the whole notion of it needs to move, needs to be 
shovel-ready, needs to get out there, it is about jobs, it is 
about getting stuff done. It is a whole different conversation 
than having--well, yes, I know we need to fix that facility, 
but we have to put this money in capital costs and maintenance 
so we can keep service on the street.
    We now have the resources to move out and do some stuff. 
And frankly, the folks who work for me don't have many excuses 
anymore. Come on, this is a project you have wanted to do for 
years, get it done.
    And what we are seeing at FTA is that same sort of 
enthusiasm about getting stuff through the pipeline, through 
the process; getting it approved; getting the resources out 
there, because frankly this is what people got into public 
transportation for, was to provide quality services, not to 
keep looking at deteriorating buildings because we can't put 
money into them because we have to have service on the street. 
We are now out there being able to do what we got excited about 
doing.
    Ms. Markey. Thank you, Mr. Boozman.
    Mr. Millea, in your testimony, you explained that on April 
14, really just two weeks ago, your board of directors approved 
10 Recovery Act-eligible projects requiring $170 million in 
financial assistance. Do you have some sense right now that 
these projects have been approved, what do you do next to 
actually implement them? What is the timeline for carrying out 
the implementation? And how quickly will construction begin on 
the 10 projects? And what jobs do you expect? Because this is 
about jobs and so it is kind of, you know, you have them 
approved; where do you go next; and then when do you create the 
job?
    Mr. Millea. Sure. Really up until yesterday, the biggest 
obstacle we were facing I think nationwide for all of the SRF 
administrators was the buy American provisions. And now that we 
have some clarity on buy American, and we have some guidance on 
how to approach waivers for buy American, I think we will see 
all of those projects move forward very quickly, some of which 
were already in construction.
    One project in Middletown in Congressman Hinchey's district 
had already proceeded to construction and we needed the clarity 
to see if it really could be an ARRA-eligible project, and I 
believe it can be. A project on Long Island I believe will be 
shovel-ready within several weeks. The two rural communities I 
mentioned are bid-ready, and we were just waiting again for 
clarity on buy American.
    So that was really a logjam for all of us, I think EPA and 
the SRF administrators, and now that has been broken, we can 
move very quickly with those 10 projects to get them, maybe not 
all of them, I think one of the larger projects in Westchester 
is going through some serious design issues with nitrogen 
removal for Long Island Sound, a very important project. It 
won't be weeks, but it could be months, but the remainder, the 
other nine projects will be weeks and not months.
    Ms. Markey. I think it will be helpful for us to hear, you 
know, now that you have the guidance on the buy America 
provisions and you are able to move forward, whether that 
guidance is really what you expect and need to go forward. I 
think we will be interested in hearing, you know, in another 30 
days down the line that, you know, really the logjam has been 
broken.
    I don't know, Secretary Biehler, whether this is a problem 
that other States have had as well in their implementation.
    Mr. Biehler. Yes, not that I am aware of.
    Mr. Millea. The buy American, if I could just add, buy 
American was brand new for the water space in particular, and 
EPA. So it is something that I think our transportation friends 
were very familiar with. It is something that has been built 
into their processes over generations. For as the water space, 
as just a financing entity, we don't even run the projects, it 
is something that is very new to us, but we certainly 
understand the Chairman's point he made earlier today on why 
this is important to the Committee and Congress, and we are 
committed to moving forward with it. I look forward to, either 
myself or another State, reporting back in 30 days that what 
has been committed to in the guidance is being executed in a 
timely manner and we can move forward.
    Ms. Markey. Thank you.
    And lastly, Mr. Millea, you note also in your testimony how 
the New York State Environmental Facilities Corporation is 
asking all Recovery Act-funded clients to award their 
construction contracts no later than January 1, 2010, 
approximately a month and a half prior to what is required by 
law.
    Given that appropriations for State revolving fund programs 
are historically spent slowly, how is your State working to 
meet the requirements in the Act? And what lessons can you give 
to other States who struggle to meet this use it or lose it 
deadline?
    Mr. Millea. I think the grant funding is really the 
incentive. You know, with the grant funding, which we have not 
had since 1987 really, will come some requirements. And those 
communities that can achieve compliance with those requirements 
will benefit from that grant funding. And it is a very easy 
message to deliver.
    We don't want to hear complaints. We don't want to hear 
people say I can't do it. We have such a large queue of 
eligible projects that if they are not ready this month, they 
may be ready in six months, and if one of our top tier projects 
that are ready to go right now for whatever reason falls off, I 
am very confident that we will have projects that will be ready 
to go if that time comes on January 1 that we don't have a 
compliant project.
    So we are keeping people ready to go even if we do run out 
of funding, and that is based upon potential reallocation. That 
is based upon a potential failure of one of those 10 and future 
projects that we approve, and also based upon our hope that the 
President's appropriation is accepted by Congress and that we 
have a very healthy appropriation next year through the 
reauthorization, and that those projects that are queued up can 
get funding in the 2010 IEP.
    So we are telling everybody not to lose hope and to stay 
ready.
    Ms. Markey. Well, several of you have mentioned, you know, 
the work that we have yet to do on reauthorization, and we will 
take that into consideration, not for the purposes of this 
hearing, however.
    Mr. Barker, you mentioned in your testimony that both 
equipment purchases, the 10 hybrid electrical buses and direct 
construction projects that you have made with the Recovery Act 
funding. And I wonder from your experience, does one type of 
project move more quickly in creating jobs than another? And if 
you could describe a few of the awards and the challenges 
associated with both types?
    Mr. Barker. Well, I think the construction jobs are--it is 
clearer to see the result of those on a local level, because 
frankly that is where the bids are coming from. We were 
astounded by the response. We had at our first pre-bid on one 
of the construction projects, we had standing room only. We had 
51 people representing 47 firms. That ended up in seven bids, 
and they were all under budget. Folks are hungry to do that.
    We are pursuing a time table where we will have 
groundbreaking on each of those the first week in June. This is 
what we hope to have.
    The result from the buses, and purchasing buses is perhaps 
a little more diffuse, a little bit more subtle, but Gillig, 
the corporation we are buying those buses from, has already 
hired an additional 30 folks, and they have already started to 
place some preliminary orders around the Country for the 
various components for those buses.
    As I mentioned, the engines and the drive trains are made 
in Indiana. The seats are made in Michigan. There are other 
components in Ohio, and keep going. In fact, what APTA has put 
together is a diagram of a bus that illustrates the various 
components from windows, seats, engines, frame, the whole bit, 
that then shows where those components are coming from. It is 
very well distributed across the Country. So the impact of bus 
purchases is going to be tremendous in virtually every corner 
of the Country.
    Ms. Markey. So when you point out the 227 jobs created for 
your State, you may not even be including the jobs that are 
created, say if you purchased the buses, the jobs that are 
created downstream or upstream.
    Mr. Barker. Those 227 are related to the four construction 
projects. That does not include the buses, and doesn't include 
some 29 jobs that are being saved because we are able to 
utilize the money as capital cost to maintenance. We are 
spending about $1.2 million on capital costs to maintenance, 
which has a direct impact on operations, keeps service on the 
street, and keeps 29 bus operators and mechanics working, doing 
what they do best.
    Ms. Markey. When I read in your testimony that you are 
planning to apply for $2 million from the $110 million Transit 
Investment Greenhouse Gas Energy Reduction program to put solar 
panels on your bus barn roof, very exciting project, I must 
say.
    Mr. Barker. It is.
    Ms. Markey. Do you think other transit agencies are aware 
of this kind of program to reduce energy consumption and 
greenhouse gas emissions and the efficiency that that is 
creating for you?
    Mr. Barker. Well, the FTA has had two Web sites, two 
webinars related to that program. And up in the corner of the 
screen there is a little counter about the number of people who 
are online during those, and that has been up 100, 150, 175. So 
folks are aware of this.
    But this project is exciting because what we are doing is 
replacing a 30-year old roof, which is the equivalent of six 
football fields, and every time I fly back into Louisville, if 
I sit on the right side of the plane, I can see this expanse of 
tar that is doing nothing. I can't wait to see solar panels on 
it, regenerating electricity.
    We were estimating it is going to save us tens of thousands 
of dollars on an annual basis. We have already talked with 
Louisville Gas and Electric, and any spare electric that we may 
generate they would be happy to buy.
    Ms. Markey. Well, that is pretty exciting. We may have to 
figure out a way to visit that bus barn.
    Mr. Barker. Please come on down.
    Ms. Markey. Thank you very much.
    Just a couple of questions for you, Mr. Morris. In your 
testimony, you mention how you support complete transparency 
and public involvement. You spoke about that in our oversight. 
You also note how reporting from a single State agency has 
worked well.
    To what extent has the North Central Texas Council of 
Government coordinated with the State of Texas also to ensure 
accurate reporting? And how much is your MPO tracking project 
funded with Recovery Act dollars?
    Mr. Morris. Well, I think it is really important to point 
out that whenever something new comes along, those institutions 
that have good working relationships will shine. And those that 
don't have good institutional relationships, you are going to 
see some sort of problem.
    MPOs and the Texas DOT have been strong partners for 25 
years. So when a new initiative comes along, we talk on our 
conference call. What we are steering at is a family of four 
who the two parents have just been told that they lost their 
jobs, or are ready to lose their jobs, and you have this--and 
by the way, I think you see it with this panel today.
    Our job is to help you perform the Nation's business of 
getting these people back to work. And it is a very transparent 
process. TxDOT gets on the phone every Monday. Okay, where are 
we? They started off to be, you know, a heavily sort of a 
roadway maintenance notion. We talked about the secondary 
tertiary benefits of greater job growth with larger capacity 
projects. Oh, we are nervous if we do a lot of those; they 
won't meet Congressional intent; let's sort of see if we can 
get it.
    And it is just a weekly, okay, how did you make out? Okay, 
who doesn't know how to do what? Okay, this MPO will help that 
MPO, or this person will help that.
    And I have to give TxDOT a lot of credit. We have been on 
the phone every Monday since January. What do we do, common 
format reporting. We have a single signatory to a 1511 on all 
of our transportation projects because of Federal Transit 
Administration's interest, the regional administrator is to 
advance some rail transit projects where maybe the State was 
heavily looking at the roadway side.
    They asked me to sign a 1511 to permit the rail projects to 
proceed quicker. The State has no problem with that. If more 
people want to sign to ensure compliance, that is great.
    But you know, as commented earlier, Federal Highways did a 
great job of early communication to the States and MPOs, and 
the States I think have worked very hard because you see this 
family of four saying, okay, let's get after the people's 
business here. How do we all work together?
    And you know, we are doing it with salaried employees that 
are working weekends. It is not an additional cost. I am sure 
that TxDOT--I am sure the DOT employees across the State have 
worked nights and weekends to meet your requirements.
    I don't think we perceive a huge administrative cost in 
order to meet your compliance. You know, there are papers that 
have been written to keep track of employment as a performance 
measure in our profession for some time. There are ways to dust 
that off, and there are tools that are available to look at 
what I think are secondary benefits of job growth that should 
be included as part of the process.
    Ms. Markey. And so your experience, though, is that in 
terms of both the State and the reporting requirements for the 
MPOs that at any point in time, you should be able to tell the 
Department of Transportation, or even this Committee, here is 
where we are in terms of these projects, the money that has 
gone out, the jobs that have been created or saved, because you 
are tracking those things.
    Mr. Morris. Absolutely. And that will meet your 
requirements of these direct employees, and you have 
contractors on the transit and roadway side, keep track of who 
they actually hire and so on and so forth.
    But I do suggest to you that there are larger jobs being 
created because for every construction worker that is hired, 
there are two or three jobs, as you know, of other workers. 
They need shoes. They need clothes. There are secondary 
effects. They eat lunch. They need health insurance.
    And you know, you have tools. You have input-output models 
in this Country and RIMS II multipliers, and you have whole big 
buildings here that keep track of input-output models and 
transactions. I suggest to you to have conversations, so as you 
get into the reporting to this Nation and to this President 
with regard to what really happened, and you have economists 
that have been nervous about the role of transportation, we are 
advocates of transportation so we want full implementation of 
our impacts, so we can quell the critics who claim 
infrastructure should not have been included in this.
    We suggest to you that there is lots more job creation. So 
yes, we are more than happy to keep track of the rudimentary 
statistics, but we suggest to you, Madam Chair, there is 
actually secondary and tertiary benefits that are occurring 
from either capacity improvements or the manufacturing of 
buses, and even water projects that are here on this panel.
    Once we get these projects moving, I think we should stop 
and take a breath and actually work on the mechanics of the 
employment estimation and have its own peer review on how we 
are calculating that. So you have the benefits of the direct 
jobs, but the indirect job that I believe are being created 
through the leadership of that this Committee has taken.
    Ms. Markey. Well, thank you. And I know you know from our 
Chairman you are going to get little argument from this 
Committee about the value of investment in infrastructure for 
job creation.
    I would just like to ask you lastly, you heard Secretary 
LaHood's testimony earlier, I presume, about what their 
thinking is on the high speed rail funding. Do you have any 
comments about that? Do you have some sense of how the MPOs 
might serve as players in those programs?
    Mr. Morris. Yes, I believe again the MPOs and the States 
need to play a larger role. I think in some States, State DOTs 
are very connected. In some States like mine, the State DOT 
isn't highly connected. MPOs are playing a lot of a particular 
role. We are encouraging the State to take a stronger role.
    We are going to have an event in East Texas in two weeks, 
where we are bringing in representatives from congressional 
delegations in Arkansas, Louisiana, and Texas, from Little Rock 
to Tulsa to Dallas-Fort Worth to San Antonio and Austin. And 
develop basically a grassroots transparent exercise to advance 
high speed rail on Amtrak corridors that are already in the 
national plan--we have one that goes to our region--and 
continue to explore abilities of advancing that particular 
program.
    But you know, it can be a little ad hoc. Sometimes States 
are involved. Sometimes MPOs are involved. Sometimes railroad 
commissions are involved in that. You have to get the private 
sector class I railroads.
    Talk about a grassroots effort. You are going to see I 
think lots of grassroots efforts in this Country. I get excited 
about the opportunity that is there, both the eight million 
plus the five million initiatives. And I think it is important 
to again engage those citizens. You have citizens in East Texas 
that their biggest hope is to create high speed rail 
investments to go to large metropolitan regions, to go on 
planes, to travel to see their family. There are elements of 
the transportation system, logistics of that transportation 
system that are coming out now only because of the revenue that 
has come about.
    MPOs are now meeting with rural districts to work on the 
integration of these high speed rail investments.
    Ms. Markey. And of course, you heard from Secretary LaHood 
earlier that this is about the beginning of a system. So I 
think we are all looking forward to that.
    Mr. Barker, you had a comment? And then I will yield to Mr. 
Boozman.
    Mr. Barker. Yes. APTA has formed a task force looking at 
high speed rail principles for just the points that Michael has 
made in terms of facilitating the development of that whole 
system. I think it is going to be a very exciting time. That $8 
billion for high speed rail is a tremendous start payment to 
looking at how folks travel in this Country differently. And 
the reality at the end is it is going to benefit public 
transportation because as that high speed train pulls in, those 
folks have got to have a distribution network, and they have to 
have a way to get to the train. So it is going to be exciting 
times, I think.
    Ms. Markey. Mr. Boozman?
    Mr. Boozman. Thank you, Madam Chair.
    I really don't have any more questions. We appreciate your 
all being here and your testimony, both your written testimony 
and then today has been very, very helpful.
    Thank you.
    Ms. Markey. Thank you.
    And again, thank you for your patience and your insight, 
and we look forward to continuing to hear from you.
    The Committee is adjourned.
    [Whereupon, at 6:05 p.m. the Committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
